APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS,
TENTH CIRCUIT
_______
CHARLES FARRAR,
Petitioner-Appellant,
v.
RICK RAEMISCH, Executive Director, Colorado
Department of Corrections; CYNTHIA COFFMAN,
Attorney General, State of Colorado; JAMES FALK,
Warden, Sterling Correctional Facility,
Respondents-Appellees.
SCHOLARS OF FEDERAL HABEAS CORPUS,
Amicus Curiae.
_______
No. 18-1005
_______
Filed May 21, 2019
_______
Before BACHARACH, BALDOCK, and EBEL,
Circuit Judges.
_______
OPINION
_______

2a
BACHARACH, Circuit Judge.
Mr. Charles Farrar, a Colorado state prisoner,
appeals the district court’s denial of his petition for
habeas relief. In district court, Mr. Farrar claimed


actual innocence,



deprivation of due process based on the
recantation of a key prosecution witness, and



deprivation of due process based on a state
appellate decision establishing an overly
restrictive standard for a new trial.1

The district court denied relief, and we affirm
based on three conclusions:
1. Actual innocence does not supply a freestanding
basis for habeas relief.
2. A private citizen’s false testimony does not
violate the Constitution unless the government
knows that the testimony is false.
3. The alleged error in the Colorado Supreme
Court’s decision does not justify habeas relief.
I. Mr. Farrar is convicted and seeks postconviction relief.
Mr. Farrar’s convictions stemmed from complaints
of sexual abuse. The victim was Mr. Farrar’s
stepdaughter, who complained of the alleged abuse
when she was in the eighth grade. Based on the girl’s
account, state officials charged Mr. Farrar with over
twenty counts. Mr. Farrar denied the allegations. At
1

In district court, Mr. Farrar also presented other habeas
claims that are not relevant to this appeal.

3a
the trial, the girl’s testimony supplied the
prosecution’s only direct evidence of Mr. Farrar’s
guilt. The jury found Mr. Farrar guilty of numerous
counts of sexual assault and one count of child abuse,
and the state trial court sentenced Mr. Farrar to
prison for a minimum of 145 years and a maximum
of life.
Mr. Farrar appealed. While the appeal was
pending, the girl recanted her trial testimony. Given
the recantation, the Colorado Court of Appeals
granted a limited remand to the trial court so that
Mr. Farrar could move for a new trial. After Mr.
Farrar filed that motion, the trial court conducted
evidentiary hearings, where the girl testified that
she had fabricated her allegations of sexual abuse.
Nonetheless, the trial court denied the motion on the
ground that the recantation was not credible.2 Mr.
Farrar appealed again, and the Colorado Court of
Appeals affirmed the denial of the motion for a new
trial.3
On certiorari, the Colorado Supreme Court
affirmed. Farrar v. People, 208 P.3d 702, 709–10
(Colo. 2009). The court deferred to the trial court’s
2

For example, the court discounted some of the girl’s new
version of events because it included other “unbelievable” and
“far more heinous allegation[s],” including coercion by
prosecutors, law enforcement officers, and social workers
during the trial. Appellant’s App’x, vol. I at 518. The trial court
ultimately concluded: “Nothing that the Court heard or saw
during this post-conviction proceeding persuades it that the
newly discovered evidence would produce a complete acquittal
at a new trial. In all probability, another jury would accept
some of [the girl’s] contentions and reject others.” Id. at 520.
3

Mr. Farrar also appealed his convictions and sentence. But
those parts of the appeal in state court are immaterial here.

4a
credibility determinations and clarified Colorado’s
standard for a new trial:
Rather than merely creating reasonable doubt
by demonstrating that the recanting witness
has given different and irreconcilable
testimony on different occasions, recantation
can justify a new trial only if it contains
sufficiently significant new evidence, and if it,
rather than the witness’s inconsistent trial
testimony, will probably be believed.
Id. at 707–08 (internal citations omitted).
Mr. Farrar then unsuccessfully sought postconviction relief in state court, which led to this
habeas case.
II. We engage in de novo review without
applying 28 U.S.C. § 2254(d).
In habeas cases, we engage in de novo review of the
district court’s legal ruling. Hooks v. Workman, 689
F.3d 1148, 1163 (10th Cir. 2012). When applying de
novo review, however, we must consider the
applicability of statutory deference under 28 U.S.C.
§ 2254(d). See id. This provision states that a federal
court can grant habeas relief only if the state appeals
court acts contrary to a Supreme Court precedent,
unreasonably
applies
that
precedent,
or
unreasonably determines the facts. 28 U.S.C.
§ 2254(d)(1)–(2). If § 2254(d) applies, Mr. Farrar and
the amici argue that it would be unconstitutional.
Section 2254(d) does not apply. This section applies
only when a state appellate court has adjudicated
the merits of a constitutional claim. Byrd v.
Workman, 645 F.3d 1159, 1164 n.7 (10th Cir. 2011);
Hooks v. Ward, 184 F.3d 1206, 1223 (10th Cir. 1999).

5a
But the Colorado Supreme Court didn’t adjudicate
the merits of Mr. Farrar’s constitutional claims.
Instead, the court simply held that based on
Colorado’s standard for granting a new trial, the
denial of Mr. Farrar’s motion had fallen within the
trial court’s discretion. Farrar v. People, 208 P.3d
702, 706–10 (Colo. 2009). Because the Colorado
Supreme Court didn’t adjudicate the merits of the
constitutional claims, we do not apply § 2254(d).4
Hooks, 184 F.3d at 1223.
III. Habeas relief cannot be based on actual
innocence, a private citizen’s false
testimony, or the Colorado Supreme
Court’s definition of the state-law test for
granting a new trial.
Mr. Farrar argues that


he is actually innocent,



the girl’s false testimony violated his right to
due process, and



the Colorado Supreme Court committed a
due-process violation by establishing an
overly restrictive standard for the grant of a
new trial.

We reject these arguments.

4

In its appeal brief, the State asserted a defense of
procedural default. In oral argument, however, the State
expressly waived this defense.

6a
A. Actual innocence and false testimony by
a private citizen do not entitle Mr.
Farrar to habeas relief.
Mr. Farrar alleges that he is actually innocent and
his conviction was based on false testimony. But
even if these allegations are true, they would not
entitle Mr. Farrar to habeas relief.
1. Our precedents disallow habeas relief
based on freestanding claims of
actual innocence.
A distinction exists between claims of actual
innocence used as a gateway and as a freestanding
basis for habeas relief. As a gateway, a claim of
actual innocence “enable[s] habeas petitioners to
overcome a procedural bar” in order to assert distinct
claims for constitutional violations. McQuiggin v.
Perkins, 569 U.S. 383, 386, 133 S.Ct. 1924, 185
L.Ed.2d 1019 (2013). 5 Because gateway claims are
“procedural, rather than substantive,” they do not
“provide a basis for relief.” Schlup v. Delo, 513 U.S.
298, 314–15, 115 S.Ct. 851, 130 L.Ed.2d 808 (1995).
By contrast, a freestanding claim asserts actual
innocence as a basis for habeas relief. See House v.
Bell, 547 U.S. 518, 554, 126 S.Ct. 2064, 165 L.Ed.2d
1 (2006); Dist. Attorney’s Office for Third Judicial
Dist. v. Osborne, 557 U.S. 52, 71, 129 S.Ct. 2308, 174
L.Ed.2d 38 (2009).
5

For example, a showing of gateway actual innocence can
allow an applicant to file an otherwise-barred successive or
abusive petition, to avoid a statute of limitations, to overcome a
failure to develop facts or observe filing deadlines, or to assert a
claim otherwise subject to procedural default. McQuiggin, 569
U.S. at 392–93, 133 S.Ct. 1924.

7a
The Supreme Court has repeatedly sanctioned
gateway actual innocence claims, but the Court has
never recognized freestanding actual innocence
claims as a basis for federal habeas relief. To the
contrary, the Court has repeatedly rejected such
claims, noting instead that “[c]laims of actual
innocence based on newly discovered evidence have
never been held to state a ground for federal habeas
relief absent an independent constitutional violation
occurring in the underlying state criminal
proceedings.” Herrera v. Collins, 506 U.S. 390, 400,
113 S.Ct. 853, 122 L.Ed.2d 203 (1993). In rejecting
such claims, the Court has observed that “[f]ew
rulings would be more disruptive of our federal
system than to provide for federal habeas review of
freestanding claims of actual innocence.” Id. at 401,
113 S.Ct. 853.6
We have thus held that actual innocence does not
constitute a freestanding basis for habeas relief. See
Vreeland v. Zupan, 906 F.3d 866, 883 n.6 (10th Cir.
2018) (denying a certificate of appealability because
freestanding assertions of actual innocence cannot
support habeas relief); LaFevers v. Gibson, 238 F.3d
6

The Supreme Court has hypothesized about the possibility
of an exception. See, e.g., Herrera, 506 U.S. at 417, 113 S.Ct.
853 (assuming, for the sake of argument, that actual innocence
might justify habeas relief in a capital case); House v. Bell, 547
U.S. 518, 554–55, 126 S.Ct. 2064, 165 L.Ed.2d 1 (2006)
(declining to resolve this issue in a capital case); Dist. Attorney’s
Office for Third Judicial Dist. v. Osborne, 557 U.S. 52, 71, 129
S.Ct. 2308, 174 L.Ed.2d 38 (2009) (declining to resolve whether
actual innocence justifies habeas relief in a non-capital case);
McQuiggin v. Perkins, 569 U.S. 383, 392, 133 S.Ct. 1924, 185
L.Ed.2d 1019 (2013) (again declining to resolve whether actual
innocence justifies habeas relief in a non-capital case).

8a
1263, 1265 n.4 (10th Cir. 2001) (“[A]n assertion of
actual innocence ... does not, standing alone, support
the granting of the writ of habeas corpus.”); Sellers v.
Ward, 135 F.3d 1333, 1339 (10th Cir. 1998) (“[T]he
claim of innocence ... itself is not a basis for federal
habeas corpus no matter how convincing the
evidence.”). So Mr. Farrar’s freestanding claim of
actual innocence does not entitle him to habeas
relief.
2. The due-process claim (based on the
girl’s false testimony) fails because
Mr. Farrar does not allege that the
government knew that the testimony
was false.
For habeas relief, Mr. Farrar must show a
constitutional violation in his conviction or sentence.
28 U.S.C. § 2241(c)(3). Here, he alleges a denial of
due process when he was convicted based on the
girl’s false testimony.
The Fourteenth Amendment’s Due Process Clause
prevents the government from knowingly using
perjured or false testimony at trial. See Giglio v.
United States, 405 U.S. 150, 153–54, 92 S.Ct. 763, 31
L.Ed.2d 104 (1972); Napue v. People of State of Ill.,
360 U.S. 264, 269, 79 S.Ct. 1173, 3 L.Ed.2d 1217
(1959). But here, Mr. Farrar does not allege that the
government knowingly elicited any false trial
testimony. According to Mr. Farrar, the Second and
Ninth Circuits have authorized habeas relief even
when the government unwittingly elicits false
testimony. See, e.g., Hall v. Dir. of Corr., 343 F.3d
976, 981–85 (9th Cir. 2003). Mr. Farrar asks us to do
the same.

9a
But we have rejected that approach. In our circuit,
federal habeas relief cannot be based on perjured
testimony unless the government knew that the
testimony was false.7 For example, when a witness
testified that the defendant had participated in a
murder but the witness later recanted, we rejected
the viability of a constitutional claim, reasoning that
the defendant had “failed to assert any evidence
indicating prosecutors knew [the witness’s]
testimony was false.”8
7

See Graham v. Wilson, 828 F.2d 656, 659 (10th Cir. 1987)
(“In our habeas corpus consideration of the introduction of false
or mistaken testimony, the question of error turns not on the
witness’ knowledge of falsity, but on the government’s
knowledge.” (emphasis in original)); McBride v. United States,
446 F.2d 229, 232 (10th Cir. 1971) (“While use of perjured
testimony to obtain a conviction may be grounds for vacation of
a conviction, the petitioner has the burden of establishing that
... it was knowingly and intentionally used by the government
to obtain a conviction.”); Wild v. State of Okla., 187 F.2d 409,
410 (10th Cir. 1951) (“[A] writ of habeas corpus should not be
granted upon the grounds that false and perjured testimony
was used unless it is shown that it was knowingly used against
the defendant by the prosecuting officers in the criminal case.”);
Hinley v. Burford, 183 F.2d 581, 581 (10th Cir. 1950) (per
curiam) (“[T]here is evidence to the effect that appellant was
convicted on the false testimony of his daughter, the alleged
rape. But ... there is no testimony ... that such testimony was
knowingly and intentionally used by the prosecution to obtain
the conviction. The writ must therefore be denied.”); Tilghman
v. Hunter, 167 F.2d 661, 662 (10th Cir. 1948) (stating that
introduction of perjured testimony would not void a criminal
judgment unless the government “knowingly, willfully, and
intentionally” used the perjured testimony).
8

Romano v. Gibson, 239 F.3d 1156, 1175 (10th Cir. 2001); see
also United States v. Garcia, 793 F.3d 1194, 1207 (10th Cir.
2015) (“[T]his court has repeatedly spoken of Napue claims as
requiring perjury by the witness and the prosecutor’s

10a
Our circuit’s approach precludes habeas relief
based on Mr. Farrar’s allegations. He alleges that
the girl’s testimony was false, but he doesn’t allege
that the government knew of the falsity. This
omission is fatal because the government’s
knowledge is required for a constitutional violation.
We thus reject Mr. Farrar’s due-process claim based
on the use of false testimony at his trial.
B. Mr. Farrar’s challenge to the Colorado
Supreme Court’s decision does not
justify habeas relief.
Mr. Farrar also contends that the Colorado
Supreme Court erred in defining the burden for
obtaining a new trial based on recanted testimony.
Given that the Colorado Supreme Court relied on
state law,9 our first task is to interpret Mr. Farrar’s
contention. An error in interpreting state law cannot
support habeas relief, 10 but federal constitutional
knowledge of the falsity.” (internal citations omitted)); United
States v. Caballero, 277 F.3d 1235, 1243 (10th Cir. 2002) (“In
order to establish a due process violation [under Napue], the
[defendants] must show that ... the prosecution knew [the
witness’s testimony] to be false.”).
9

In his direct appeal, Mr. Farrar relied solely on Colorado
law. Thus, the court purported to rely only on Colorado law. In
discussing the state’s limits on the right to a new trial, the
court observed that the United States Supreme Court “ha[d]
never suggested that newly discovered evidence impeaching a
guilty verdict implicates due process of law.” Farrar v. People,
208 P.3d 702, 706 (Colo. 2009). But the court made this
observation only in the course of stating that creation of the
right to a new trial under state law largely entails “a matter of
policy” based on a balancing of the interests in finality, fairness,
and accuracy. Id.
10

Estelle v. McGuire, 502 U.S. 62, 67, 112 S.Ct. 475, 116
L.Ed.2d 385 (1991).

11a
violations can ordinarily support habeas relief.11 We
thus assume for the sake of argument that Mr.
Farrar is alleging a federal constitutional infirmity
in the Colorado Supreme Court’s decision. If so,
however, this allegation is insufficient because
shortcomings in the Colorado Supreme Court’s
application of state law would not entail a distinct
constitutional violation.
The Constitution does not require states to provide
direct appeals. See Abney v. United States, 431 U.S.
651, 656, 97 S.Ct. 2034, 52 L.Ed.2d 651 (1977) (“[I]t
is well settled that there is no constitutional right to
an appeal.”); United States v. Eggert, 624 F.2d 973,
974 (10th Cir. 1980) (“It is well established that
there is no constitutional right to an appeal.”). But
Colorado (like all other states) has provided the
opportunity to appeal. Here, the appeal involved the
denial of a new trial after a recantation of trial
testimony. We thus inquire whether the Constitution
restricts how far states can go in restricting the
grant of a new trial based on recanted testimony. In
this inquiry, we are guided by the text of the
Constitution and historical practice. Herrera v.
Collins, 506 U.S. 390, 407–08, 113 S.Ct. 853, 122
L.Ed.2d 203 (1993).
The Constitution does not refer to new trials. See
id. at 408, 113 S.Ct. 853 (“The Constitution itself, of
course, makes no mention of new trials.”). They
sprung from the common law, with judges ordering
new trials to address particular concerns, such as
newly discovered evidence. See Francis Wharton,
Criminal Pleading & Practice 584–92 (8th ed. 1880).
11

See 28 U.S.C. § 2241(c)(3); see also Part III(A)(2), above.

12a
Despite the historical availability of new trials,
restrictions existed under the common law. For
example, courts have long placed time constraints on
new-trial motions. Herrera, 506 U.S. at 408–11, 113
S.Ct. 853. And courts—before and after ratification
of the Fourteenth Amendment (1868)—have
restricted appellate review for the denial of new
trials based on matters involving facts or evidence.
See Parsons v. Bedford, Breedlove & Robeson, 28 U.S.
3 Pet. 433, 447–48, 7 L.Ed. 732 (1830) (discussing the
unavailability of appellate jurisdiction over the
denial of a new trial, which would have required
reexamination of the jury’s factual findings); Blitz v.
United States, 153 U.S. 308, 312, 14 S.Ct. 924, 38
L.Ed. 725 (1894) (“The overruling of the motion for
new trial is next assigned for error. We had supposed
that it was well understood by the bar that the
refusal of a court of the United States to grant a new
trial cannot be reviewed upon writ of error.” (citing
cases)); Sparf v. United States, 156 U.S. 51, 175, 15
S.Ct. 273, 39 L.Ed. 343 (1895) (Gray, J., dissenting)
(“[T]he granting or refusal of a new trial rest[ed]
wholly in the discretion of the court in which the
trial was had, and [could not] be reviewed on
error.”).12
Given the Constitution’s silence on new trials and
the historical practice under the common law, we
conclude that the Constitution did not require
Colorado to provide any mechanism for a new trial.
See Lester Orfield, New Trial in Federal Criminal
Cases, 2 Vill. L. Rev. 293, 305 (1957) (stating that in
12

In Herrera v. Collins, 506 U.S. 390, 113 S.Ct. 853, 122
L.Ed.2d 203 (1993), the Supreme Court relied in part on Justice
Gray’s dissent. See Herrera, 506 U.S. at 408, 113 S.Ct. 853.

13a
light of the Constitution’s silence on the right to a
new trial in criminal cases, “there seems to be no
constitutional right to a new trial”). Colorado could
thus limit the availability of an appeal over the
ruling on a new-trial motion. McKane v. Durston, 153
U.S. 684, 687–88, 14 S.Ct. 913, 38 L.Ed. 867 (1894).
Of course, once Colorado authorized procedures for
appeals and new trials, the state had to comport with
the Fourteenth Amendment’s rights to due process
and equal protection. Evitts v. Lucey, 469 U.S. 387,
393, 105 S.Ct. 830, 83 L.Ed.2d 821 (1985). But
Colorado’s definition of its own test for a new trial
cannot be bootstrapped into a distinct constitutional
violation triggering a right to habeas relief. See
Herrera v. Collins, 506 U.S. 390, 407–08, 411, 113
S.Ct. 853, 122 L.Ed.2d 203 (1993) (concluding that a
state’s refusal to consider newly discovered evidence
eight years after the conviction did not result in a
denial of due process).
We have addressed a similar issue with respect to
applications for post-conviction relief. Like many
circuits, we have held that irregularities in a state
appellate court’s handling of post-conviction
proceedings do not support habeas relief because
there is no constitutional right to post-conviction
proceedings. Sellers v. Ward, 135 F.3d 1333, 1339
(10th Cir. 1998); see also Steele v. Young, 11 F.3d
1518, 1524 (10th Cir. 1993) (holding that a challenge
to state post-conviction procedures “would fail to
state a federal constitutional claim cognizable in a
federal habeas proceeding”).
Nor is there a constitutional right to appeal the
denial of a new trial. See p. 1133–34, above; see also
Allen v. Nix, 55 F.3d 414, 417 n.5 (8th Cir. 1995) (“To

14a
the extent petitioner attempts to couch his actual
innocence claim in terms of a due process violation
based upon the state court’s denial of his motion for a
new trial, petitioner does not allege an ‘independent’
constitutional violation.”). We should thus treat
appeals on new-trial motions in the same way that
we treat post-conviction appeals. In doing so, we
conclude that alleged state-law errors in either kind
of appeal would not justify habeas relief. The district
court thus did not err in rejecting this habeas claim.
***
Mr. Farrar’s habeas claims are invalid: Actual
innocence and false testimony by a private citizen do
not entail constitutional violations triggering habeas
relief. Nor can habeas relief be based on the Colorado
Supreme Court’s definition of the state’s test for
granting a new trial. We thus affirm the denial of
Mr. Farrar’s petition for habeas relief.

15a
APPENDIX B
_________
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Senior District Judge Richard P. Matsch
_______
Civil Action No. 15-cv-01425-RPM
_______
CHARLES FARRAR,
Applicant,
v.
RICK RAEMISCH, Exec Director, Colorado Dept of
Corrections, JAMES FALK, Warden, Sterling
Correctional Facility, and CYNTHIA COFFMAN,
Attorney General, State of Colorado,
Respondents.
_______
ORDER DENYING MOTION TO ALTER
ORDER AND JUDGMENT
_______
On May 31, 2017, Judgment entered denying the
Application for Habeas Corpus filed by Charles
Farrar pursuant to the Order entered on the same
date, (Doc, 59). On June 28, 2017, newly appointed
counsel filed a Motion to Alter Order and Judgment
pursuant to Fed. R. Civ. P. 59(e) (Doc. 74) and an
authorized Supplement was filed on October 27,
2017. (Doc. 79).

16a
The Applicant asserts that this Court erred in
failing to find that the Colorado Supreme Court
failed to follow clearly established Supreme Court
law by affirming a conviction based on false
evidence–the testimony of the victim Sarah Brode
who recanted her testimony in post-conviction
proceedings under Colorado Rule of Criminal
Procedure 33.
The trial court hearing the evidence determined
that her recantation considered as newly discovered
evidence was no more believable that her trial
testimony which the jury rejected as to some counts.
The Colorado Supreme Court accepted that finding
as a finding that the district court was “not
reasonably convinced that the victim’s testimony at
trial was probably false.” It then determined that the
Applicant’s new evidence did not undermine the
reliability of the criminal conviction. Three justices
dissented in a very persuasive opinion considering
that upon hearing both the trial testimony and post
trial recanting testimony the jury may have had a
reasonable doubt.
This Court denied relief because of the limitations
imposed by 28 U.S.C. § 2254(d). The present motion
argues actual innocence given how implausible much
of the victim’s testimony support the verdict was and
asserts that the test for a new trial used by the
Colorado Supreme Court was inconsistent with due
process under the Fourteenth Amendment to the
U.S. Constitution.
As in the earlier briefing the Applicant has failed to
show clearly established law as determined by the
United States Supreme Court to support that
contention.

17a
The Applicant in his Supplement argues that the
restrictions enacted by Congress in the Antiterrorism
and Effective Death Penalty Act of 1996 is
unconstitutional as a violation of the separation-ofpowers doctrine, the Supremacy Clause and the
Suspension Clause.
The Supreme Court has strictly applied the
AEDPA in many cases. See, Harrington v. Richter,
562 U. S. 86 (2011) as an example.
Under Article III of the Constitution “The judicial
power of the United States is vested in one supreme
court and in such inferior courts as the Congress
may from time to time ordain and establish.”
Congress has the authority to define the jurisdiction
of these inferior courts and the AEDPA is an exercise
of that power.
The Motion to Alter Order and Judgment, as
supplemented, is denied.
DATED: December 4, 2017
BY THE COURT:
s/Richard P. Matsch
Richard P. Matsch, Senior District Judge

18a
APPENDIX C
_________
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Senior District Judge Richard P. Matsch
_______
Civil Action No. 15-cv-01425-RPM
_______
CHARLES FARRAR,
Applicant,
v.
RICK RAEMISCH, Exec Director, Colorado Dept of
Corrections, JAMES FALK, Warden, Sterling
Correctional Facility, and CYNTHIA COFFMAN,
Attorney General, State of Colorado,
Respondents.
_______
ORDER DENYING APPLICATION FOR
HABEAS CORPUS
_______
The question raised by Charles Farrar in this
Application for a Writ of Habeas Corpus pursuant to
28 U.S.C. § 2254 is whether the refusal to grant him
a new trial after the accuser in his sex offender trial
has recanted all of her testimony is a violation of his
Constitutional right to due process of law under the
Fourteenth Amendment.
The case was summarized by the Colorado
Supreme Court in Farrar v. People, 208 P.3d 702

19a
(Colo. 2009). The four member majority of justices
affirmed the trial court’s denial of relief after a full
evidentiary hearing under Crim. P. 33. A brief
recitation is necessary for this analysis of the
Applicant’s claim.
At age fifteen Sacha Brod claimed that her mother
Debbie Brod and stepfather Charles Farrar
repeatedly forced her to engage in sexual intercourse
and sodomy beginning when she was eleven years
old. Both of the accused were charged with multiple
offenses. The court ordered separate trials. Charles
Farrar was convicted of some of the charges and
acquitted of others. He was sentenced to an
aggregate 145 years to life. The charges against the
mother were dismissed because Sacha Brod did not
want to testify at another trial.
At the post trial hearings Ms. Brod testified that
before trial she had told the prosecutors and others
that her story was not true and that they forced her
to testify as she did. The prosecutors and others
denied those allegations and the trial judge found
that Sacha’s allegations were not credible.
That determination is binding on this court. Sacha
testified that her accusations and trial testimony
were fabrications motivated by her desire to get
away from home and live with her grandmother in
Oklahoma. She explained the reasons for her
extreme unhappiness with the living conditions,
none of which related to sexual abuse.
As to this testimony, the trial judge observed that
the jury had found the victim’s testimony believable
as to some counts and not others. Recognizing the
serious credibility issues and that the trial testimony

20a
could be used as impeachment at a new trial the
court concluded that:
Nothing that the Court heard or saw during
this post-conviction proceeding persuades it
that the newly discovered evidence would
produce a complete acquittal at a new trial. In
all probability, another jury would accept some
of Ms. ___ contentions and reject others.
Exhibit P.
The Supreme Court majority said:
Because the district court was not
reasonably convinced that the victim’s
testimony at trial was probably false, it did not
abuse its discretion in denying his motion for
new trial.
Farrar, 208 P.3d at 702.
That statement is not completely correct. The trial
judge acknowledged the jury acquitted Farrar on six
counts. Those counts involved events that the victim
described in graphic detail. There may be a
difference between false and not believable but it is
telling that the jury accepted general testimony of a
hundred or more incidents of sexual activity but
rejected those that were told most explicitly.
The majority opinion gave the following statement
of the test for a new trial upon discovery of new
evidence.
Whether to grant new trial upon the discovery
of new evidence undermining confidence in the
reliability of criminal convictions is largely a
matter of policy, requiring a balance between
the need for finality and the state’s interest in

21a
ensuring the fairness and accuracy of its
proceedings. People v. Schneider, 25 P.3d 755,
762 (Colo. 2001).
Farrar, 208 P.3d at 706.
Surprisingly, there is no mention of the protections
of individual liberty provided by the Fourteenth
Amendment.
The majority also ruled that the newly discovered
evidence must be of sufficient consequence for
reasons other than its ability to impeach and that,
“It must be consequential in the sense of being
affirmatively
probative
of
the
defendant’s
innocence...” and “that it would probably produce an
acquittal.” Id. at 707. In short, the Colorado Supreme
Court ruled that the trial court correctly denied the
motion for new trial because it did not find that the
victim’s trial testimony was entirely false.
The dissenting opinion found the appropriate
standard to be whether the newly discovered
impeachment evidence is of such consequence that it
would probably result in an acquittal on retrial and
three justices agreed that Ms. Brod’s recanting
testimony “clearly could and probably would change
the outcome of the case.” Notably the dissenters
recognized that an acquittal may result from a
reasonable doubt, not actual innocence.
Under the limitations imposed by 28 U.S.C.
§ 2254(d), this Court must accept the state court
rulings unless they are contrary to clearly
established Federal law as determined by the United
States Supreme Court or were based on an
unreasonable determination of the facts in light of

22a
the evidence presented in the hearings on the motion
for new trial.
The Applicant has not produced a U. S. Supreme
Court case holding that in the absence of prior
knowledge of the victim’s recanting her complaints of
sexual abuse the presentation of her testimony
would violate the Due Process Clause of the
Fourteenth Amendment. The district judge who
heard the testimony at the hearings on the Rule 33
motion was the same judge who presided at the trial.
He observed Sacha Brod testify both times and this
Court is unable to say that his assessment of her
trial testimony after hearing her recanting testimony
was unreasonable.
Other claims of constitutional error were raised but
they are rejected for the reasons set forth in the
Respondents’ Answer [Doc.15].
Accordingly, the application must be denied.
CERTIFICATE OF APPEALABILITY
Pursuant to 28 U.S.C. § 2253, the applicant has
made a substantial showing of violations of the
Fourteenth Amendment and that reversal is
required. Reasonable jurists could debate this
Court’s determination to the contrary. Thus, a
certificate of appealability is granted.
DATED: May 31, 2017
BY THE COURT:
s/Richard P. Matsch
Richard P. Matsch, Senior District Judge

23a
APPENDIX D
_________
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Senior District Judge Richard P. Matsch
_______
Civil Action No. 15-cv-01425-RPM
_______
CHARLES FARRAR,
Applicant,
v.
RICK RAEMISCH, Exec Director, Colorado Dept of
Corrections, JAMES FALK, Warden, Sterling
Correctional Facility, and CYNTHIA COFFMAN,
Attorney General, State of Colorado,
Respondents.
_______
JUDGMENT
_______
Pursuant to the Order Denying Application for
Habeas Corpus entered by Senior Judge Richard P.
Matsch on May 31, 2017, it is
ORDERED AND ADJUDGED that the Application
is denied and this civil action is dismissed.
DATED: May 31, 2017

24a
FOR THE COURT:
JEFFREY P. COLWELL, Clerk
S/M. V. Wentz
By
Deputy.

25a
APPENDIX E
_________
COLORADO SUPREME COURT
_________
Certiorari to the Court of Appeals 2012CA387
District Court, Arapahoe County, 2001CR505
_________
Supreme Court Case No: 2013SC817
_________
CHARLES FARRAR,
Petitioner,
v.
THE PEOPLE OF THE STATE OF COLORADO,
Respondent,
_________
ORDER OF COURT
_________
Upon consideration of the Petition for Writ of
Certiorari to the Colorado Court of Appeals and after
review of the record, briefs, and the judgment of said
Court of Appeals,
IT IS ORDERED that said Petition for Writ of
Certiorari shall be, and the same hereby is,
DENIED.
BY THE COURT, EN BANC, OCTOBER 14, 2014.

26a
APPENDIX F
_________
COLORADO COURT OF APPEALS
_________
DATE FILED: August 29, 2013
_________
Court of Appeals No.: 12CA0387
Arapahoe County District Court No. 01CR505
Honorable Valerie N. Spencer, Judge
_________
THE PEOPLE OF THE STATE OF COLORADO,
Plaintiff-Appellee,
v.
CHARLES ARTHUR FARRAR,
Defendant-Appellant.
_________
ORDER AFFIRMED
Division IV
Opinion by JUDGE HAWTHORNE
Webb and Richman, JJ., concur
NOT PUBLISHED PURSUANT TO C.A.R. 35(f)
Announced: August 29, 2013
_________

27a
John W. Suthers, Attorney General, Denver,
Colorado, for Plaintiff-Appellee
Allison Ruttenberg,
Defendant-Appellant

Boulder,

Colorado,

for

_________
Defendant, Charles Arthur Farrar, appeals the
district court’s order denying his Crim. P. 35(c)
postconviction motion. The People have not filed an
answer brief. We affirm.
I. Procedural History
Defendant’s stepdaughter (the victim) testified at
trial that defendant sexually assaulted her multiple
times. A jury convicted defendant of numerous
counts of sexual assault on a child - pattern of abuse,
position of trust, and force, child abuse resulting in
injury, and a crime of violence. While defendant’s
direct appeal was pending, the victim provided an
affidavit indicating that her testimony about sexual
abuse by the defendant was fabricated, and
defendant filed a motion for a new trial based on her
recanting. Following a limited remand from this
court, the district court held several evidentiary
hearings. Based on the testimony and evidence at
those hearings, the district court denied defendant’s
motion for a new trial and the appeal of that order
was incorporated into defendant’s direct appeal. As
pertinent here, a division of this court affirmed in
part and reversed in part the judgment of conviction,
but found the court did not abuse its discretion in
denying the motion for a new trial. See People v.
Farrar, (Colo. App. No. 02CA1358, Oct. 4, 2007) (not
published pursuant to C.A.R. 35(f)) (Farrar I). The

28a
Colorado Supreme Court granted certiorari to review
only the division’s conclusion that the trial court had
not abused its discretion in denying defendant’s
motion for a new trial, and affirmed that
determination. See Farrar v. People, 208 P.3d 702
(Colo. 2009) (Farrar II).
Thereafter, defendant filed a timely Crim. P. 35(c)
motion alleging that (1) he received ineffective
assistance from his trial and appellate counsels; (2)
the prosecution presented false testimony to secure
his conviction; (3) the trial court violated his
constitutional right to due process; and (4) his
multiple convictions violated double jeopardy. In a
detailed written order, the district court denied
defendant’s motion. This appeal followed.
II. The Court Did Not Err in Denying Defendant’s
Ineffective Assistance of Trial Counsel Claims
Without a Hearing
We review the trial court’s summary denial of a
Crim. P. 35(c) motion de novo. See People v. Trujillo,
169 P.3d 235, 237 (Colo. App. 2007).
A Crim. P. 35(c) motion may be denied summarily
if the motion, files, and record clearly establish that
the defendant is not entitled to relief. See Crim. P.
35(c)(3)(IV); People v. Flagg, 18 P.3d 792, 795 (Colo.
App. 2000). Summarily denying a postconviction
motion is appropriate if the claims raise only a legal
issue or if the allegations, even if true, do not provide
a basis for relief. See People v. Rodriguez, 914 P.2d
230, 255 (Colo. 1996). Likewise, if the claims are
conclusory, vague and lacking in detail, refuted by
the record, or fail to allege prejudice, the motion may
be denied without a hearing. See id. at 300; People v.

29a
Osorio, 170 P.3d 796, 801-02 (Colo. App. 2007);
People v. Vieyra, 169 P.3d 205, 209 (Colo. App. 2007).
To establish a claim of ineffective assistance of
counsel, a defendant must show not only that
counsel’s performance was outside the wide range of
professionally competent assistance, but also that
defendant was prejudiced by counsel’s errors.
Strickland v. Washington, 466 U.S. 668, 693 (1984);
see also Davis v. People, 871 P.2d 769, 772 (Colo.
1994). To establish prejudice, a defendant must
show that there is a reasonable probability that,
absent the errors, the proceeding’s result would have
been different. Strickland, 466 U.S. at 694; Ardolino
v. People, 69 P.3d 73, 76 (Colo. 2003).
If the defendant fails to affirmatively demonstrate
prejudice, the court may resolve the ineffective
assistance claim on that basis alone, without
considering whether counsel’s performance was
deficient. People v. Naranjo, 840 P.2d 319, 324 (Colo.
1992); People v. Rivas, 77 P.3d 882, 893 (Colo. App.
2003).
Here, the district court denied defendant’s motion
in a detailed order. We have reviewed defendant’s
postconviction motion, his brief on appeal, the
district court’s order, the trial court record and the
trial and Crim. P. 33 hearing transcripts, and
conclude that the court did not err in denying
defendant’s claims.
A. Disclosure of Confidential Information
Defendant first contends that, prior to trial, his
trial counsel disclosed confidential information to the
prosecution regarding the victim’s intent to recant
her allegations instead of sending an investigator to

30a
research those claims, and that counsel’s actions
created a conflict of interest that resulted in
ineffective assistance. We are not persuaded.
When alleging ineffective assistance of counsel
based on a conflict of interest, a defendant must
demonstrate (1) that his or her counsel was subject
to an actual conflict of interest; and (2) that the
actual conflict of interest adversely affected counsel’s
performance. Cuyler v. Sullivan, 446 U.S. 335, 34850 (1980); People v. Castro, 657 P.2d 932, 943-44
(Colo. 1983).
A defendant has a right to conflict-free counsel.
People v. Harlan, 54 P.3d 871, 878 (Colo. 2002);
People v. Ragusa, 220 P.3d 1002, 1006 (Colo. App.
2009). Generally, a conflict of interest exists when
either (1) an attorney’s representation of one client is
directly adverse to another client, or (2) when the
attorney’s ability to represent a client is materially
limited by the attorney’s responsibility to another
client or to a third person, or by the attorney’s own
interests. People v. Edebohls, 944 P.2d 552, 556
(Colo. App. 1996). Counsel also becomes conflicted
when his or her “ability to champion the cause of the
client becomes substantially impaired.” Ragusa, 220
P.3d at 1006 (quoting Rodriguez v. Dist. Court, 719
P.2d 699, 704 (Colo. 1986)).
Conflicts are categorized as either actual or
potential. Ragusa, 220 P.3d at 1006. An actual
conflict of interest is one that is real and substantial,
whereas a potential conflict is one that is possible or
nascent, but in all probability will arise. Id.; see
People v. Delgadillo, 2012 COA 33, ¶ 10 (same). An
actual conflict
arises when an attorney’s
representation of the defendant conflicts with some

31a
other interest that the attorney also has
professionally undertaken to serve. Castro, 657 P.2d
at 943.
If a defendant can establish that an actual conflict
of interest adversely affected counsel’s performance,
he need not demonstrate prejudice to obtain a
reversal of his conviction. See People v. Kelling, 151
P.3d 650, 656 (Colo. App. 2006) (citing Mickens v.
Taylor, 535 U.S. 162, 170-76 (2002)); see also Ragusa,
220 P.3d at 1006.
Here, at the Crim. P. 33 hearing, one of the district
attorneys who prosecuted defendant testified that at
some point shortly before defendant’s trial, he saw
defense counsel in the courthouse on unrelated
business, and defense counsel “casually, sort of
mentioned that he had heard our victim was
recanting.” The prosecutor also testified that when
he asked counsel where he heard that, counsel said,
“Well, I’m not at liberty to say.”
Defendant now asserts that his counsel’s disclosing
that information to the prosecution created a conflict
of interest such that his performance at trial
constituted ineffective assistance. Assuming that the
information counsel provided to the prosecution was
confidential, we nevertheless conclude that it did not
create an actual conflict of interest which would
result in ineffective assistance.
Defendant has not alleged how that disclosure
adversely impacted counsel’s representing him at
trial. And, unlike counsel in Delgadillo, ¶ 21, here,
defense counsel did not disclose trial strategy or the
details of his representation. Therefore, we conclude
that defendant has not alleged sufficient facts to
establish that his counsel had an actual conflict such

32a
that his ability to represent defendant was impaired.
Therefore, we reject defendant’s assertion.
See
People v. Wood, 844 P.2d 1299, 1301 (Colo. App.
1992) (to make the requisite showing of an actual
conflict of interest, the defendant must present at
least an arguable basis for the underlying ineffective
assistance of counsel claims).
B. Failure to Investigate, Interview Witnesses,
Cross-examine Witnesses, and Present a Defense
In his postconviction motion, defendant alleged, in
claims two through six, that trial counsel was
ineffective for failing to (1) adequately investigate
before trial and before sentencing, (2) effectively
cross-examine witnesses, (3) interview potential
witnesses and raise obvious significant issues, and
(4) present a reasonable doubt defense. The district
court denied those claims because they were
conclusory and failed to allege sufficient facts
demonstrating that defendant might be entitled to
relief.
On appeal, defendant mentions claims two, three,
four and six from his postconviction motion by
number. In those claims, he asserted that counsel
failed to investigate, effectively cross-examine
witnesses, and raise issues. However, his brief on
appeal fails to advance any legal argument or
authority to support his bare assertion that the court
erred in denying those claims. See C.A.R. 28(a)(4)
(requiring the opening brief to “contain the
contentions of the appellant with respect to the
issues presented, and the reasons therefor, with
citations to the authorities, statutes, and parts of the
record relied on”); People v. Diefenderfer, 784 P.2d
741, 752 (Colo. 1989) (the party appealing is required

33a
to inform the reviewing court both as to the specific
errors relied on and the grounds, supporting facts
and authorities therefor); People v. Hicks, 262 P.3d
916, 920 (Colo. App. 2011) (declining to address an
argument on appeal where the defendant had
“neither articulated a cogent argument for review
nor provided supporting legal authority”). Therefore,
we will not address them.
Moreover, we note, as did the district court, that
the majority of these claims merely reformulate the
issues raised and addressed in the Crim. P. 33
hearing on his motion for a new trial. Defendant
essentially argues that trial counsel was ineffective
for failing to attack the victim’s credibility at the
trial. However, defendant attacked the victim’s
credibility at the Crim. P. 33 hearing; and,
considering that, as well as the victim’s recanting
and previous trial testimony, the district court found
that it was insufficient to warrant a new trial. That
finding was affirmed on appeal. See Farrar II, 208
P.3d 702; Farrar I. Therefore, we conclude that it is
not reasonably probable that the trial’s result would
have been different had counsel attacked the victim’s
credibility at trial like it was attacked at the Crim. P.
33 hearing. See Ardolino, 69 P.3d at 76. Accordingly,
defendant’s assertion is insufficient to establish that
he was prejudiced by counsel’s allegedly deficient
performance.
III. Ineffective Assistance of Appellate Counsel
Defendant next contends that his appellate counsel
was ineffective because, according to the majority
opinion by the supreme court in Farrar II, 208 P.3d
at 708, appellate counsel “misperceive[d] the

34a
standard for granting a new trial, and thus, was
ineffective. We disagree.
In Farrar II, the supreme court majority,
addressing the newly discovered evidence’s effect,
said that the district court was required to
objectively assess the probable effect of the victim’s
post-trial testimony on reasonable jurors.
And,
under that standard, because the district court could
not conclude that the victim’s recanting testimony
was more believable than her trial testimony, it did
not err in concluding that the victim’s new evidence
would probably not result in defendant’s acquittal.
Farrar II, 208 P.3d at 708-09.
Because the dissent in Farrar II agreed with
defendant’s argument as presented by appellate
counsel, we are not persuaded that counsel’s
performance was deficient or that had he argued the
standard used by the majority the proceeding’s result
would have been different. Accordingly, because
defendant has not established either deficient
performance by appellate counsel or prejudice, we
reject his contention. See Naranjo, 840 P.2d at 324.
IV. Double Jeopardy, Prosecutorial Misconduct
and Jurisdiction
Defendant also re-asserts on appeal claims eleven,
twelve and thirteen from his postconviction motion.
Those claims, as raised in the postconviction motion
allege that (1) his convictions violate double
jeopardy, (2) the prosecution engaged in misconduct
by presenting perjured testimony, and (3) the court
lacked jurisdiction over his pattern counts because
the information did not list a predicate offense.
However, defendant’s brief on appeal fails to advance
any legal argument or authority to support his bare

35a
assertion that the court erred in denying those
claims. See C.A.R. 28(a)(4); Hicks, 262 P.3d at 920.
Thus, we decline to address those contentions on
appeal.
V. Remaining Contentions in Postconviction
Motion
To the extent defendant raised additional claims in
his postconviction motion that he has not expressly
reasserted on appeal, we deem them abandoned and
decline to address them. See People v. Brooks, 250
P.3d 771, 772 (Colo. App. 2010) (arguments made in
a Crim. P. 35 motion that are not specifically
reasserted on appeal are abandoned).
The order is affirmed.
JUDGE WEBB and JUDGE RICHMAN concur.

36a
APPENDIX G
_________
DISTRICT COURT, ARAPAHOE COUNTY,
STATE OF COLORADO
_________
THE PEOPLE OF THE STATE OF COLORADO,
Plaintiff,
v.
CHARLES A. FARRAR,
Defendant.
_________
Case Number: 01CR505
Division: 26
_________
Filed January 12, 2012
_______
ORDER DENYING DEFENDANT’S PETITION
FOR POSTCONVICTION RELIEF PURSUANT
TO CRIM. P. 35(C)
_________
THIS MATTER comes before the Court on
Defendant’s pro se Petition for Postconviction Relief
pursuant to Colo. Crim. P. 35(c). Additionally,
Defendant has moved for the appointment of counsel.
The Court has reviewed the motion, Court files, and
applicable law in making the following findings and
Order.

37a
I. Factual
History

Background

and

Procedural

In March 2000, then fifteen-year-old victim S.B.
accused her mother and stepfather, Defendant
Charles Farrar, of a pattern of sexual and physical
abuse over a period of approximately four years.
Farrar v. People, 208 P.3d 702, 704 (Colo. 2009). The
victim estimated the abuse began when she was
eleven, and she finally disclosed to a guidance
counselor at her school some four years later. After
an investigatory period of many months, charges
were filed against Defendant in 2001. These charges
included over one hundred incidents of touching, oral
sex performed on the victim, oral sex the victim was
required to perform on the Defendant, and sexual
intercourse.
Initially, the Defendant and the victim’s mother
were charged as co-defendants for these charges, but
their cases were severed for trial. The Defendant
proceeded to trial first. Ultimately, the charges
against the victim’s mother were dismissed. On April
1, 2002, the defendant was convicted of numerous
counts of Sexual Assault on a Child — Pattern of
Abuse in violation of § 18-3-405(1), C.R.S.; numerous
counts of Sexual Assault on a Child under 15 —
Position of Trust in violation of § 18-3-405.3(1),(2),
C.R.S.; and other counts of child sex assault. The
District Court merged numerous counts into ten
incidents and then sentenced the defendant to 145
years of incarceration in the Department of
Corrections (“DOC”). The sentence included an
indeterminate sentence of 25 years to life DOC on
count 21, which was calculated because of the
consecutive nature of the sentence.

38a
Following the trial, the victim came forward and
asserted that she falsified her allegations of the
abuse because she felt unloved by her parents and
wanted to move to Oklahoma to live with her
maternal grandparents. Farrar, 208 P.3d at 705. The
victim further denied being pressured to recant and
claimed that prior to trial she tried to tell the
prosecutors, her guardian ad litem, and the social
workers that her accusations were false. The victim
claims that these efforts were ignored or met with
threats of institutionalization. Following her claims,
a motion for a Special Prosecutor was granted and a
hearing ensued. Id. at 704-05. Several witnesses
testified as to the veracity of the victim’s recantation
and the truthfulness of the victim’s original
testimony. Id. at 705.
On February 14, 2005, the trial court denied
Defendant’s motion for a new trial. In a lengthy and
considered decision, the Honorable John Leopold
held that:
[t]his case is one of the more memorable
criminal jury trials at which this Court has
presided. The sheer number of allegations and
the graphic description of the alleged acts are
extraordinary. The Court has a clear memory
of [the victim’s] testimony at trial and, of
course, has had the benefit of her August,
2004 and January, 2005 appearances.
(Order Denying Mtn for New Trial at 2.) The Court
concluded that “during the trial, [the victim] testified
in a straightforward, unemotional manner. There
were no indicia of [the victim’s] offering knowingly
false testimony at that time.” (See id. at 6.)
Subsequently, the Court denied the victim’s

39a
allegations of prosecutorial misconduct. (See id.) “In
fact, the Court was struck by the similarity in her
affect at trial and the post-conviction motion hearing.
... [I]n general, she was an articulate and confident
witness at trial and during both of her appearances
in this post-conviction hearing.” (See id. at 2.) Thus,
the trial court judge therefore denied the motion for
a new trial. The court remained unpersuaded that
any newly discovered evidence would produce an
acquittal. This decision was affirmed by the Court of
Appeals and the Colorado Supreme Court. Farrar,
208 P.3d at 705, 708-10.
On October 4, 2007, the Court of Appeals released
an unpublished opinion affirming the judgment and
sentence in part, reversing in part, and remanding
the case with directions. See People v. Farrar, No.
02CA1358, slip op. at 43 (Colo. App. July 1, 2009).
However, the Colorado Supreme Court granted a
writ of certiorari on April 7, 2008, to review the case
solely with regard to the defendant’s challenge to the
denial of his motion for new trial based on newly
discovered evidence. The Colorado Supreme Court
issued its opinion affirming the judgment of the trial
court on May 26, 2009. Farrar, 208 P.3d at 704.
Jurisdiction was returned to the Colorado Court of
Appeals from the Colorado Supreme Court on June
18, 2009. (Mandate at 1, June 18, 2009.) The
Colorado Court of Appeals mandated the case back to
this Court with directions on July 1, 2009. People v.
Farrar, No. 02CA1358, slip. op. at 43 (Colo. App.
July 1, 2009.) The Defendant’s present motion was
then timely filed on October 23, 2009.
During appellate proceedings in this action, Judge
Leopold retired. The mandate was forwarded to the

40a
new presiding judge in the case’s assigned division.
The Honorable Carlos Samour immediately recused
himself, having been the Special Prosecutor
appointed to address the Motion for New Trial.
(Recusal Order at 1, July 8, 2009.) By order of Chief
Judge William Blair Sylvester, the Motion was
referred for random reassignment. (Order re
Recusal, July 10, 2009.) On December 9, 2010, the
Honorable Valeria Spencer ordered a hearing for
resentencing of the Defendant pursuant to the
dictates of the Court of Appeals mandate. The
hearing was set for January 11, 2011.
In the December 9, 2010 Order, the Court set the
framework for the January 11, 2011 resentencing
hearing. Specifically, the Court needed to address
Defendant’s sentence as to Counts 1 and 5 pursuant
to the remand directions. The Court of Appeals
reversed the judgment and sentence as to count 5
and remanded back to the trial court to correct the
mittimus to reflect that Defendant was convicted of
Sexual Assault on a Child—not Sexual Assault on a
Child —Pattern of Abuse—and to resentence him on
that count. People v. Farrar, No. 02CA1358, slip op.
at 31. Count 1 was remanded for correction of the
mittimus to remove the pattern portion of the charge
and reduce it from an F3 to an F4, but the
underlying conviction and sentence for the count
stood. Id. at 30.
At the January 11, 2011 resentencing, Defendant
was resentenced on Count 5 to 2 years DOC with 3
years mandatory parole, concurrent to all other
sentences and nunc pro tunc to the original
sentencing date. Count 1 was ordered to be amended
consistent with the Court of Appeals mandate. An

41a
amended mittimus issued reflecting these changes.
On July 25, 2011, this Court denied Defendant’s
Motion for Reconsideration of Sentence Pursuant to
Crim. P. 35(b) and § 18-1.3-406(1), C.R.S.
On September 26, 2011, Defendant, pro se, filed the
instant Petition for Post-Conviction Relief pursuant
to Colo. Crim. P. 35(c). Defendant raises the
following allegations in his 35(c) petition:
(1) “Counsel was ineffective after divulging
privileged information to the prosecutor
creating a significant conflict of interest[;]”
(2) “Counsel was ineffective for failing to
conduct a proper pretrial investigation[;]”
(3) “Counsel was ineffective for failing to
conduct effective cross examination[;]”
(4) “Counsel was ineffective for failure to
contact important witnesses or raise
obvious and significant issues[;]”
(5) “Counsel was ineffective for failing to
advance a reasonable doubt defense[;]”
(6) “Counsel
was
ineffective
for
investigating prior to sentencing[;]”

not

(7) “Defense was clearly ineffective when the
errors are considered cumulatively[;]”
(8) “Appellate counsel’s performance fell
below
an
objective
standard
of
reasonableness
therefore
he
was
ineffective[;]”
(9) “Appellate counsel failed to investigate
and prepair [sic] for trial making himself
ineffective[;]”

42a
(10) “The defendant’s right to due process
under U.S. Constitution was violated[;]”
(11) “The defendant’s double jeopardy rights
under U.S. Constitution was violated
[; and]”
(12) The prosecution conducted themselves in
an improper manner, in violation of
defendant’s
right
under
U.S.
Constitutional Amendments V, VI and
XIV....prosecution may not withhold
information — evidence which tends to
negate the guilt of the accused [and] the
information in this case contained
substantive defects that deprived the
Court of jurisdiction over certain counts[.]”
II.

Analysis and Findings

The Sixth Amendment of the United States
Constitution provides every defendant the right to
effective assistance of counsel. Strickland v.
Washington, 466 U.S. 668, 669 (1984). To prove
ineffective assistance of counsel, a defendant must
show that: (1) counsel’s performance was deficient;
and (2) the deficient performance prejudiced the
defense such that but for counsel’s deficient
performance, there is reasonable probability that the
outcome at trial would have been different. Id. at
687; see also People v. Davis, 849 P.2d 857, 860 (Colo.
App. 1992). “[S]trategic choices made after thorough
investigation of law and facts relevant to plausible
options are virtually unchallengeable; and strategic
choices made after less than complete investigation
are reasonable precisely to the extent that
reasonable professional judgments support the
limitations on investigation.” Strickland, 466 U.S. at

43a
690-91. “A defendant must overcome the
presumption that, under the circumstances, the
challenged action ‘might be considered sound trial
strategy.’” Id. at 680 (quoting Michel v. Louisiana,
350 U.S. 91 (1955)).
Judicial scrutiny of counsel’s performance must be
highly deferential, and courts must indulge a strong
presumption that counsel’s conduct fell within the
wide range of reasonable professional assistance.
Ardolino v. People, 69 P.3d 73, 76 (Colo. 2003). A
defendant’s
conclusory
allegations
regarding
counsel’s allegedly deficient performance are
insufficient to demonstrate that the defendant may
be entitled to postconviction relief. See People v.
Chambers, 900 P.2d 1249 (Colo. App. 1994); People v.
Barefield, 804 P.2d 1342 (Colo. App.1990); see also
People v. Rodriguez, 914 P.2d 230 (Colo. 1996). To
prove the defense was prejudiced, a defendant must
show that there is a lack of confidence in the
outcome. See Ardolino, 69 P.3d at 76.
A defendant requesting post-conviction relief
pursuant to Colo. R. Crim. P. 35(c) must assert
specific facts, which if true, would provide a basis for
relief. See Colo. R. Crim. P. 35(c)(3)(IV); DeBaca v.
Dist. Ct., 431 P.2d 763, 765 (Colo. 1967); People v.
Rhorer, 946 P.2d 503, 506 (Colo. App. 1997), rev ‘d on
other grounds, 967 P.2d 147 (1998). A trial court may
also deny a postconviction motion without a hearing
if the claims are bare and conclusory and lack
supporting factual allegations. People v. Venzor, 121
P.3d 260, 262 (Colo. App. 2005). Thus, a court may
deny a motion for post-conviction relief pursuant to
Colo. R. Crim. P. 35(c) without a hearing only when
the motion, files, and record in the case clearly

44a
establish that the allegations in a defendant’s motion
are meritless and do not warrant postconviction
relief. See Ardolino, 69 P.3d at 77.
a. Claim (1): No conflict of interest
Defendant first asserts his trial counsel was
ineffective for divulging privileged information to the
prosecutor which created a significant conflict of
interest. Specifically, Defendant claims his trial
counsel shared with the prosecution information
concerning recantation by the victim and therefore
had a conflict of interest.
To establish a claim for ineffective assistance of
counsel based on an allegation of a conflict interest, a
defendant must demonstrate (1) that his or her
counsel was subject to an actual conflict of interest;
and (2) that the actual conflict of interest adversely
affected counsel’s performance. People v. Miera, 183
P.3d 672, 677 (Colo. Ct. App. 2008) (citations
omitted). An actual conflict of interest is real and
substantial. Id. It arises when an attorney’s
representation of the defendant conflicts with some
other interest that the attorney also has
professionally undertaken to serve. This Court need
not reach these considerations, because Defendant’s
first claim lacks factual merit.
Defendant’s first claim asserts factual allegations
that are inconsistent with the factual allegations
previously reviewed by this Court, the Colorado
Court of Appeals and the Colorado Supreme Court.
As noted by the Colorado Supreme Court, following
the trial, the victim came forward and asserted that
she falsified her allegations of the abuse. Farrar, 208
P.3d at 705. The victim further denied being
pressured to recant and claimed that prior to trial

45a
she tried to tell the prosecutors, her guardian ad
litem, and the social workers that her accusations
were false. See id. These factual assertions were
revealed to Defendant’s counsel through the victim’s
sworn affidavit which his trial counsel received after
Defendant’s trial.
Defendant now claims that it was his trial counsel
who went to the prosecutor with information
concerning the victim’s recantation. This is not
consistent with the previous factual allegations
utilized by this Court, the Colorado Court of Appeals
and the Colorado Supreme Court in reviewing
Defendant’s motion for new trial based on newly
discovered evidence. Based on the sworn affidavit of
the victim, it was the victim who allegedly went to
the prosecutors with her recantation. This Court
considered the issue when it rejected Defendant’s
contention that the prosecution knowingly submitted
perjured testimony at Defendant’s trial. Defendant’s
attempt to rehash the issue by asserting a different
factual allegation makes obvious the lack of merit to
his first claim. Wherefore, this Court finds
Defendant has failed to present any persuasive
factual allegation that would lead this Court to
consider whether there was a conflict of interest.
Defendant’s first claim is meritless and does not
warrant postconviction relief.
b. Claims (2)-(6): Defendant received effective
assistance of trial counsel
Defendant’s claims (2)-(6), as outlined above, all
concern his trial counsel’s investigation of his case,
including claims that his counsel did not adequately
prepare for cross-examination and counsel failed to
investigate and interview potential witnesses. In

46a
claims (2) through (6), the crux of Defendant’s
contention is the conclusory assertion that his
counsel failed to present enough evidence to
effectively impeach the veracity of the victim’s
testimony. Again, Defendant relies solely on the
victim’s recantation and he asserts his counsel was
ineffective in bringing the victim’s recantation to
light prior to trial.
This Court has previously noted that great pains
were taken by the Court to evaluate the victim’s
recantation and determine which version of her story
was truthful and whether this newly discovered
evidence warranted a new trial. The Court found
that the victim testified in a straightforward,
unemotional manner. There were no indicia of the
victim’s offering knowingly false testimony at the
time of the original trial. The Court also considered
what it described as “an equally unbelievable” and
“far more heinous” allegation in the form of the
victim’s claim that the prosecutor knowingly and
intentionally presented her perjured testimony. The
Court also determined that even though the victim
had credibility issues, the jurors were able to sift
through her testimony, accepting some of it and
rejecting other parts. This Court further reasoned
that if a new trial was granted, the jurors would hear
not only the victim’s recanted testimony but her
original trial testimony, including her former
testimony that detailed repeated descriptions of
fellatio and sexual intercourse that she was required
to perform with the Defendant. Importantly, this
Court concluded that nothing it heard or saw during
the previous post conviction proceeding persuaded it
that the newly discovered evidence would produce a

47a
complete acquittal at a new trial.
Defendant now attempts to bootstrap the victim’s
recantation with his claims of ineffective assistance
of counsel. The Court is not persuaded by the
Defendant’s arguments. Defendant’s arguments
concerning his counsel’s investigation and what
evidence could have been revealed about the victim
are conclusory and lack the requisite specificity to
warrant relief, as well are his arguments concerning
counsel’s
cross-examination.
Moreover,
such
conclusory
allegations
are
insufficient
to
demonstrate that he may be entitled to
postconviction relief or that the record might contain
specific facts that would substantiate his claims. See
People v. Zuniga, 80 P.3d 965, 973 (Colo. App. 2003).
From reading the repetitive assertions set forth in
his Petition, it is clear Defendant is arguing that
because the victim recanted his counsel must have
been ineffective. This Court does not agree.
Because a presumption of validity attaches to a
judgment of conviction, the burden is on the
defendant in a Crim. P. 35(c) petition to prove both
elements of an ineffective assistance of counsel claim
by a preponderance of the evidence. Davis v. People,
supra. The Court finds that Defendant has failed in
meeting this burden. Accordingly, this Court finds
Defendant’s claims (2) through (6) lack merit and do
not warrant postconviction relief.
c. Claim (7): No cumulative error
Defendant next contends his counsel was clearly
ineffective when the errors are considered
cumulatively. There is no indication that counsel’s
alleged errors, when considered cumulatively, satisfy
the two prong test articulated in Strickland.

48a
Defendant fails to show how counsel’s alleged errors,
when taken together, would amount to deficient
performance, or how such performance was so
deficient that it changed the outcome of his trial.
Thus, Defendant’s claim for relief based upon trial
counsel’s cumulative errors fails. Accordingly,
Defendant’s claim (7) lacks merit and does not
warrant postconviction relief.
d. Claims (8) & (9): Defendant received effective
assistance of appellate counsel
In claims (8) and (9), as outlined above, Defendant
next asserts that his appellate counsel was
ineffective. Specifically, Defendant claims his
appellate counsel’s argued the wrong standard for
obtaining a new trial based upon the victim’s
recantation and that his appellate counsel failed to
investigate and prepare for the Rule 33 hearing. The
Strickland standard also applies to a claim of
ineffective assistance of appellate counsel. To satisfy
the prejudice standard where a defendant has
received full appellate review of his convictions, the
defendant must demonstrate meritorious grounds for
reversal. People v. Valdez, 789 P.2d 406 (Colo.1990);
People v. Dunlap, 124 P.3d 780, 795 (Colo. App.
2004).
Defendant’s argument that his appellate counsel
argued the wrong standard for a new trial is based
upon the Colorado Supreme Court’s opinion
affirming the denial of Defendant’s motion for a new
trial. Defendant suggests that because the majority
of the Colorado Supreme Court disagreed with his
counsel’s argument that his counsel’s performance
must have fell below a reasonable standard. The
Court notes that the Supreme Court was split 4 to 3

49a
on its decision and that three of the Supreme Court
Justices agreed with Defendant’s appellate counsel’s
argument.
As noted by Chief Justice Bender is his dissent:
The majority holds that a recantation “can
justify a new trial only to the extent that it not
only impeaches the prior testimony but does so
by contradicting it with a different and more
credible account.” Maj. op. at 708. Such a
conclusion overstates our precedent. The
appropriate standard that should be applied
here is that newly discovered impeachment
evidence is sufficient to justify a new trial
when it, taken together with all of the other
evidence for and against the defendant, is of
such consequence that it probably would result
in an acquittal on retrial.
Farrar, 208 P.3d at 710. The fact that the majority
disagreed with Defendant’s appellate counsel is not
evidence of deficient performance. Moreover, the fact
that three of the Supreme Court Justices agreed with
the standard argued for by Defendant’s appellate
counsel indicates quite the opposite. On this issue,
Defendant has failed to make the requisite showing
that his appellate counsel’s performance was
deficient. Strickland, 466 U.S. at 669.
Defendant also argues his appellate counsel failed
to adequately investigate his case for the purposes of
his Rule 33 hearing. Specifically, Defendant argues
that his counsel failed to present evidence that the
victim recanted in an Oklahoma State Court prior to
recanting in Colorado. Defendant argues that
evidence that the recantation occurred earlier in
another state court would have helped him prevail

50a
on his motion for a new trial. This Court does not
agree nor does it comprehend how this alleged error
could be imputed upon the performance of
Defendant’s appellate counsel. Again, Defendant has
failed to make the requisite showing that his
appellate counsel’s performance was deficient.
Strickland, 466 U.S. at 669.
Accordingly, Defendant’s claims (8) and (9) lack
merit and do not warrant postconviction relief.
e. Claim (10): No due process violation
Defendant next contends his due process rights
under the U.S. Constitution were violated.
Specifically, Defendant argues that the prosecution
used false testimony at trial to obtain his convictions.
This argument is also based on the victim’s
recantation. This issue has been addressed at great
length by the Court’s in its order denying
Defendant’s motion for a new trial. It will not be
addressed again. Defendant’s claim (10) lack merit
and does not warrant postconviction relief.
f. Claim (11): No double jeopardy violation
Defendant next argues that his double jeopardy
rights under U.S. Constitution were violated.
Specifically, Defendant argues his pattern of sexual
abuse convictions should have merged into one
conviction with one sentence, because there was only
one victim.
The Double Jeopardy Clauses of the United States
and Colorado Constitutions protect an accused
against being twice placed in jeopardy for the same
crime. Woellhaf v. People, 105 P.3d 209, 214 (Colo.
2005) (citing U.S. Const. Amend. V; Colo. Const., art.
II, § 18; Boulies v. People, 770 P.2d 1274, 1277

51a
(Colo.1989)). The Double Jeopardy Clause protects
not only against a second trial for the same offense,
but also “against multiple punishments for the same
offense.” Id. (citing Whalen v. United States, 445 U.S.
684, 688, 100 S.Ct. 1432, 63 L.Ed.2d 715 (1980)
(quoting North Carolina v. Pearce, 395 U.S. 711, 717,
89 S.Ct. 2072, 23 L.Ed.2d 656 (1969))).
Notwithstanding these protections, the Double
Jeopardy Clause does not prevent the General
Assembly from specifying multiple punishments
based upon the same criminal conduct. Id. (citing
Patton v. People, 35 P.3d 124, 129 (Colo.2001). In the
context of multiple punishments for the same
offense, double jeopardy is violated only if violations
of the same statutory offense are not factually
distinct from one another. People v. Tillery, 231 P.3d
36, 48 (Colo. Ct. 2009) aff’d sub nom. People v.
Simon, 09SC665, 2011 WL 6318965 (Colo. Dec. 19,
2011).
In the instant case defendant’s convictions were
multiplicitous because the record evidenced that the
multiple charges were supported by evidence of
distinct acts, thus there was no double jeopardy
violation. Quintano v. People, 105 P.3d 585, 592
(Colo. 2005); cf. Woellhaf, 105 P.3d at 219.
Accordingly, Defendant’s claim (11) lacks merit and
does not warrant postconviction relief.
g. Claim (12): No prosecutorial misconduct
Lastly the Defendant argues that “the prosecution
conducted themselves in an improper manner, in
violation
of
defendant’s right
under
U.S.
Constitutional Amendments V, VI and XIV
....prosecution may not withhold information —
evidence which tends to negate the guilt of the

52a
accused [and] the information in this case contained
substantive defects that deprived the Court of
jurisdiction over certain counts.”
Defendant’s jurisdictional argument is a repetition
of his Claim (11) which concerned an alleged double
jeopardy violation. This argument has been
addressed in the previous section. The remaining
assertion of Defendant’s final claim is a repeated
claim that the prosecution offered false testimony to
obtain his conviction. As with claim (10), this
argument is also based on the victim’s recantation,
which was addressed in great length by the Court’s
in its order denying Defendant’s motion for a new
trial. The fact that the victim recanted after trial
does support Defendant’s conclusory assertion that
there was prosecutorial misconduct. Defendant’s
claim (12) lacks merit and does not warrant
postconviction relief.
III. CONCLUSION
Wherefore, Defendant’s claims for relief based upon
ineffective assistance of counsel pursuant to Colo. R.
Crim. P. 35(c) are DENIED without hearing because
they are without merit. As a result, Defendant’s
request for appointment of counsel is DENIED as
moot.
IT IS SO ORDERED.
Done this 12th day of January, 2012.

53a
BY THE COURT:
/s/ Valeria N. Spencer
Valeria N. Spencer
District Court Judge

54a
APPENDIX H
_________
DISTRICT COURT, ARAPAHOE COUNTY,
STATE OF COLORADO
_________
THE PEOPLE OF THE STATE OF COLORADO,
Plaintiff,
v.
CHARLES A. FARRAR,
Defendant.
_________
Case Number: 01 CR 505
Division: 26
_________
Filed July 25, 2011
_______
ORDER RE: MOTION FOR
RECONSIDERATION OF SENTENCE
PURSUANT TO CRIM. P. 35(b) AND 18-1.3406(1), C.R.S. (2009)
_________
THIS MATTER comes before the Court upon
Defendant’s Motion for Reconsideration of Sentence
Pursuant to Crim. P. 35(b) and § 18-1.3-406(1),
C.R.S. 2010. The Defendant, Charles A. Farrar,

55a
requests a reduction in sentence, that the sentences
be run concurrent, or that the court exercise its
discretion pursuant to section § 18-1.3-1004(2)(a) to
suspend the Department of Corrections sentence and
impose an indeterminate probationary sentence. The
Court has reviewed the Motion, the People’s
Response thereto, the voluminous court file, 1
relevant transcripts, and applicable authority. Being
so advised, the Court enters the following findings
and Order.
I. Factual
History

Background

and

Procedural

In March 2000, then fifteen-year-old victim S.B.
accused her mother and stepfather, Defendant
Charles Farrar, of a pattern of sexual and physical
abuse over a period of approximately four years.

1

The Court takes particular note of the following
documents in the determination of this Motion: (1) the trial
court’s Order Denying Defendant’s Motion for New Trial
Pursuant to Crim. P. 33(c) based on Newly-Discovered
Evidence; (2) the Colorado Supreme Court’s opinion
affirming the trial judge’s denial of a new trial because the
victim recanted, Farrar v. People, 208 P.3d 702 (Colo. 2009);
(3) the Colorado Court of Appeals unpublished mandate
affirming the judgment of conviction and sentence as to all
but counts 1 and 5, see People v. Farrar, No. 02CA1348, slip
op. at 43 (Colo. App. July 1, 2009); (4) Defendant’s October
23, 2009 Motion for Reconsideration of Sentence Pursuant to
Crim. P. 35(b) and § 18-1.3-406(1), C.R.S. 2009; (5)
Defendant’s Notice of Pending Mandate and Request for
Ruling on Motion for Reconsideration of Sentence, which
was filed on July 20, 2010; and (6) the People’s Response to
Motion for Reconsideration of Sentence Pursuant to Crim. P.
35(b) and § 18-1.3-406, C.R.S. 2009, on April 6, 2010.

56a
Farrar v. People, 208 P.3d 702, 704 (Colo. 2009). (See
also Resp. ¶. 11.) The victim estimated the abuse
began when she was eleven, and she finally disclosed
to a guidance counselor at her school some four years
later. (See id.) After an investigatory period of many
months, charges were filed against Defendant in
2001. These charges included over one hundred
incidents of touching, oral sex performed on the
victim, oral sex the victim was required to perform
on the Defendant, and sexual intercourse. (Id.)
Initially, the defendant and the victim’s mother
were charged as co-defendants for these charges, but
their cases were severed for trial. (See Def’s Mtn for
Reconsideration ¶. 8.) The defendant proceeded to
trial first. (Id.) Ultimately, the charges against the
victim’s mother were dismissed. (Id.) On April 1,
2002, the defendant was convicted of numerous
counts of Sexual Assault on a Child — Pattern of
Abuse in violation of § 18-3-405(1), C.R.S.; numerous
counts of Sexual Assault on a Child under 15 —
Position of Trust in violation of § 18-3-405.3(1),(2),
C.R.S.; and other counts of child sex assault. (See
Mittimus Feb. 23, 2011.) The District Court merged
numerous counts into ten incidents and then
sentenced the defendant to 145 years of incarceration
in the Department of Corrections (“DOC”). The
sentence included an indeterminate sentence of 25
years to life DOC on count 21, which was calculated
because of the consecutive nature of the sentence.
(See id. at 2.)
Following the trial, the victim came forward
asserted that she falsified her allegations of
abuse because she felt unloved by her parents
wanted to move to Oklahoma to live with

and
the
and
her

57a
maternal grandparents. Farrar, 208 P.3d at 705. The
victim further denied being pressured to recant and
claimed that prior to trial she tried to tell the
prosecutors, her guardian ad litem, and the social
workers that her accusations were false. See id. The
victim claims that these efforts were ignored or met
with threats of institutionalization. See id. Following
her claims, a motion for a Special Prosecutor was
granted and a hearing ensued. Id. at 704-05. Several
witnesses testified as to the veracity of the victim’s
recantation and the truthfulness of the victim’s
original testimony. Id at 705. (See also People’s Resp.
¶¶. 3-6.)
On February 14, 2005, the trial court denied
Defendant’s motion for a new trial. In a lengthy and
considered decision, the Honorable John Leopold
held that:
[t]his case is one of the more memorable
criminal jury trials at which this Court has
presided. The sheer number of allegations and
the graphic description of the alleged acts are
extraordinary. The Court has a clear memory
of [the victim’s] testimony at trial and, of
course, has had the benefit of her August,
2004 and January, 2005 appearances.
(Order Denying Mtn for New Trial at 2.) The Court
concluded that “during the trial, [the victim] testified
in a straightforward, unemotional manner. There
were no indicia of [the victim’s] offering knowingly
false testimony at that time.” (See id. at 6.)
Subsequently, the Court denied the victim’s
allegations of prosecutorial misconduct. (See id.) “In
fact, the Court was struck by the similarity in her
affect at trial and the post-conviction motion hearing.

58a
... [I]n general, she was an articulate and confident
witness at trial and during both of her appearances
in this post-conviction hearing.” (See id. at 2.) The
trial court therefore denied the motion for a new
trial. The court remained unpersuaded that any
newly discovered evidence would produce an
acquittal. This decision was affirmed by the Court of
Appeals and the Colorado Supreme Court. Farrar,
208 P.3d at 705, 708-10.
On October 4, 2007, the Court of Appeals released
an unpublished opinion affirming the judgment and
sentence in part, reversing in part, and remanding
the case with directions. See People v. Farrar, No.
02CA1358, slip op. at 43 (Colo. App. July 1, 2009).
However, the Colorado Supreme Court granted a
writ of certiorari on April 7, 2008, to review the case
solely with regard to the defendant’s challenge to the
denial of his motion for new trial based on newly
discovered evidence. The Colorado Supreme Court
issued its opinion affirming the judgment of the trial
court on May 26, 2009. Farrar, 208 P.3d at 704.
Jurisdiction was returned to the Colorado Court of
Appeals from the Colorado Supreme Court on June
18, 2009. (Mandate at 1, June 18, 2009.) The
Colorado Court of Appeals mandated the case back to
this Court with directions on July 1, 2009. People v.
Farrar, No. 02CA1358, slip. op. at 43 (Colo. App.
July 1, 2009.) The Defendant’s present motion was
then timely filed on October 23, 2009.
During appellate proceedings in this action, Judge
Leopold retired. The mandate was forwarded to the
new presiding judge in the case’s assigned division.
The Honorable Carlos Samour immediately recused
himself, having been the Special Prosecutor

59a
appointed to address the Motion for New Trial.
(Recusal Order at 1, July 8, 2009.) By order of Chief
Judge William Blair Sylvester, the Motion was
referred for random reassignment. (Order re
Recusal, July 10, 2009.) On December 9, 2010, the
Honorable Valeria Spencer ordered a hearing for
resentencing of the Defendant pursuant to the
dictates of the Court of Appeals mandate. The
hearing was set for January 11, 2011.
In the December 9, 2010 Order, the Court set the
framework for the January 11, 2011 resentencing
hearing. Specifically, the Court needed to address
Defendant’s sentence as to Counts 1 and 5 pursuant
to the remand directions. The Court of Appeals
reversed the judgment and sentence as to count 5
and remanded back to the trial court to correct the
mittimus to reflect that Defendant was convicted of
Sexual Assault on a Child—not Sexual Assault on a
Child — Pattern of Abuse—and to resentence him on
that count. People v. Farrar, No. 02CA1358, slip op.
at 31. Count 1 was remanded for correction of the
mittimus to remove the pattern portion of the charge
and reduce it from an F3 to an F4, but the
underlying conviction and sentence for the count
stood. Id. at 30.
At the January 11, 2011 resentencing, Defendant
was resentenced on Count 5 to 2 years DOC with 3
years mandatory parole, concurrent to all other
sentences and nunc pro tunc to the original
sentencing date. Count 1 was ordered to be amended
consistent with the Court of Appeals mandate. An
amended mittimus issued reflecting these changes.
(See Mittimus Feb. 23, 2011.) Defendant has now
filed a Motion for Reconsideration of Sentence

60a
Pursuant to Crim. P. 35(b) and § 18-1.3-406(1),
C.R.S. 2010.
II.

Analysis and Findings

A motion under Crim. P. 35(b) gives the trial court
the opportunity to reexamine the propriety of the
sentence imposed. People v. Ellis, 873 P.2d 22, 23
(Colo. App. 1993). Comparatively, Colorado Revised
Statutes § 18-1.3-406(1) gives the court significant
discretionary authority to act on information
provided to it by the Department of Corrections in
the case of statutory violent offenders in order to
“reconsider and reduce a previously imposed
mandatory sentence for a violent crime in the case of
exceptional,
unusual
and
extenuating
circumstances.” People v. Williams, 908 P.2d 1157,
1162 (Colo. App. 1995). This statute provides the
means for a court to reevaluate a violent offender’s
sentence in light of DOC’s extensive intake
evaluation and subsequent diagnostic report. See §
18-1.3-406(1). In the instant case, the Defendant
argues that the combination Crim. P. 35(b) and §181.3-406, C.R.S. provides the Court with the ability to
suspend Defendant’s DOC sentence and impose an
indeterminate probationary sentence. Specifically,
the Defendant has requested a sentence modification
based upon the unusual circumstance of the victim
S.B.’s recantation in conjunction with his conduct
while he has been incarcerated. For the following
reasons, the Court DENIES the Defendant’s request
for sentence modification.
A. Crim. P. 35(b) and §18-1.3-406, C.R.S.
The purpose of Crim. P. 35(b) is to allow a trial
court to review a sentence to ensure that it is fair in
light of the sentencing code. Ghrist v. People, 897

61a
P.2d 809, 812 (Colo. 1995). The sentencing code has
four purposes: (1) ensuring convicted offenders are
punished according to the seriousness of their
offense; (2) ensuring that convicted offenders are
treated fairly and consistently by eliminating
disparities in sentencing, providing fair warning of
the sentence to be imposed, and establishing fair
procedures for imposing sentences; (3) preventing
and deterring crime; and (4) promoting rehabilitation
of convicted offenders by encouraging voluntary
correctional programs. See § 18-1-102.5, C.R.S. 2010.
Thus, a trial court may reduce a sentence if, after
considering all relevant and material factors, it
determines that reducing the sentence will promote
one of the purposes of § 18-1-102.5. See Ghrist, 897
P.2d at 812. The decision of whether to reduce a
movant’s sentence under Crim. P. 35(b) is within the
sound discretion of the trial court. See People v.
Fuqua, 764 P.2d 56, 60 (Colo. 1988).
On the other hand, Colorado Revised Statutes
section 18-1.3-406 (2009), addresses mandatory
sentences for violent crimes. Subsection (1) of this
statute requires enhanced sentencing be imposed for
defendants who are convicted of a crime of violence.
See § 18-1.3-406(1)(a). Additionally, subparagraph (b)
of subsection (1) requires any defendant convicted of
a sex offense that constitutes a crime of violence to
be sentenced to an indeterminate sentence of DOC
incarceration for a term of at least the midpoint of
the presumptive range up to the defendant’s natural
life. See § 18-1.3-406(1)(b). However, subsection (1)
also provides a mechanism for the court to modify
the sentence of a defendant who is convicted of a
crime of violence. Id. As the available relief is narrow

62a
in scope and subject to specific statutory
requirements, the precise language of the statute is
crucial. In pertinent part, § 18-1.3-406 provides that:
(1)(a) Any person convicted of a crime of
violence shall be sentenced pursuant to the
provisions of section 18-1.3-401(8) to the
department of corrections for a term of
incarceration of at least the midpoint in, but
not more than twice the maximum of, the
presumptive range provided for such offense in
section 18-1.3-401(1)(a), as modified for an
extraordinary risk crime pursuant to section
18-1.3-401(10), without suspension; except
that, within ninety days after he or she has
been placed in the custody of the department
of corrections, the department shall transmit
to the sentencing court a report on the
evaluation and diagnosis of the violent
offender, and the court, in a case which it
considers to be exceptional and to involve
unusual and extenuating circumstances, may
thereupon modify the sentence, effective not
earlier than one hundred twenty days after his
or her placement in the custody of the
department. Such modification may include
probation if the person is otherwise eligible
therefor. ... A person convicted of two or more
separate crimes of violence arising out of the
same incident shall be sentenced for such
crimes so that sentences are served
consecutively rather than concurrently.
(b) Notwithstanding the provisions of
paragraph (a) of this subsection (1), any
person convicted of a sex offense, as defined in

63a
section 18-1.3-1003(5), committed on or after
November 1, 1998, that constitutes a crime of
violence shall be sentenced to the department
of corrections for an indeterminate term of
incarceration of at least the midpoint in the
presumptive range specified in section 18-1.3401(1)(a)(V)(A) up to a maximum of the
person’s natural life, as provided in section 181.3-1004(1).
§ 18-1.3-406(1), C.R.S.
A defendant may request sentence reconsideration
under §18-1.3-406, C.R.S., through a Crim. P. 35(b)
motion. See People v. Williams, 908 P.2d 1157, 116263 (Colo. App. 1995); People v. Belgard, 58 P.3d 1077
(Colo.App. 2002). Notably,
[t]he plain language of [§ 18-1.3-406(1)(a)] does
not provide an avenue, separate and apart
from Crim.P. 35(b), by which a defendant may
independently pursue a reconsideration of his
sentence at any time or in some manner other
than by a motion for reduction of sentence
pursuant to Crim.P. 35(b). In contrast to the
provisions of Crim. P. 35(b), this statute does
not authorize a defendant to file a motion for
reduction or reconsideration of sentence.
Rather, it simply provides that the court may
modify an existing sentence imposed for a
crime of violence by acting on information
provided by the Department of Corrections.
The statute permits a trial court to reconsider
and reduce a previously imposed mandatory
sentence for violent crime in the case of
exceptional,
unusual,
and
extenuating
circumstances. See People v. Wells, 775 P.2d

64a
563 (Colo.1989); People v. Byrum, 784 P.2d 817
(Colo.App.1989). The court may either reduce
the sentence on its own initiative following the
receipt of information from the Department of
Corrections or it may do so based on a
defendant’s motion pursuant to Crim.P. 35(b).
However, the trial court cannot consider a
motion filed by a defendant for reduction of
sentence based solely on [§ 18-1.3-406(1)(a)],
as that statutory provision does not trigger the
court’s jurisdiction to consider a sentence
reconsideration motion. It merely authorizes a
court to reduce a mandatory sentence imposed
for a crime of violence.
Williams, 908 P.2d at 1162-63. Thus, when a
defendant pursues sentence reconsideration under
§18-1.3-406, C.R.S., through a Crim. P. 35(b) motion,
a court is authorized to reduce a mandatory sentence
imposed for a violent crime.
In order for a trial court to reduce a previously
imposed mandatory sentence for a violent crime
under §18-1.3-406, C.R.S., the trial court must
determine there were “exceptional, unusual, and
extenuating circumstances” present. In determining
if
“exceptional,
unusual
or
extenuating
circumstances” exist in a defendant’s case, the trial
court is permitted to consider a defendant’s prior
record (or lack thereof), taking advantage of
educational opportunities in prison, the defendant’s
behavior during his incarceration, his remorseful
attitude and the circumstances surrounding the
commission of the crime. People v. Beyer, 793 P.2d
644, 647 (Colo. App. 1990) rev ‘d on other grounds.

65a
B.

Sentence Modification Not Warranted

A trial court has a duty to exercise its discretion
when
considering
a
motion
for
sentence
reconsideration. See Mikkleson v. People, 618 P.2d
1101, 1102 (Colo. 1980). When exercising its
discretion, the trial court must consider “all relevant
and material factors, including new evidence as well
as facts known at the time the original sentence was
pronounced.” People v. Busch, 835 P.2d 582, 583
(Colo. App. 1992). A trial court only fails to exercise
its judicial discretion where it refuses to consider
“any information in mitigation and fails to make
findings in support of its decision.” Id.
The Defendant asks this Court to reconsider his
sentence because of “exceptional, unusual, and
extenuating circumstances” present in his case.
Victim S.B.’s recantation forms the basis of the
“exceptional,
unusual,
and
extenuating
circumstances” according to the Defendant.
Additionally, the Defendant asks that the Court also
consider his conduct while he has been incarcerated.
Neither
of
these
considerations
warrants
modification of the Defendant’s sentence.
While a victim’s recantation of her trial testimony
is unusual, it is viewed with great suspicion. As
noted by the Colorado Supreme Court:
Skepticism about recantations is especially
applicable in cases of child sexual abuse where
recantation is a recurring phenomenon. See
Provost, 969 F.2d at 621 (1992); Myatt v.
Hannigan, 910 F.2d 680, 685 n. 2 (10th
Cir.1990) (noting that child recanting in
sexual abuse case is not atypical); State v.
Tharp, 372 N.W.2d 280, 282 (Iowa

66a
Ct.App.1985) (finding “where families are torn
apart, there is great pressure on the child to
makes things right”); State v. Gallagher, 150
Vt. 341, 554 A.2d 221, 225 (1988) (observing
“the high probability of a child victim
recanting a statement about being sexually
abused”).
People v. Schneider, 25 P.3d 755, 762-63 (Colo.
2001)(citing United States v. Provost, 969 F.2d 617,
621 (8th Cir. 1992):
In Provost, the case cited by the Colorado Supreme
Court in Schneider, the Eighth Circuit went onto to
explain:
Recantation is particularly common when
family members are involved and the child has
feelings of guilt or the family members seek to
influence the child to change her story. See
State v. Tharp, 372 N.W.2d 280, 282 (Iowa
Ct.App. 1985) (upholding denial of new trial
request based on 14 year old victim’s
recantation and noting that “where families are
torn apart, there is great pressure on the child
to make things right.”); Cacciola, The
Admissibility
of
Expert
Testimony
in
Intrafamily Child Sexual Abuse Cases, 34
U.C.L.A. L.Rev. 175, 184-88 (1986) (noting
susceptibility of child victim to family pressure
and to recant the testimony to return things to
“normal”).
Provost, 969 F.2d 617, 621 (8th Cir. 1992).
In the instant case, great pains were taken by the
trial court to evaluate the victim’s recantation and
determine which version of her story was truthful

67a
and whether this newly discovered evidence
warranted a new trial. The trial court found that the
victim “testified in a straightforward, unemotional
manner. There were no indicia of [the victim’s]
offering knowingly false testimony at that time [of
the original trial].” (Id. at 6). The trial court also
considered what it described as “an equally
unbelievable” and “far more heinous” allegation in
the form of S.B.’s claim that the prosecutor
knowingly and intentionally presented her perjured
testimony. (Id. at 5-6). The trial court also
determined that even though the victim had
credibility issues, “the jurors were able to sift
through her testimony, accepting some of it and
rejecting other parts.” (Id.). It further reasoned that
if a new trial was granted, the jurors would hear not
only the victim’s recanted testimony but her original
trial testimony, “including her former testimony that
detailed repeated descriptions of fellatio and sexual
intercourse that she was required to perform with
the Defendant.” (Id. at 6-7). Ultimately, the trial
court concluded that nothing it heard or saw during
the “post conviction proceeding perusad[ed] it that
the newly discovered evidence would produce a
complete acquittal at a new trial.” (Id. at 7).
Accordingly, the trial court denied the Defendant’s
motion for a new trial. The trial court’s decision was
affirmed by both the Court of Appeals and the
Colorado Supreme Court.
While S.B.’s recantation gives one pause, the Court
is mindful of the level of skepticism it draws.
Schneider, 25 P.3d 755 at 762-63; Provost, 969 F.2d
at 621. The Court gives due regard to the same
considerations of S.B.’s testimony at trial and at the

68a
post conviction proceeding outlined above, which
supported the denial of the Defendant’s motion for a
new trial. With these concerns, the Court finds that
S.B.’s recantation fails to rise to the level of
“exceptional,
unusual,
and
extenuating
circumstances” which would warrant sentence
modification, including any consideration of
indeterminate probation.
As for the Defendant’s conduct while he has been
incarcerated, the Court acknowledges that the
Defendant has been productive while incarcerated,
e.g., finishing his GED, maintaining work as an
upholsterer, holding a good disciplinary record, and
making efforts to continue relationships with his
family. However, reconsideration of Defendant’s
sentence cannot be justified by his good conduct at
the Department of Corrections alone. Reducing the
Defendant’s sentence on that basis would not serve
any of the sentencing code’s identified purposes. See
§ 18-1-102.5, C.R.S.
A court is allowed to consider evidence regarding a
defendant’s conduct while incarcerated when
deciding a Crim. P. 35(b) motion, but it is error for a
court to grant a Crim. P. 35(b) motion on that basis
alone. Ghrist, 897 P.2d at 813. As the Colorado Court
of Appeals observed in People v. Piotrowski,
“[h]owever admirable may be a defendant’s desire to
demonstrate to the trial court his desire to be
rehabilitated . . . [that] fact . . . diverts a trial court
from performing its legitimate function . . . [of
reviewing] a sentence to determine its fairness based
upon the purposes of the sentencing code.” 855 P.2d
1, 1-2 (Colo. App. 1992). In fact, the trial court
abuses its discretion when it grants reconsideration

69a
of a sentence pursuant to Crim. P. 35(b) based solely
upon a defendant’s good behavior. Thus, while a
defendant’s behavior while incarcerated is but one of
many factors that this Court may consider in
analyzing the present Motion, it cannot be the sole
basis for awarding relief pursuant to Crim. P. 35(b).
By the Defendant’s own admission, the Defendant
does not admit to any wrong-doing and does not seek
exoneration from the Court. He still contends that he
has been wrongly convicted. As such, the Defendant
does not express any remorse or accept any
responsibility. As noted in the People’s Response, if
the Defendant maintains this position, he would not
be and could not be successful in the sex offender
intensive supervised probation because the
Defendant would be required to admit to the sexual
abuse that he denies. (See People’s Resp. at 3.) The
Court agrees with the People, as long as the
Defendant remains in denial of his actions,
treatment would not be a viable option.
Accordingly, the Court finds the Defendant’s
behavior and educational endeavors during his
incarceration also fail to rise to the level of
“exceptional,
unusual,
and
extenuating
circumstances” which would warrant sentence
modification, including any consideration of
indeterminate probation.
The Defendant also requests that his sentences be
ordered to run concurrently. For the same reasons
outlined above, the Court DENIES this request.
C.

Hearing Not Warranted

A court may deny a Crim. P. 35(b) motion without a
hearing after considering the motion and supporting

70a
documents. See Crim. P. 35(b). A trial court must
consider all relevant and material factors, including
new evidence and facts known at the time of the
original sentence. People v. Ellis, 873 P.2d 22, 23
(Colo. App. 1993). After reviewing the Motion and
supporting documents, the Response, and the file,
the Court has considered all relevant and material
factors and finds that no hearing is required. The
request for a hearing is DENIED.
III. Conclusion
ACCORDINGLY, the Defendant’s Motion for
Reconsideration of Sentence pursuant to Crim. P.
35(b) is DENIED. The Defendant’s request for
sentence reconsideration under 18-1.3-406 is
DENIED. The Defendant’s request to have his
sentences run concurrently is DENIED. The
Defendant’s request for a hearing is DENIED.
IT IS SO ORDERED.
Done this 25th day of July, 2011.
BY THE COURT:
/s/ Valeria N. Spencer
Valeria N. Spencer
District Court Judge

71a
APPENDIX I
_________
SUPREME COURT OF COLORADO
EN BANC
_________
CHARLES A. FARRAR,
Petitioner,
v.
THE PEOPLE OF THE STATE OF COLORADO,
Respondent.
_________
No. 07SC983
_________
May 26, 2009
_________
Rehearing Denied June 15, 2009
_________
OPINION
_________
Justice COATS delivered the Opinion of the Court.
Farrar petitioned for review of the court of appeals’
judgment partially affirming his multiple sexual
assault and child abuse convictions and affirming the
denial of his motion for new trial based on newly
discovered evidence. While Farrar’s direct appeal of
his convictions was proceeding in the court of

72a
appeals, the child victim indicated that her
testimony of sexual abuse by the defendant was
fabricated. After a series of evidentiary hearings, the
district court denied Farrar’s motion for new trial,
and he was permitted to join an appeal of that ruling
with the appeal of his convictions. Although the court
of appeals reversed portions of the judgment of
conviction, it found no abuse of discretion in the
district court’s denial of his motion for a new trial.
We granted Farrar’s petition solely on the question
whether the court of appeals erred in affirming the
denial of his motion for new trial. Because the
district court was not reasonably convinced that the
victim’s testimony at trial was probably false, it did
not abuse its discretion in denying his motion for
new trial. The judgment of the court of appeals is
therefore affirmed.
I.
In February 2001 the defendant, Charles A. Farrar,
was charged with committing multiple sexualassault-related offenses against his stepdaughter.
About a year earlier, when she was fifteen years old,
she accused both her mother and her stepfather of
continuous acts of sexual abuse, going back more
than three years. Although a jury acquitted the
defendant of child prostitution and sexual
exploitation of a child, as well as several of the
counts of sexual assault, it convicted him of
numerous other sexual-assault-on-a-child-related
offenses, and he was sentenced to 145 years to life
imprisonment.
At trial the victim’s testimony was the only direct
evidence of the assaults, without physical or
eyewitness corroboration. About a year after the

73a
defendant’s conviction and sentence, while his direct
appeal was pending in the court of appeals, the
victim provided the defense with an affidavit
recanting her allegations of sexual abuse and
asserting that she had been threatened and told how
to testify by the prosecutors and social workers. The
court of appeals granted a limited remand for
consideration of a defense motion for new trial based
on newly discovered evidence.
Because the motion for new trial included
allegations of failure to disclose the victim’s pretrial
attempts to recant, the district court disqualified the
entire district attorney’s office and appointed a
special prosecutor to represent the People on
remand. The district court held a number of
evidentiary hearings in connection with the motion
and entertained oral and written arguments. In all,
it heard from the victim, her maternal grandmother
and her maternal uncle; as well as the prosecutors,
social workers, guardian ad litem from the parallel
dependency and neglect proceedings, and a man
whom the victim dated for a number of months
around the time of her recantation.
The victim testified that she fabricated the sexual
assault allegations because she felt unloved by her
parents and wanted to move to Oklahoma to live
with her maternal grandparents. She specifically
denied that the incidents of sexual abuse she
described in her trial testimony ever occurred, and
she also disavowed the testimony she gave at her
dependency and neglect proceedings. She further
denied being pressured to recant and claimed that
even before the trial she tried to tell the prosecutors,
her guardian ad litem, and the social workers that

74a
her accusations were false, but in each case she was
ignored or actually threatened with being locked up
in a mental institution if she were to change her
account.
The victim’s grandmother testified that she was
personally rebuffed before trial when she tried to
caution the prosecutors about the victim’s lack of
credibility, and she also insisted that she had
actually overheard the victim recanting to one of the
prosecutors. The victim’s uncle disputed testimony of
the guardian ad litem to the effect that he had told
the guardian about the victim being pressured to
withdraw her allegations of abuse by her mother.
The trial prosecutors and social workers in turn
denied the victim’s allegations of misconduct and
testified that she never told them her accusations of
sexual abuse were false. One of the trial prosecutors
conceded that defense counsel notified her at one
point that the victim was recanting her allegations,
but she testified that when she telephoned the victim
in Oklahoma for confirmation, the victim denied
changing her story and acted angry and upset that
the question was even being asked of her. The
prosecutor also testified that although the victim did
not want her mother to be offered a plea bargain,
nevertheless, as the mother’s trial date approached,
the victim indicated that she simply could not go
through another trial.
The victim’s former guardian ad litem testified,
contrary to the victim’s testimony, that he saw the
victim as many as a dozen times during the
dependency and neglect proceedings but she never
suggested to him in any way that her allegations
were false. Although it was disputed by the victim’s

75a
uncle, the guardian also testified that her maternal
uncle had told him that the victim was being
pressured to change her allegations of abuse by her
mother and that the mother had offered to buy the
victim a car.
A boyfriend of the victim testified that she told him
she had actually been sexually abused by the
defendant, but also that she was going to change her
story in order to get her family back together.
Although the boyfriend testified that the victim had
shown him a journal in which she had written about
the abuse, the victim explained that she often kept
more than one diary and that this was a largely
fictional piece on which she was working. In later
testimony, she produced a previously unseen diary,
which she claimed to have only recently located,
containing entries dated contemporaneously with her
outcry and indicating her deliberate fabrication of
the assault allegations as part of a scheme to get
away from her family and be sent to her
grandparents in Oklahoma.
The district court took the matter under
advisement and ultimately denied the motion in a
lengthy, written order. It found the victim’s
allegations of prosecutorial misconduct unworthy of
belief, and it therefore declined to order a new trial
on those grounds. With regard to the recantation of
her trial testimony and her new account of her
stepfather’s conduct, the district court found
entitlement to a new trial in this case to turn
entirely on the question whether the newly
discovered evidence would probably bring about an
acquittal at a new trial. Concluding that the victim
had substantial credibility issues, with regard to

76a
both her testimony at trial and her testimony
supporting the motion for new trial, the district court
remained unpersuaded that any newly discovered
evidence would produce an acquittal. It found
instead that in all probability another jury, like the
first, would accept some of the victim’s contentions
and reject others.
Upon recertification to the court of appeals, the
defendant’s challenge to the denial of his motion for
new trial was joined with his assignments of error at
trial and sentencing. The court of appeals found
errors involving two counts and remanded for
resentencing and correction of the mittimus, but it
affirmed the denial of the defendant’s motion for new
trial. It concluded that the district court applied the
correct legal standard, heard and considered all of
the evidence concerning the victim’s credibility, and
did not abuse its discretion in finding that the
recantation would not probably have resulted in an
acquittal at a new trial.
We granted the defendant’s petition for a writ of
certiorari solely with regard to his challenge to the
denial of his motion for new trial based on newly
discovered evidence.
II.
Unlike assertions of prosecutorial subornation of
perjury or failure to disclose exculpatory evidence,
see Mooney v. Holohan, 294 U.S. 103, 55 S.Ct. 340,
79 L.Ed. 791 (1935); United States v. Bagley, 473
U.S. 667, 105 S.Ct. 3375, 87 L.Ed.2d 481 (1985), or
even assertions that defense counsel was ineffective,
see Strickland v. Washington, 466 U.S. 668, 104 S.Ct.
2052, 80 L.Ed.2d 674 (1984), claims of newly
discovered evidence do not draw into question the

77a
constitutionality of a criminal conviction. With the
possible exception of an Eighth Amendment
limitation on imposing the death penalty
notwithstanding a sufficient allegation of actual
innocence, see Herrera v. Collins, 506 U.S. 390, 401–
02, 113 S.Ct. 853, 122 L.Ed.2d 203 (1993) (rejecting
death row inmate’s claim as insufficiently
demonstrated even assuming the existence of such a
constitutional limitation), the Supreme Court has
never suggested that newly discovered evidence
impeaching a guilty verdict implicates due process of
law. Whether to grant new trials upon the discovery
of new evidence undermining confidence in the
reliability of criminal convictions is largely a matter
of policy, requiring a balance between the need for
finality and the state’s interest in ensuring the
fairness and accuracy of its proceedings. People v.
Schneider, 25 P.3d 755, 762 (Colo.2001).
Although disfavored, new trials are allowed in
virtually every jurisdiction in this country, according
to each jurisdiction’s own understanding of how and
where to strike that balance. Because newly
discovered evidence can arise in a multiplicity of
circumstances, with widely differing significance, we
have long emphasized the discretionary nature of the
decision to grant or deny a new trial. See, e.g., Blass
v. People, 79 Colo. 555, 558, 247 P. 177, 178 (1926).
Depending upon such things as the nature of the
additional evidence, the circumstances of its
discovery, and the strength of the existing evidence
supporting conviction, we have at times highlighted
different considerations in making the determination
and have articulated the applicable standards in a
variety of terms.

78a
More recently, however, we have attempted to
identify and enumerate the considerations affecting
motions for new trial based on newly discovered
evidence generally. See People v. Gutierrez, 622 P.2d
547, 559–60 (Colo.1981); Digiallonardo v. People, 175
Colo. 560, 488 P.2d 1109 (1971). To begin, we have
consistently made clear that evidence will be
considered newly discovered for purposes of a motion
for new trial only if it was both unknown to the
defendant and his counsel in time to be meaningfully
confronted at trial and unknowable through the
exercise of due diligence. Gutierrez, 622 P.2d at 559–
60; People v. Scheidt, 187 Colo. 20, 22, 528 P.2d 232,
233 (1974); Digiallonardo, 175 Colo. at 567, 488 P.2d
at 1113. As the result of more modern development
of the constitutional right to the effective assistance
of counsel, however, a failure of counsel to
competently investigate will not deprive a defendant
of a right to a new trial as much as it will simply
alter the terms of the analysis. See Strickland, 466
U.S. at 686, 104 S.Ct. 2052.
We have also required that the newly discovered
evidence must not only be relevant to material issues
at trial but that it must also be of consequence to the
outcome. See Scheidt, 187 Colo. at 22, 528 P.2d at
233. Moreover, the newly discovered evidence must
be of sufficient consequence for reasons other than
its ability to impeach, or cast doubt upon, the
evidence
already
presented
at
trial.
Id.;
Digiallonardo, 175 Colo. at 567, 488 P.2d at 1113. It
must be consequential in the sense of being
affirmatively probative of the defendant’s innocence,
whether that is accomplished by helping to
demonstrate that someone else probably committed

79a
the crime; that the defendant probably could not
have committed the crime; or even that the crime
was probably not committed at all. We have
described the required materiality of newly
discovered evidence, or the extent to which it must
be consequential to the outcome, in various terms,
with varying degrees of precision, but at least since
Digiallonardo, we have specified that it must be such
that it would probably produce an acquittal. 175
Colo. at 567, 488 P.2d at 1113.
Newly discovered evidence in this sense can, and
often does, arise from the recantation of a witness
who testified at trial. Perhaps because a recanting
witness, in addition to typically offering a new
version of pertinent events, necessarily impeaches
his own prior testimony, some jurisdictions treat
recantations as a distinct ground for ordering a new
trial, subject to different standards of proof
altogether. See Larrison v. United States, 24 F.2d 82
(7th Cir.1928) (new trial following recantation where
the prior testimony is false and without it the jury
might have reached a different conclusion); e.g.,
United States v. Willis, 257 F.3d 636, 642–43 (6th
Cir.2001) (following Larrison for a recantation case,
but requiring that new evidence would likely produce
an acquittal in other newly discovered evidence
cases); United States v. Lofton, 233 F.3d 313, 318
(4th Cir.2000) (same). It has even been suggested
that convictions shown to have been dependent in
some measure on perjured testimony should be
subject to reversal on a less stringent basis than
would be permitted for other kinds of newly
discovered evidence. 6 Wayne R. LaFave, Criminal
Procedure § 24.11(d) (3d ed.2007); cf. United States v.

80a
Williams, 233 F.3d 592, 594 (D.C.Cir.2000)
(criticizing Larrison, 24 F.2d 82, and other related
cases as too lightly permitting a new trial). Unlike
those jurisdictions, however, we have never singled
out recantation for this kind of special treatment and
have, in fact, long held that a demonstration of false
or mistaken testimony can entitle a defendant to a
new trial only if the newly discovered evidence would
also probably result in an acquittal. Whipp v. People,
78 Colo. 134, 141, 241 P. 534, 537 (1925) (new trial if
verdict was probably influenced by false testimony
and result of another trial would probably, or might,
be different); see also Cheatwood v. People, 164 Colo.
334, 340, 435 P.2d 402, 405 (1967) (expanding Whipp
to include mistaken testimony).
In People v. Schneider, we squarely addressed the
concerns inherent in the recantation of an alleged
incest or child sexual assault victim. While we made
the new standard we created in that case applicable
only to convictions resulting from guilty pleas, we
discussed more broadly the problem of victim
recantation, emphasizing the suspicion with which
recantations should be examined and the court’s role
in making an objective assessment of the recanting
witness’s credibility. Schneider, 25 P.3d at 763.
Significantly, we there spelled out the court’s duty to
assess a recanting witness’s credibility, not only with
regard to the unique second prong of the guilty plea
standard, which mandates a determination whether
the charges to which the defendant pled guilty were
actually false or unfounded, but also with regard to
the generally applicable requirement to determine
whether the newly discovered evidence would
probably result in acquittal at a new trial. Id. at 762.

81a
By contrast with the second prong of the guilty plea
standard, we were not required in Schneider to
create a new obligation to assess the credibility of a
recanting witness because that requirement was
already inherent, if not always expressly articulated,
in our existing standard for granting a new trial
based on newly discovered evidence. In fact, we have
for some time emphasized that a defendant can be
entitled to a new trial as the result of newly
discovered evidence only if that evidence would be
likely to result in acquittal for reasons beyond simply
impeaching the earlier conviction. Rather than
merely creating reasonable doubt by demonstrating
that the recanting witness has given different and
irreconcilable testimony on different occasions, cf.
CRE 613(a) (“Examining witness concerning prior
inconsistent statements for impeachment purposes”),
recantation can justify a new trial only if it contains
sufficiently significant new evidence, and if it, rather
than the witness’s inconsistent trial testimony, will
probably be believed. See United States v.
McCullough, 457 F.3d 1150, 1167 (10th Cir.2006).
In measuring the credibility of a recanting witness
and determining whether that witness’s new version
would probably be believed, the trial court is not
barred from relying on its own experience, but in
addition to its own experience and observations of
the witness, the court must consider all of the
testimony and circumstances, and make findings
that will permit appropriate appellate review.
Schneider, 25 P.3d at 762. In Schneider, by
describing the court’s duty in terms of its being
“reasonably satisfied,” we intended to communicate
the notion of an objective standard—whether a

82a
reasonable person with the appropriate degree of
skepticism and awareness of the relevant
circumstances, rather than a typical juror, would
probably believe the witness’s new version of events.
Cf. People v. Wadle, 97 P.3d 932, 937 (Colo.2004)
(distinguishing a typical juror from an objectively
reasonable one). By referring to an assessment of the
witness’s credibility, we clearly did not intend that
the inquiry be limited to simply the trial judge’s
subjective belief in the veracity of a recanting
witness or suggest that a trial judge’s personal belief
could serve as a substitute for a reviewable finding of
whether any new evidence produced by the
recantation would probably result in an acquittal.
Because new evidence in the form of a witness
recantation, whether believed or not, necessarily
serves to impeach the recanting witness’s credibility
to some degree, it can justify a new trial only to the
extent that it not only impeaches the prior testimony
but does so by contradicting it with a different and
more credible account. In addition to probably being
believed by reasonable jurors, the witness’s new
version of events must be of such significance in its
own right as to probably cause reasonable jurors to
acquit the defendant. While not necessarily true of
all recantations, the believability of a child sexual
assault victim’s recantation of the accusations upon
which the charges are based would seemingly be
determinative of the outcome in virtually every
instance.
The crux of any motion for new trial premised on
the post-trial recantation of a child victim’s
testimony of sexual assault must therefore be an
objective assessment of the believability of her new

83a
account of relevant events. After considering all of
the circumstances impinging on the recanting
witness’s credibility, including the existence of her
prior inconsistent testimony, the court must
determine whether it is more likely than not that
reasonable jurors would believe her more recent
testimony. Unless the victim’s testimony that the
defendant did not commit the sexual assault will
probably be believed, it cannot be said that
reasonable jurors would probably acquit as a result
of that testimony.
III.
The defendant asserts that the district court
abused its discretion both by failing to properly
acknowledge that reasonable doubt must be created
by a sexual assault victim’s recantation and, in
addition, by forcing the defendant to demonstrate
that any new trial would probably result in an
acquittal on all charges. With regard to the former,
the defendant misperceives the standard for granting
a new trial in this jurisdiction, and with regard to
the latter, he simply misreads the district court’s
ruling.
In its ruling, the district court initially dispensed
with the defendant’s allegations of prosecutorial
failure to disclose and deliberate proffer of perjured
testimony by finding the victim’s allegations to be
unworthy of belief. In ruling on these due process
challenges, the court properly acted as the trier of
fact, see People v. District Court, 790 P.2d 332, 338
(Colo.1990); People v. Rodriguez, 786 P.2d 1079, 1082
(Colo.1989), and there is no suggestion that its
refusal to credit the victim’s accusations of
prosecutorial misconduct was clearly erroneous.

84a
With regard to the effect of newly discovered
evidence, however, the district court objectively
assessed, as it was obliged to do, the probable effect
of the victim’s post-trial testimony on reasonable
jurors.
The district court considered evidence of the
victim’s lack of character for truthfulness and other
testimony contradicting certain aspects of her posttrial testimony. It also compared the victim’s
demeanor in testifying both at trial and in postconviction proceedings. Ultimately, it was unable to
conclude that the victim’s recantation testimony was
any more believable than her trial testimony, and
therefore it could not find that the victim’s new
evidence would probably result in the defendant’s
acquittal.
The defendant’s assertion that the district court
had an obligation to actually decide whether the
recantation was believable misses the mark. In order
to be entitled to a new trial for newly discovered
evidence, the defendant bore the burden of
demonstrating that new evidence offered by him
would probably convince reasonable jurors to acquit
him. In the case of recantation, this necessarily
requires a demonstration that the jury would
probably believe the victim’s recantation. In the
absence of such a showing, a trial court is required to
deny a motion for new trial based on newly
discovered evidence.
By the same token, the district court did not abuse
its discretion by failing to appreciate, as the
defendant contends, that in the absence of
corroborating evidence of the assaults, any
reasonable juror would have doubts about the

85a
accusations of a subsequently recanting witness.
Quite the contrary, the district court properly
evaluated the effect of the victim’s recantation apart
from its impeachment value. It has never been the
policy of this jurisdiction to grant new trials on the
basis of new evidence challenging the credibility of
testimony presented at trial.
In the absence of error at trial, a new trial may be
granted only upon the discovery of meaningfully
contradictory evidence. Apart from obvious motives
to recant, especially in the case of incest or child
sexual assault victims, and apart from the danger of
subjecting young witnesses to never-ending pressure
to recant by too lightly allowing new trials, a jury’s
credibility determinations are entitled to respect.
The fact that any inherent doubts about the
trustworthiness of a self-impeaching witness must
militate against, rather than in favor of, granting a
new trial is embodied in our caution that
recantations must be viewed with skepticism.
Schneider, 25 P.3d at 763; Digiallonardo, 175 Colo.
at 568, 488 P.2d at 1114.
Finally, the defendant asserts that by using the
term “complete acquittal” in its concluding
paragraph, the district court demonstrated that it
denied the defendant a new trial only because he
failed to prove that he would probably be acquitted of
all pending charges. It is unnecessary for us to decide
whether a new trial for newly discovered evidence
might, under some set of circumstances, be
appropriate despite failing to justify an acquittal on
every charge of which the defendant was previously
convicted. Here, the court’s choice of language was
equally consistent with an attempt to communicate

86a
that even the probability of a hung jury would be
insufficient.
Whether or not a failure to make a timely objection
could be considered a waiver, it is at least clear that
the defendant’s failure to seek timely clarification is
responsible for any resultant ambiguity in this
language. In addition to the fact that the crimes of
which the defendant was convicted are not clearly
differentiable, and the fact that the defendant has
made no attempt to differentiate them for purposes
of his motion, we believe the district court’s ruling is
fairly understood to intend only that a showing of
probable acquittal is required.
IV.
Because the district court heard and considered all
available evidence bearing on the credibility of the
recanting witness and was still not reasonably
convinced that the victim’s testimony at trial was
probably false, it did not abuse its discretion in
denying the defendant’s motion for new trial. The
judgment of the court of appeals is therefore
affirmed.
Justice BENDER dissents, and Chief Justice
MULLARKEY and Justice MARTINEZ join in the
dissent.
Justice BENDER dissents.
The majority holds that a recantation “can justify a
new trial only to the extent that it not only
impeaches the prior testimony but does so by
contradicting it with a different and more credible

87a
account.” Maj. op. at 708. Such a conclusion
overstates our precedent. The appropriate standard
that should be applied here is that newly discovered
impeachment evidence is sufficient to justify a new
trial when it, taken together with all of the other
evidence for and against the defendant, is of such
consequence that it probably would result in an
acquittal on retrial. In this case, the parties agree
that there was no evidence other than the victim’s
trial testimony to support the defendant’s conviction.
The trial court found that the victim’s trial testimony
had “substantial credibility issues.” Given this set of
circumstances, I conclude that the addition of the
victim’s recantation would bolster the defense
argument for reasonable doubt and probably result
in an acquittal on retrial. In my view, justice
requires that the defendant receive a new trial.
Hence, I respectfully dissent.
Post-trial recantation evidence should be viewed
with skepticism. Blass v. People, 79 Colo. 555, 557–
58, 247 P. 177, 178 (1926). For this reason, evidence
serving “merely” to impeach or to cast doubt upon a
witness’s testimony is an inadequate ground for a
new trial. People v. Scheidt, 187 Colo. 20, 22, 528
P.2d 232, 233 (1974); Digiallonardo v. People, 175
Colo. 560, 567, 488 P.2d 1109, 1113 (1971). The
majority states that new impeachment evidence can
justify a new trial only when it is of such significance
that it would probably bring about an acquittal
before a new jury. Maj. op. at 707 (citing Whipp v.
People, 78 Colo. 134, 141, 241 P. 534, 537 (1925)).
While I agree with this reading of our case law, I
disagree with the majority’s further statement that
unless a witness’s recantation is more believable

88a
than her trial testimony, it falls into a subset of
impeachment evidence that would not here, and
perhaps could not ever, bring about an acquittal.
Maj. op. at 708–09. This holding fails to account for
cases in which the newly discovered impeachment
evidence adds more support to an already viable
defense case for reasonable doubt. In these cases,
perhaps rare, the new evidence does much more than
cast doubt upon a witness’s credibility—it clearly
could and probably would change the outcome of the
case.
The facts of this case demonstrate how a witness
recantation that is found no more believable than the
initial trial testimony can nonetheless result in a
probable acquittal. The parties agree that the jury’s
verdict came down to whether it believed the victim’s
trial testimony. Citing the jury’s decision to convict
the defendant on certain counts, but acquit him on
others, the trial court concluded that some of the
victim’s trial testimony was “at least unpersuasive if
not unbelievable,” and that she had “substantial
credibility issues.” The victim’s subsequent
recantation provides an even greater basis to doubt
the veracity of her initial testimony. Because
virtually no evidence other than the victim’s trial
testimony supported the defendant’s conviction, her
full recantation of all the evidence implicating the
defendant necessitates the conclusion that an
acquittal—or finding by the jury of reasonable doubt
as to the defendant’s guilt—is at least probable.
While our cases state that “mere impeachment”
cannot justify a new trial, I believe this statement
expresses the idea that impeachment evidence may
be insignificant or highly significant to the outcome

89a
of a case depending on the nature of the
impeachment and the particular facts of the case. In
those cases where the impeachment strikes at the
heart of the conviction, there may exist a sufficient
basis for a new trial. See Miller v. People, 92 Colo.
481, 489–90, 22 P.2d 626, 630 (1933) (endorsing the
rule “that newly discovered impeaching evidence
would not warrant a new trial, unless it clearly
appears that it would probably change the result in
case of a new trial”) (internal quotations omitted).
Such a reading is consistent with People v. Gutierrez,
622 P.2d 547 (Colo.1981), where we enumerated the
modern standard for motions for new trials based on
newly discovered evidence. There, we framed the
relevant inquiry as, whether, “[b]ased on review of
all the available evidence,” the new evidence would
probably produce an acquittal. Id. at 560. While the
trial judge may apply her own experience in
weighing the objective believability of the witness’s
recantation, she must do so by evaluating the
probable impact of the recantation on the
prosecution’s case as a whole.
The majority relies upon People v. Schneider, 25
P.3d 755 (Colo.2001), for the proposition that a trial
court must be “reasonably satisfied” that a
reasonable person would probably believe the
witness’s new version of the events in order to grant
a new trial. Maj. op. at 707–08. This reliance is
misplaced. In Schneider, we examined the trial
court’s responsibility to evaluate a witness’s
credibility when a defendant requests to withdraw a
guilty plea on the basis of a recantation. 25 P.3d at
761–62. A person who “voluntarily and knowingly
enters a guilty plea accepting responsibility for the

90a
charges is properly held to a higher burden in
demonstrating to the court that newly discovered
evidence should allow him to withdraw that plea.”
Id. at 761. In addition to requiring that a defendant
seeking to vacate a guilty plea demonstrate that the
new evidence probably would result in an acquittal,
we also required that the trial court determine that
the charges filed against the defendant were
“actually false and unfounded.” Id. at 762.
Accordingly, we required that a trial court be
“reasonably satisfied” that the earlier accusations
were untrue. Id.
In contrast to the guilty plea circumstances in
Schneider, Gutierrez requires that the trial court
need only find that the recantation, when considered
with all the other evidence, will generate enough
doubt to probably produce an acquittal. 622 P.2d at
560. In the circumstances of a conviction after a trial,
the trial court need not be reasonably satisfied that
the trial testimony is untrue, or even probably
untrue. Even if the trial court had found the victim’s
recantation less credible than her trial testimony, it
would not necessarily mean that an acquittal was
not probable. See State v. McCallum, 208 Wis.2d 463,
561 N.W.2d 707, 711 (1997) (“It does not necessarily
follow that a finding [that a recantation is] ‘less
credible’ must lead to a conclusion of ‘no reasonable
probability of a different outcome.’ Less credible is
far from incredible.”).
The majority’s new test for recantations is also
problematic because it overlooks the weight we are
required to give to prior inconsistent statements as
compared to other forms of impeachment. Although a
witness’s recantation has the effect of impeaching

91a
her prior testimony, the evidence here—a complete
repudiation of her previous testimony implicating
the defendant—constitutes a prior inconsistent
statement which is admissible as substantive
evidence. § 16–10–201, C.R.S. (2008) (prior
inconsistent statements made at trial are admitted
as substantive evidence); see also People v. Tomey,
969 P.2d 785, 787 (Colo.App.1998) (noting that a
hearsay statement allegedly made by the victim to
an inmate that was inconsistent with the victim’s
former testimony would be admitted on retrial as
substantive evidence under section 16–10–201,
C.R.S.). As the Tenth Circuit has explained, “when a
witness recants his testimony, presumably he will
testify to the new version at a new trial. Thus, the
recantation is substantive evidence.” United States v.
Ramsey, 726 F.2d 601, 604 (10th Cir.1984). Hence, I
conclude that a recantation, depending on the
circumstances and nature of the recantation and
corroborating evidence, may constitute much more
than “mere” impeachment.
In sum, I believe that the trial court abused its
discretion in denying the defendant a new trial based
on the victim’s recantation. The trial court found
that the jury’s verdict came down to whether it
believed the alleged victim’s testimony. The trial
court found that some of the victim’s allegations
generated reasonable doubt in the jury’s mind. The
victim’s subsequent recantation provides an even
greater basis to doubt the truthfulness of the initial
allegations which the jury believed. The victim’s
suspect initial testimony, when coupled with the lack
of corroborative evidence in this case, demonstrates
that this key witness’s recantation would probably

92a
bring about an acquittal. Thus, justice requires a
new trial.
Lastly, I note that what the trial court meant when
it stated that the newly discovered evidence must
produce a “complete acquittal” at a new trial is not
relevant to the decision in this case. Nonetheless, the
majority suggests in dicta that the defendant may
have waived the right to challenge this order on the
grounds that the trial court misconstrued the correct
legal standard because the defendant did not seek
timely clarification as to what the trial court meant
by the term “complete acquittal.” Maj. op. at 709.
This statement appears without citation support,
and my research disclosed no Colorado case
requiring defense counsel to seek clarification of a
trial court’s denial of a motion for a new trial before
challenging it on appeal.
For these reasons, I dissent.
I am authorized to state that Chief Justice
MULLARKEY and Justice MARTINEZ join in this
dissent.

93a
APPENDIX J
_________
COLORADO COURT OF APPEALS
_________
Court of Appeals No.: 02CA1358
Arapahoe County District Court No. 01CR505
Honorable John P. Leopold, Judge
_________
THE PEOPLE OF THE STATE OF COLORADO,
Plaintiff-Appellee,
v.
CHARLES A. FARRAR,
Defendant-Appellant.
_________
JUDGMENT AND SENTENCE AFFIRMED IN
PART, REVERSED IN PART, AND CASE
REMANDED WITH DIRECTIONS
Division I
Opinion by: JUDGE MÁRQUEZ
Taubman and J. Jones, JJ., concur
NOT PUBLISHED PURSUANT TO C.A.R. 35(f)
Announced: October 4, 2007
_________

94a
John W. Suthers, Attorney General, Patricia R.
Van Horn, Assistant Attorney General, Denver,
Colorado, for Plaintiff-Appellee
Douglas K. Wilson, Colorado State Public Defender,
Mark G. Walta, Deputy State Public Defender,
Denver, Colorado, for Defendant-Appellant
_________
Defendant, Charles A. Farrar, appeals the
judgment of conviction entered on jury verdicts
finding him guilty of twenty-two counts involving
sexual assault on a child. He also appeals the
sentence imposed. We affirm in part, reverse in part,
and remand with directions.
Defendant was tried on twenty-eight counts
involving his stepdaughter: sexual assault on a child
– pattern of abuse (counts 1-10); sexual assault on a
child under the age of fifteen by one in a position of
trust (counts 11-20); sexual assault on a child
between the ages of fifteen and eighteen by one in a
position of trust – pattern of abuse (count 21); sexual
exploitation of a child – inducement or enticement
(count 22); inducement of child prostitution (count
23); sexual assault on a child – force (counts 2425);
soliciting for child prostitution (count 26); child
abuse resulting in injury – criminal negligence
(count 27); and violent crime – sexual assault (count
29). The jury found him guilty of all counts except
counts 4 (“spring fling” incident), 14 (“spring fling”
incident), 22, 23, 24, and 26.
Defendant challenges certain rulings on the
admissibility of evidence, the scope of crossexamination, jury instructions, variances in the

95a
information, and his motion for a new trial, as well
as his consecutive sentencing.
I. Prior Sexual Misconduct
Defendant contends that the trial court erred in
admitting testimony of prior alleged acts of sexual
misconduct. We disagree.
Section 16-10-301, C.R.S. 2007, and CRE 404(b)
govern the admission of similar transaction evidence
in sexual offense cases. People v. Underwood, 53 P.3d
765, 769 (Colo. App. 2002). Section 16-10-301(3),
C.R.S. 2007, allows the introduction of evidence of
other acts of the defendant for purposes of refuting
the defense of recent fabrication; showing a common
plan, scheme, design, or modus operandi, regardless
of whether identity is at issue and whether the
charged offense has a close nexus as part of a unified
transaction to the other act; or showing motive,
opportunity, or intent. CRE 404(b) provides:
Evidence of other crimes, wrongs, or acts is not
admissible to prove the character of a person
in order to show that he acted in conformity
therewith. It may, however, be admissible for
other purposes, such as proof of motive,
opportunity,
intent,
preparation,
plan,
knowledge, identity, or absence of mistake or
accident.
When the prosecution intends to introduce such
evidence, the trial court shall determine by a
preponderance of the evidence whether the other act
occurred and whether the purpose is proper. The
trial court may determine the admissibility of other
acts by an offer of proof. The court shall instruct the
jury as to the limited purpose or purposes for which

96a
the evidence is admitted and for which the jury may
consider it. § 16-10-301(4)(b), (c), (d); People v.
Garner, 806 P.2d 366, 373 (Colo. 1991) (a trial court
must be satisfied by a preponderance of the evidence
that the prior bad act occurred and that the
defendant committed the act); People v. Underwood,
53 P.3d at 769. To introduce evidence of other sexual
acts committed by the defendant, the prosecution
also must satisfy CRE 404(b) and the four-part test
established in People v. Spoto, 795 P.2d 1314 (Colo.
1990). People v. Underwood, 53 P.3d at 769.
The Spoto test requires the trial court to determine
(1) whether the proffered evidence relates to a
material fact; (2) whether the evidence is logically
relevant; (3) whether the logical relevance is
independent
of
the
intermediate
inference,
prohibited by CRE 404(b), that the defendant has a
bad character and acted in conformity with it; and (4)
whether the probative value of the evidence is
substantially outweighed by the danger of unfair
prejudice. People v. Spoto, 795 P.2d at 1318.
For such evidence to be admissible, it is not
essential that the crimes replicate each other, but
the trial court should consider the remoteness of the
other crime evidence to the crime charged. People v.
Groves, 854 P.2d 1310, 1314 (Colo. App. 1992).
Whether to admit such evidence is within the sound
discretion of the trial court, and its decision will be
upheld absent an abuse of discretion. People v.
Underwood, 53 P.3d at 769.
At issue here is the testimony of defendant’s two
stepdaughters from a previous marriage. At a
motions hearing and at trial, the two girls testified
as to prior sexual contact with defendant while he

97a
was living with them and their mother. Both of the
girls also testified as to threats made by defendant to
get them to perform the acts.
The trial court limited the use of this evidence to
refuting allegations of recent fabrication and
showing modus operandi, opportunity, preparation,
knowledge, and motive. Contrary to defendant’s
contention that none of these purposes was proper
given the prosecution’s use of the evidence in its
closing arguments, we note that the prosecution
specifically addressed recent fabrication, a defense
asserted here. See, e.g., People v. Mata, 56 P.3d 1169,
1173 (Colo. App. 2002).
In People v. Duncan, 33 P.3d 1180, 1184 (Colo. App.
2001), a division of this court found that similar
transaction evidence “served to rebut defendant’s
claim that the victim was lying. To the extent that
this defense was labeled by the prosecution and the
trial court as ‘recent fabrication,’ we note that there
was
no
objection
by
defendant
to
this
characterization.” Id. (citation omitted). Defendant
here relies on the concurrence in Duncan, which
noted that there was no delay in reporting the
alleged abuse, and in fact the victim reported the
incident immediately in the presence of the
defendant. Id. at 1186. However, the concurrence did
not state that delay in reporting would preclude the
admission of similar transaction evidence.
Here, the victim delayed in reporting the multiple
incidents of abuse. However, the court, based on
record support, applied the tests required by section
16-10-301(4)(b), (c), and (d); CRE 404(b); and Spoto.
Thus, we conclude that the trial court properly

98a
admitted evidence of prior bad acts for the purpose of
rebutting a defense of recent fabrication.
Applying Spoto and Garner, the trial court found
that the testimony had a valid purpose, was relevant
to a material aspect of the case, and satisfied CRE
404(b). In addition, the trial court recognized the
potential for unfair prejudice and limited the number
of witnesses who could testify as to defendant’s prior
sexual misconduct. Finally, the trial court gave
limiting instructions to the jury at the beginning and
end of each witness’s testimony.
While the trial court did not explicitly find that the
prior acts more likely than not occurred and that
defendant committed those acts, the lack of such
explicit findings does not constitute reversible error
as argued by defendant. In admitting the evidence,
the trial court implicitly determined that it was
satisfied by a preponderance of the evidence that the
prior acts occurred and that defendant committed
those acts. See People v. Warren, 55 P.3d 809, 814
(Colo. App. 2002).
Thus, admission of the testimony about defendant’s
prior sexual misconduct was not an abuse of
discretion.
II. Opinion Testimony
We also disagree with defendant’s contention that
the trial court erred in admitting the testimony of a
forensic interviewer who had not been qualified as
an expert witness and whose testimony merely
bolstered the victim’s credibility.
The interviewer testified about her observations
concerning children who were victims of sexual
abuse. Defendant made several objections during

99a
direct examination, but, contrary to his assertion, he
did not object to the qualification of this testimony as
lay testimony. Two objections based on the questions
calling for opinion testimony were sustained. One
“narrative” objection and one hearsay objection were
overruled. Defendant made three relevancy
objections. The first was overruled, at which point
the trial court stated, “The witness is not qualified as
an expert; however, the court finds that this
testimony is rationally based upon her perception
and it would be helpful to the trier of fact with a
clear understanding of her testimony. Accordingly,
Rule 701 is satisfied.” The second relevancy objection
was sustained, and the third was overruled.
Defendant cross-examined the interviewer.
Because defendant’s objections at trial were not
based on the trial court’s failure to qualify the
interviewer as an expert, we review for plain error.
People v. Ramirez, 1 P.3d 223, 227 (Colo. App. 1999).
Plain error addresses error that is both obvious and
substantial. It is error that so undermines the
fundamental fairness of the trial itself as to cast
serious doubt on the reliability of the judgment of
conviction. People v. Miller, 113 P.3d 743, 750 (Colo.
2005).
Under CRE 701, a lay witness may testify in the
form of opinions or inferences if the testimony
is limited to those opinions or inferences which
are (a) rationally based on the perception of
the witness, (b) helpful to a clear
understanding of the witness’[s] testimony or
the determination of a fact in issue, and (c) not
based on scientific, technical, or other

100a
specialized knowledge within the scope of Rule
702.
CRE 702 provides that if “scientific, technical, or
other specialized knowledge will assist the trier of
fact to understand the evidence or to determine a
fact in issue, a witness qualified as an expert . . . may
testify thereto in the form of an opinion or
otherwise.”
Relying on People v. Stewart, 55 P.3d 107, 123 n.10
(Colo. 2002), defendant argues that the language in
CRE 701(c) was a clarifying amendment not in effect
at the time of trial, but should be considered by this
court in addressing this issue. The People do not
disagree. We agree with defendant and consider the
amendment in making our determination.
The critical inquiry in determining whether a
witness may testify as a lay witness or must be
qualified as an expert pursuant to CRE 702 is
“whether [the] witness’s testimony is based upon
‘specialized knowledge.’” People v. Rincon, 140 P.3d
976, 982 (Colo. App. 2005). So long as the witness’s
inferences or opinions do not require any specialized
knowledge and could be reached by an ordinary
person, the witness may testify as a lay witness. Id.
In determining whether the opinion could be reached
by an ordinary person, the court may consider
whether it results from a process of reasoning that is
familiar in everyday life or whether it can be
mastered only by specialists in the field. Id. at 983.
Thus, the basis for admission of expert testimony
under CRE 702 is “not that the witness possesses a
skill in a particular field but that ‘the witness can
offer assistance on a matter not within the
knowledge or common experience of people of

101a
ordinary intelligence.’” People v. Souva, 141 P.3d
845, 850 (Colo. App. 2005) (quoting Scognamillo v.
Olsen, 795 P.2d 1357, 1361-62 (Colo. App. 1997))
(allowing lay testimony from a certified addictions
counselor regarding whether defendant was under
the influence of drugs).
Testimony about the range of responses and
demeanor demonstrated by child sexual assault
victims is relevant and helpful to the jury in
assessing the victim’s testimony and statements.
People v. Rogers, 800 P.2d 1327, 1330 (Colo. App.
1990). It will help the jury evaluate the credibility of
the child and understand the victim’s delay in
reporting the incident. People v. Koon, 713 P.2d 410,
411 (Colo. App. 1985). While defendant argues that
People v. Rogers should not be relied on because it
was decided before the amendment to CRE 701, we
note that the decision in Rogers as to the admission
of the officer’s testimony was limited to relevance
and helpfulness, with no objection having been made
to the qualification of his testimony as lay testimony.
We thus limit our reliance on this case to these
issues.
The interviewer here testified that she had
interviewed approximately 500 children, most having
been victims of sexual abuse. Based on her
observations during these interviews and the
responses given by the children, she testified to the
following: children disclose abuse in a variety of
ways; children can endure the abuse for months or
years before disclosing it; there are several reasons
children do not disclose the abuse; children subject to
numerous incidents cannot disclose every detail;
many children who suffer abuse experience

102a
nightmares; children compartmentalize the abuse so
that they can continue in their everyday lives;
children have a wide range of feelings toward the
perpetrators of the abuse; and children exhibit a
wide variety of demeanors when being interviewed.
The interviewer’s testimony related her perceptions
about how children who are sex abuse victims
behave. See People v. Rincon, 140 P.3d at 983
(although officer had experience with photo arrays
that ordinary citizens would not have had, opinion
expressed by officer could be reached by an ordinary
person; observation that witnesses are sometimes
unable to pick person out of photo array when an
incident occurred quickly or when some features are
not depicted in the photo depends not on
demonstrable expertise but on common sense and
logic, a process of reasoning familiar in everyday
life); People v. Souva, 141 P.3d at 850 (certification
as addictions counselor did not cause testimony
regarding defendant’s drug intoxication to become
expert testimony); People v. Rogers, 800 P.2d at 1330
(trial court did not err in allowing detective to testify
pursuant to CRE 701 that in his experience child
sexual assault victims do not report an assault
immediately and their emotional state could range
from calm and matter-of-fact to extremely upset);
People v. Farley, 712 P.2d 1116, 1119-20 (Colo. App.
1985) (when witness has personally observed another
and summarizes his or her sensory perceptions, the
witness’s conclusions are admissible), aff’d, 746 P.2d
956 (Colo. 1987).
The interviewer’s testimony describing the variety
of ways children disclose abuse and their behavior
when discussing their abuse was relevant and

103a
helpful to the jury in assessing the victim’s testimony
and statements here. Thus, admission of the
testimony as lay testimony pursuant to CRE 701 was
not error, much less plain error.
III. Newspaper Articles
We reject defendant’s contention that the trial
court erred when it allowed the prosecution to use
irrelevant newspaper articles to bolster the victim’s
credibility.
Relevant evidence is that which has any tendency
to make the existence of any fact that is of
consequence to the determination of the action more
or less probable than it would be without the
evidence. CRE 401. Relevant evidence is generally
admissible,
unless
its
probative
value
is
substantially outweighed by the danger of unfair
prejudice, confusion of the issues, or misleading the
jury. CRE 402, 403.
A reviewing court may not reverse a trial court’s
decision to admit evidence absent a showing of abuse
of discretion. People v. Welsh, 80 P.3d 296, 304 (Colo.
2003) (Welsh I). An abuse of discretion occurs only
when a trial court’s ruling is manifestly arbitrary,
unreasonable, or unfair. People v. Rath, 44 P.3d
1033, 1043 (Colo. 2002).
Here, the victim was called as a witness by the
prosecution. Thus, evidence pertaining to her
credibility related to a material fact and was
relevant. See People v. Harris, 892 P.2d 378, 382
(Colo. App. 1994).
Because the victim’s accusations were not
corroborated by eyewitnesses, her credibility was at
issue. On cross-examination, defendant questioned

104a
her about why she did not include information about
the sexual assaults in a letter to her grandparents,
and in response the victim expressed concerns about
mail tampering occurring at the time she wrote the
letters. She expressed these concerns again on
redirect examination when asked about letters to her
grandparents and her aunt.
In arguments outside of the hearing of the jury, the
prosecution sought the admission of certain
newspaper articles about mail tampering that was
occurring during the same period the sexual assaults
allegedly occurred and the victim wrote the letters.
The prosecution noted that the victim could not
testify they were the exact articles she had read, but
that they were of the same type and were offered to
corroborate her statements and show that her fear of
mail tampering was well founded. Defendant
objected.
The trial court did not admit the contents of the
articles as exhibits for the jury to read, noting that
the contents concerned collateral issues. It
nevertheless allowed the prosecution to ask the
victim about the titles and dates of the articles and
whether they were of the type that she was talking
about. The court specifically found that this
information supported the prosecution’s case.
Rebuttal evidence is used to contradict the adverse
party’s case and is admitted at the trial court’s
discretion. Welsh I, 80 P.3d at 304. It includes “any
competent evidence which explains, refutes,
counteracts, or disproves the evidence put on by the
other party, even if the rebuttal evidence also tends
to support the party’s case-in-chief.” Id. (quoting
People v. Rowerdink, 756 P.2d 986, 994 (Colo. 1988)).

105a
We conclude that the trial court properly balanced
the probative value against the danger of any unfair
prejudice or confusion of the issues, allowed the
victim to testify only as to the titles and dates of the
articles, and did not abuse its discretion in admitting
this evidence.
IV. Diary Entries
We also are not persuaded by defendant’s
contention that the trial court erred in precluding
him from cross-examining the victim about the
substance of certain of her diary entries.
The right of a criminal defendant to confront
witnesses is guaranteed by the United States
Constitution and requires that the defendant be
given an opportunity for effective cross-examination.
Merritt v. People, 842 P.2d 162, 165-66 (Colo. 1992).
This does not mean, however, that a defendant is to
be allowed unlimited cross-examination. Id. at 166.
CRE 608(b) gives the trial court discretion to allow
inquiry on cross-examination concerning specific
instances of the witness’s conduct which relate to the
witness’s
character
for
truthfulness
or
untruthfulness.
The trial court has wide latitude to place
reasonable limits on cross-examination based on
concerns about such factors as harassment,
prejudice, confusion of the issues, the witness’s
safety, or interrogation that would be repetitive or
only marginally relevant. People v. Gholston, 26 P.3d
1, 8 (Colo. App. 2000). An abuse of discretion
standard generally applies to limits placed on a
defendant’s cross-examination, unless the restriction
is so severe as to constitute a denial of the

106a
defendant’s constitutional right. Merritt v. People,
842 P.2d at 166-67.
Here, the prosecution questioned the victim about
the diaries she kept during the period of sexual
abuse. She testified that she had not written about
the abuse because she was “trying to pretend it was
not going on” and it was her way of “blocking things
out.” On cross-examination, when asked why she did
not write about the abuse, the victim stated that she
did not mention it because she was afraid others
were reading her diary and, if they were, it might
cause difficulties with her mother and defendant.
Defendant then sought to introduce certain entries
made in the victim’s diary to show that if she put
personal experiences in her diaries, she would also
put in allegations of sexual abuse.
The trial court ruled that such entries were
inappropriate under CRE 403 and 608. However,
defendant was allowed to ask the victim about
certain activities described in the diary and problems
with telling her parents.
Because the trial court allowed certain types of
questioning, it did not so severely restrict
defendant’s questioning about the diary entries as to
deny defendant his constitutional right to crossexamination, and we thus review the court’s ruling
under an abuse of discretion standard.
Defendant’s theory -- that because the victim wrote
about certain incidents in her diary she would have
written about the abuse as well -- is speculative. The
trial court found that while truthfulness was a
central issue in the case, the personal experiences
recorded in the diary which defendant sought to have

107a
admitted were inadmissible under CRE 403 and 608.
Because the entries were not related to the abuse
and thus were not probative of her truthfulness
regarding the abuse, the trial court properly
excluded them.
V. Modified Unanimity Instructions
Defendant also contends that the jury’s unanimity
findings on counts 5 through 10 (sexual assault on a
child -- pattern of abuse), and 15 through 20 (sexual
assault on a child by one in a position of trust), are
legally insufficient, and the modified unanimity
instructions given in connection with those counts
deprived him of due process of law and his right to a
unanimous verdict. We disagree.
A trial court has the duty to instruct the jury
correctly on the law applicable to the case. However,
the form of the instructions is within that court's
sound discretion. Jury instructions framed in the
language of the statute are generally sufficient.
People v. Welsh, ___ P.3d ___, ___ (Colo. App. No.
04CA2581, Apr. 5, 2007) (Welsh II).
Any actor who knowingly subjects another not his
or her spouse to any sexual contact commits sexual
assault on a child if the victim is less than fifteen
years of age and the actor is at least four years older
than the victim. § 18-3-405(1), C.R.S. 2007.
When evidence of many acts is presented, any one
of which could constitute the offense charged, the
trial court must take one of two actions to ensure
jury unanimity. The court must either (1) require the
prosecution to elect the transaction on which it relies
for conviction, or (2) if there is not evidence to
differentiate among the acts and there is a

108a
reasonable likelihood that jurors may disagree on the
act the defendant committed, instruct the jury that
to convict it must unanimously agree that the
defendant committed the same act or that the
defendant committed all the acts included within the
period charged. People v. Gookins, 111 P.3d 525, 528
(Colo. App. 2004).
The trial court has discretion to determine whether
there is a reasonable likelihood that jurors may
disagree on which acts the defendant committed.
Thomas v. People, 803 P.2d 144, 154 (Colo. 1990).
Because defendant did not object to the
instructions at trial, we may reverse only for plain
error. See People v. Miller, 113 P.3d at 749. In the
context of jury instructions, plain error must be both
obvious and substantial. It will be found only if the
defendant shows that the instruction affected a
substantial right and that there is a reasonable
possibility that the error contributed to the
conviction. Failure to instruct the jury properly does
not constitute plain error if the relevant instruction,
read in conjunction with other instructions,
adequately informs the jury of the law. Welsh II, ___
P.3d at ___.
Subject to a single exception not applicable here,
factually inconsistent verdicts of guilt and acquittal
are not prohibited and do not constitute grounds for
reversal. See Candelaria v. People, 148 P.3d 178, 182
(Colo. 2006); People v. Hoefer, 961 P.2d 563, 567
(Colo. App. 1998) (inconsistent verdicts of guilt and
acquittal are forbidden only where, based on the
same evidence, a defendant is acquitted of a
substantive offense and convicted of conspiracy to
commit that same offense).

109a
A. Insufficient Evidence for Findings
Defendant contends that because the jury found
him not guilty of counts 4 (“spring fling” incident), 14
(“spring fling” incident), and 22 (sexual exploitation),
which were alleged to have occurred between
November 1, 1995 and November 27, 1999, the jury’s
findings that he “committed all of the acts of sexual
contact described between November 1, 1995, and
November 27, 1999” necessarily rests on insufficient
evidence. We reject this contention.
Here, the prosecution presented evidence of sexual
acts by defendant against the victim between
November 1, 1995 and November 17, 1999 sufficient
to convict him of counts 5 through 10 (pattern of
abuse) and 15 through 20 (position of trust). Sexual
contact was the only disputed element of sexual
assault. Because there was evidence of separate
incidents occurring at least twice a week for four
years, there was sufficient evidence to support all
these counts. See, e.g., People v. Hansen, 920 P.2d
831, 836 (Colo. App. 1995) (although a jury may not
be able to distinguish readily among the various
incidents, it is capable of unanimously agreeing that
they took place in the general number and manner
described).
B. Jury Confusion
Defendant also asserts that this case did not
require modified unanimity instructions, and that
the trial court confused the jury by instructing it to
“determine if any or all acts occurred beyond a
reasonable doubt.” We reject this assertion.

110a
Here, the relevant jury instructions read:
The elements of the crime of Sexual Assault on
a Child are that the defendant:
...
3. knowingly,
a. subjected another not his or her spouse,
b. to any sexual contact, and
4. that person was less than fifteen years of
age, and
5. the defendant was at least four years older
than that person,
6. at the time of the commission of the act,
7. and the act was part of a pattern of sexual
abuse,
and
The elements of the crime of Sexual Assault on
a Child by One in a Position of Trust are that
the defendant:
...
3. knowingly,
a. subjected another not his or her spouse,
b. to any sexual contact, and
4. that person was less than fifteen years of
age, and
5. the defendant was in a position of trust with
respect to the victim.
For counts 5 through 10 and 15 through 20, the
jury instructions also included the following: “After
considering all of the evidence, if you decide the
prosecution has proven each of the elements beyond

111a
a reasonable doubt you should find the defendant
guilty of [the specified crime].”
The verdict forms for counts 5 through 10 (pattern
of abuse) provided the jury the following choices:
[ ] We, the jury, unanimously find, beyond a
reasonable
doubt
that
the
defendant
committed all of the acts of sexual contact
described by the evidence between November
1, 1995 and November 19, 1999
OR
[ ] We, the jury, unanimously find, beyond a
reasonable doubt, that, as to this count, the
defendant committed the same act of Sexual
Assault on a Child – Pattern with the victim
described by the evidence between November
1, 1995 and November 27, 1999. The jurors
unanimously agree, beyond a reasonable
doubt, that this act is a separate and distinct
act from any other act for which we have found
defendant guilty of Sexual Assault on a Child
– Pattern as described in counts one through
ten.
The verdict forms for counts 15 through 20
(position of trust) similarly charged the jury.
The trial court did not abuse its discretion in
finding a reasonable likelihood that the jurors could
disagree as to whether defendant committed the
specific acts charged: the first “groping” incident, the
first “munching” incident, the first sexual encounter,
the “call girl” incident, and the “spring fling”
incident. There was testimony of “at least a hundred”
sexual encounters within this time period that may
have made it difficult for the jury to differentiate

112a
each act. Thus,
warranted.

these

jury

instructions

were

Defendant also incorrectly asserts that the trial
court instructed the jury that for each count, it had
to agree unanimously that he committed all the acts
allegedly committed during the specified time period.
Instead, in Instruction 14, the trial court
affirmatively instructed the jury to consider each
count separately, stating:
Each count charges a separate and distinct
offense, and the evidence and the law
applicable to each count should be considered
separately, uninfluenced by your decision as to
any other count. The fact that you may find
the defendant guilty of one of the offenses
charged should not control your verdict as to
any other offense charged against the
defendant. The defendant may be found guilty
or not guilty of any one or all of the offenses
charged.
Contrary to defendant’s assertion, the trial court
did not “exacerbate” any confusion as to the modified
instructions. The jury asked a question regarding the
jury instructions related to counts 5 through 10: “Are
we attempting to determine whether specific acts
occurred or whether any and all acts occurred over
the 4 year period, even if not at the same time?” The
trial court responded, “As to Counts 5-10 (and 15-20)
you must determine if any or all acts occurred
beyond a reasonable doubt. If you make that
determination(s), you must follow the directions in
the sections (or interrogatories) for counts 5-10 (and
15-20).” In our view, the trial court simply restated
what the jury instructions said and, in any event,

113a
properly referred the jurors to the verdict forms and
did not change their wording.
VI. “Ten Years Prior” Language
Defendant next contends that the trial court
deprived him of his state and federal due process
rights when it failed to instruct the jury that it would
have to unanimously find that the pattern incidents
of abuse relied upon to support counts 1 through 10
and 21 had to occur within ten years prior to the
predicate acts associated with each count. We
disagree.
Because defendant did not object at trial to this
error in the instructions, our review is for plain
error. See People v. Miller, 113 P.3d at 750.
Sexual assault on a child is a class three felony if
the “actor commits the offense as a part of a pattern
of sexual abuse as described in subsection (1) of this
section.” § 18-3-405(2)(d), C.R.S. 2007. “Pattern of
sexual abuse” is defined as “the commission of two or
more incidents of sexual contact involving a child
when such offenses are committed by an actor upon
the same victim.” § 18-3-401(2.5), C.R.S. 2007.
A pattern of sexual abuse is a sentence
enhancement factor that, like the substantive
predicate offense, must be proved beyond a
reasonable doubt. People v. Kyle, 111 P.3d 491, 501
(Colo. App. 2004); see § 18-3-405(2)(d).
A pattern of abuse is established where there is
sufficient proof that the defendant committed at
least two discrete acts of sexual contact against the
same child within a ten-year period and within the
period alleged in the charging document. Both the
predicate act and the earlier pattern act or acts may

114a
occur within the period alleged in the pattern of
sexual assault count of the charging document.
People v. Honeysette, 53 P.3d 714, 717-18 (Colo. App.
2002).
The failure to include language requiring the jury
to find that the act of sexual contact establishing the
pattern occurred within ten years prior to the
predicate act does not constitute plain error where
the period of abuse alleged was less than ten years.
When such a period is less than ten years and the
jury is given a unanimity instruction, it is impossible
for the jury to find a defendant guilty of the pattern
of abuse enhancer without finding that the
defendant committed at least two separate acts of
sexual contact upon the same victim within the
period alleged in the charging document. People v.
Kyle, 111 P.3d at 501.
Here, the period alleged was between November 1,
1995 and November 27, 1999, which is less than ten
years. The trial court provided the proper definition
of a pattern of sexual abuse, but gave a modified
unanimity instruction without referring to the
specified ten-year period. However, because the jury
was instructed that it had to find at least two acts
occurring during a period of less than ten years and
that its finding had to be unanimous as to those
specific acts, the failure to include the additional
language in the instruction cannot amount to plain
error.
VII. “Ten Years Prior” Findings
Nevertheless, we agree with defendant’s contention
that his conviction on count 1, sexual assault on a
child – pattern of abuse, is constitutionally infirm
because of insufficient evidence. He specifically

115a
asserts that there was no evidence of any incident of
sexual abuse committed within ten years prior to the
predicate act.
As noted above, because defendant did not object at
trial to this error in the instructions, our review is
for plain error. See People v. Miller, 113 P.3d at 750.
Here, defendant was found guilty of counts 1, 2,
and 3 of sexual assault on a child – pattern of abuse.
These counts were based on specific incidents: count
1 (first “groping” incident), count 2 (first “munching”
incident), and count 3 (first intercourse incident).
The victim testified that the first incident of sexual
abuse occurred in November 1995, the groping
incident charged in count 1. There was extensive
testimony as to numerous sexual assaults occurring
from late November 1995 to November 1999.
However, we have not found any evidence in the
record of another act of sexual abuse within ten
years prior to the first incident. Therefore, the
predicate act charged in count 1 cannot be a
predicate act of abuse to support the sentence
enhancement of a pattern of sexual abuse under
section 18-3-405(2)(d). See People v. Brown, 70 P.3d
489, 493 (Colo. App. 2002).
Nevertheless, the reversal of a sentence enhancer
on appeal does not affect the validity of the
underlying conviction for sexual assault on a child.
Id. Here, the trial court noted the error, removed the
pattern enhancer on this count, and properly
sentenced defendant to a class four, rather than a
class three, felony. Accordingly, on remand, the trial
court must correct the mittimus to reflect that
defendant was convicted of sexual assault on a child,

116a
a class four felony. Our conclusion does not affect the
validity of the other pattern of abuse convictions.
VIII. Verdict Forms
Defendant next contends that the verdict forms
associated with counts 1 through 10 are inconsistent
with this court’s holding in People v. Brown. We
agree with respect to count 5, but not as to the other
counts.
In People v. Brown, a division of this court held
that jury verdict forms should not include the word
“pattern” because a pattern offense is a sentence
enhancer and not a separate offense. The division
also held that jury verdict forms should require the
jurors to determine whether the defendant is guilty
of sexual assault on a child and then interrogatories
should be used to determine whether the pattern of
sexual abuse allegations have been established. The
division in People v. Brown nevertheless concluded
that the mistake was not plain error because there
was no reasonable possibility that the error
contributed to the defendant’s convictions. People v.
Brown, 70 P.3d at 492.
Here, the jury verdict forms for counts 1 through 10
included the word “pattern.” Because defendant did
not object to the jury instructions, we review for
plain error.
Instruction 24 stated, “Your verdict must be
unanimous.” Instruction 15 stated, in part, that “the
act was part of a pattern of sexual abuse” was an
element. Instruction 23 defined pattern of sexual
abuse as the commission of two or more incidents of
sexual contact involving a child when such offenses
are committed by an actor upon the same victim.

117a
As noted above, count 1 is remanded for correction
of the mittimus, but the underlying conviction of
sexual assault on a child stands. As to counts 2
through 5, those associated with specifically named
incidents of abuse, we conclude that the inclusion of
the term “pattern” in the instruction was error but
does not require reversal. Because there was
evidence from which the jury could unanimously find
that defendant committed at least two incidents of
sexual assault within that period, there is no
reasonable possibility that the error contributed to
defendant’s convictions.
However, one of the pattern of abuse counts in
counts 5 through 10 must be vacated. These counts
did not allege specific instances of abuse and so did
not specify a particular predicate act to support the
pattern sentencing enhancement. At least one of
these acts must have been the predicate act for the
other counts of unspecified acts of abuse.
Based on the victim’s testimony, there was
sufficient evidence to support the underlying crime of
sexual assault on a child. Accordingly, the judgment
and sentence as to count 5 must be reversed, and the
case must be remanded to correct the mittimus to
reflect that defendant was convicted of sexual
assault on a child, a class four felony, and to
resentence him on that count. Our conclusion does
not affect the validity of the judgment and sentences
as to the other pattern of abuse counts.
IX. Variances from the Information
We are not persuaded by defendant’s challenges to
alleged variances from the information.

118a
An information is sufficient if it advises the
defendant of the charges the defendant is facing so
that the defendant can adequately defend and be
protected from further prosecution for the same
offense. The prosecution cannot constitutionally
require a defendant to answer a charge not contained
in the charging document. People v. Rodriguez, 914
P.2d 230, 256-57 (Colo. 1996).
Two types of variance may arise at trial between
the offense in the charging document and the offense
of which a defendant is convicted. A constructive
amendment occurs when the evidence at trial
changes an element of the charged offense and alters
the substance of the charging document. A simple
variance occurs when the charged elements are
unchanged, but the evidence at trial proves facts
materially different from those alleged. People v.
Huynh, 98 P.3d 907, 911 (Colo. App. 2004).
While a constructive amendment to the charges is
reversible per se, a simple variance does not require
reversal unless it prejudices the defendant’s
substantive rights. Generally, a variance between
the specific date alleged in the charging document
and that which is proved at trial is not fatal. Id.
We consider the surrounding circumstances when
determining whether a simple variance from a
charging document caused prejudice. People v. Pahl,
___ P.3d ___, ___ (Colo. App. No. 01CA2020, Aug. 24,
2006).
A. Count 21
Defendant contends that the jury instruction and
verdict slip associated with count 21 collectively
served to deprive him of due process of law because

119a
they effectively described an alleged offense different
from that charged in the information. We disagree.
Count 21 of the information alleged that between
November 28, 1999 and March 1, 2000 defendant
subjected the victim, “a child 15 years of age or
older,” to sexual contact, and defendant was in a
position of trust in violation of section 18-3-405.3,
C.R.S. 2007, as part of a pattern of abuse.
However, the jury instruction relating to this count,
Instruction 16, stated the alleged victim had to be
less than fifteen years of age at the time of the
assault. This element regarding the age of the victim
at the time of the alleged abuse varied from the
statutory requirement of count 21. The age
requirement to convict defendant of sexual assault
on a child by one in a position of trust pursuant to
section 18-3-405.3 is less than fifteen for a class
three felony and fifteen but less than eighteen years
of age for a class four felony.
The verdict form for count 21 indicates that the
jury unanimously found that defendant committed
the act after November 1, 1998. Although this is not
a date alleged in count 21, if the actor commits the
offense as part of a pattern of sexual abuse, it is a
class three felony. § 18-3-405.3(2)(b), C.R.S. 2007.
Under this statute, no specific date need be alleged
for the pattern of sexual abuse.
Here, count 21 also alleged that the act occurred as
a pattern of abuse. Thus, for that reason, pursuant to
the statute, it is also a class three felony. As a result,
the trial court correctly entered a judgment of
conviction on count 21 as a class three felony.
Because defendant was convicted of a pattern of

120a
abuse, any discrepancy in the dates of the
commission of the abuse is not fatal. Defendant was
on notice that this was a pattern offense, and he was
not denied any substantive rights. There is also no
evidence that his defense would have changed based
on the age of the victim at the time of the alleged
incidents. Therefore, defendant was not prejudiced
by the error in the dates in the instruction.
B. Count 25
Defendant contends that his conviction on count 25
must be deemed constitutionally infirm because of an
erroneous elemental instruction on the charge and
insufficient evidence to support the jury’s verdict. We
disagree.
Because defendant did not object to this instruction
at trial, we review for plain error. See People v.
Miller, 113 P.3d at 750.
Count 25 charged defendant with sexual assault on
a child using force pursuant to section 18-3-405,
C.R.S. 2007, which provides as relevant here:
(1) Any actor who knowingly subjects another
not his or her spouse to any sexual contact
commits sexual assault on a child if the victim
is less than fifteen years of age and the actor is
at least four years older than the victim.
(2) Sexual assault on a child is a class 4
felony, but it is a class 3 felony if:
(a) The actor applies force against the victim
in order to accomplish or facilitate sexual
contact . . . .
The factual basis for this count was the first
intercourse incident. The victim testified that

121a
another person restrained her while defendant
assaulted her. The prosecution argued at trial that
the other person’s restraint constituted the force
required by the statute for defendant’s conviction.
Defendant now contends that the statute requires
that he personally apply the force. In his view,
because the prosecutor argued that another person
applied physical force by holding down the victim,
Instruction 19 was a constructive variance of the
information in that it included as an element,
“defendant caused submission of [the victim] by the
actual application of the physical force.”
The issue turns upon a question of statutory
interpretation, which is a question of law subject to
de novo review. When the statutory language is clear
and unambiguous, there is no need to resort to
interpretive rules and statutory construction. Jones
v. Cox, 828 P.2d 218, 221 (Colo. 1992). If there is any
ambiguity in the statute, courts should give effect to
all parts of the statute and avoid interpretations that
would render a part meaningless. People v. Terry,
791 P.2d 374, 376 (Colo. 1990). Courts must not
follow a construction that would lead to an absurd
result. Town of Erie v. Eason, 18 P.3d 1271, 1276
(Colo. 2001).
We conclude that the focus of the statute is
whether the defendant used force to accomplish the
submission, and not whether the defendant
personally applied the force. Nothing in the plain
language of the statute suggests that a perpetrator
cannot use an accomplice to “apply force” to a victim.
The statute simply states “[t]he actor applies force
against the victim in order to accomplish or facilitate
sexual contact” and does not require that the

122a
perpetrator of sexual assault personally engage in
the act that constitutes force.
In addition, defendant argues that the instruction
was a constructive variance of the crime charged
because it required the jury to find only that the
victim’s submission was caused by application of
force, not that the force was used to accomplish or
facilitate the sexual contact. We reject this
argument.
The jury instruction directed the jury to find
“defendant caused submission of [the victim] by the
actual application of the physical force.” Thus, the
instruction was not a variance requiring reversal of
the conviction on count 25. The meaning of
“facilitate” is not defined in the criminal code, and no
instruction specifically defined it. Black’s Law
Dictionary 627 (8th ed. 2004) defines “facilitate” to
mean “[t]o make the commission of a crime easier.”
Here, it is clear that causing the submission of the
victim facilitates the sexual contact in that it makes
it possible for the sexual contact to occur.
Finally, because the instruction was not a
constructive variance of the statute and the statute
does not require defendant personally to apply force
to the victim, there was sufficient evidence to satisfy
the statutory requirement.
X. Consecutive Sentencing
Defendant contends that his consecutive sentencing
resulted from the trial court’s misapprehension of
the governing law and violated section 18-1-408(3),
C.R.S. 2007, and prohibitions against double
jeopardy. We do not agree.

123a
Section 18-1-408(3) provides:
When two or more offenses are charged as
required by subsection (2) of this section and
they are supported by identical evidence, the
court upon application of the defendant may
require the state, at the conclusion of all the
evidence, to elect the count upon which the
issues shall be tried. If more than one guilty
verdict is returned as to any defendant in a
prosecution where multiple counts are tried as
required by subsection (2) of this section, the
sentences imposed shall run concurrently;
except that, where multiple victims are
involved, the court may, within its discretion,
impose consecutive sentences.
A defendant convicted of a class three felony of
sexual assault on a child shall be sentenced in
accordance with the provisions of the crime of
violence sentencing statute. § 18-3-405(3), C.R.S.
2007. Pursuant to that statute, “[a] person convicted
of two or more separate crimes of violence arising out
of the same incident shall be sentenced for such
crimes so that the sentences are served consecutively
rather than concurrently.” § 18-1.3-406(1), C.R.S.
2007.
The term “incident” refers to “‘distinct episodes of
sexual assault’ that are ‘separated by time or an
intervening event.’” People v. Bobrik, 87 P.3d 865,
872 (Colo. App. 2003) (quoting People v. Woellhaf, 87
P.3d 147, 149 (Colo. App. 2002)).
The People concede that counts 2 and 3 do not arise
out of the same incident. However, in the alternative,
they argue that the trial court exercised its
discretion to impose consecutive sentences here.

124a
As to counts 5-10, as we have noted above, the jury
was correctly instructed that the counts must not
have arisen from the same single act. Accordingly,
the trial court did not abuse its discretion when it
sentenced defendant to consecutive sentences for
these counts. See Robles v. People, 811 P.2d 804, 806
(Colo. 1991); People v. Luu, 813 P.2d 826, 829 (Colo.
App. 1991), aff’d, 841 P.2d 271 (Colo. 1992).
XI. Cumulative Error
Defendant also contends that the cumulative effect
of the above-claimed errors so prejudiced his right to
a fair trial as to require reversal. Although we have
identified some errors, we conclude those errors,
considered cumulatively, did not substantially
prejudice defendant’s right to a fair trial. Therefore,
defendant is not entitled to reversal on this theory.
See Welsh II, ___ P.3d at ___; People v. Rivers, 727
P.2d 394, 401 (Colo. App. 1986); People v. Roy, 723
P.2d 1345 (Colo. 1986).
XII. Motion for New Trial
We disagree as well with defendant’s contention
that the trial court erred in denying his motion for a
new trial based on newly discovered evidence in the
form of the victim’s recantation.
“Motions for new trial based on newly discovered
evidence are viewed with disfavor, and a trial court’s
denial of such a motion will not be overturned absent
a clear abuse of discretion.” People v. Tomey, 969
P.2d 785, 787 (Colo. App. 1998).
To succeed on a motion for new trial based on
newly discovered evidence, the defendant must show
the evidence was discovered after trial, the
defendant and his or her counsel exercised diligence

125a
to discover all evidence favorable to the defendant,
the evidence is material to the issues and not merely
impeaching or cumulative, and on retrial the newly
discovered evidence would probably produce an
acquittal. People v. Gutierrez, 622 P.2d 547, 559-60
(Colo. 1981). New evidence is likely to produce an
acquittal if, considering it with all the other evidence
presented at a new trial, a reasonable jury would
probably find a reasonable doubt as to the
defendant’s guilt. People v. Tomey, 969 P.2d at 787;
see also Cheatwood v. People, 164 Colo. 334, 340-41,
435 P.2d 402, 405 (1967).
Recantation testimony is generally viewed by the
court with great suspicion, especially in cases of child
sexual abuse, but corroboration by other newly
discovered evidence is not required for the
recantation to be credible. People v. Schneider, 25
P.3d 755, 763 (Colo. 2001). However, a court may
apply “the standard of its own experience in
evaluating credibility [when] determining whether
the new evidence would likely bring about an
acquittal at a retrial.” Id. at 762 n.5.
Here, defendant and the prosecution agreed that
the applicable test was the four-prong analysis of
Gutierrez, and that the first three prongs of the test
were fulfilled. Consequently, the only issue is
whether the trial court erred in finding that the
newly discovered recantation evidence would not
likely produce a complete acquittal at a new trial. We
perceive no error.
In making its determination, the trial court stated
that the victim’s recantation would be considered
under the totality of the circumstances. The trial
court heard testimony from several witnesses,

126a
including the victim, about her recantation and
evaluated the testimony of the victim both at the
original trial and at the hearing on the motion for a
new trial. The court noted the jury’s opportunity to
weigh the credibility of the victim and other
witnesses at trial, the disparities between her
recantation and the testimony of other witnesses at
the motions hearing, and the fact that the victim did
not recant until after the trial. The court considered
testimony regarding her motivation for recanting,
including her being urged to do so or rewarded by
her mother. The court also considered her statement
that she was motivated solely by remorse at
wrongfully causing an innocent man to spend his life
in prison. In addition, the court pointed out
testimony regarding entries in her diary that
indicated a false recantation, her finding dead
bodies, various amorous encounters, and conflicting
statements to others.
While noting that certain of the victim’s claims
were “bizarre” and that the victim “has substantial
credibility issues,” the court determined that at a
new trial, the jury would be entitled to hear her
original trial testimony by way of impeachment, or it
was possible that she would retreat to her original
position.
Because the trial court was in the position to assess
the victim’s credibility, and because it considered the
evidence presented both at trial and at the motions
hearing, we conclude that the trial court did not
abuse its discretion in finding that the recantation
would not have resulted in an acquittal in a new
trial.

127a
The judgment of conviction and sentence are
reversed as to count 5, and the case is remanded for
resentencing on that count and amendment of the
mittimus as to counts 1 and 5. In all other respects,
the judgment and sentence are affirmed.
JUDGE TAUBMAN and JUDGE J. JONES concur.

128a
APPENDIX K
_________
DISTRICT COURT, ARAPAHOE COUNTY,
COLORADO
_________
THE PEOPLE OF THE STATE OF COLORADO,
Plaintiff,
v.
CHARLES ARTHUR FARRAR,
Defendant.
_________
Case Number: 01CR505
Div.: 309
_________
ORDER DENYING DEFENDANT’S MOTION
FOR NEW TRIAL PURSUANT TO
CRIM. P. 33(C) BASED ON NEWLYDISCOVERED EVIDENCE
_________
THIS MATTER comes on for the Court’s ruling
concerning Defendant’s Motion for New Trial based
on newly discovered evidence (Crim. P. 33). The
motion alleges that ___ ___ the named victim, gave
false testimony at trial; that the prosecution failed to
disclose exculpatory evidence prior to trial (this
evidence being Ms. ___ alleged recantation of her
testimony to Christine Schober, Esq., one of the two
deputy district attorneys who prosecuted this case);
and that the prosecution’s failure to disclose Ms. ___
recantation, as well as her alleged offering of

129a
perjured
testimony,
governmental conduct.

constitute

outrageous

On November 14, 2003, the Court considered
Defendant’s Motion to Disqualify Office of Arapahoe
County District Attorney. The motion was based on
Defendant’s claim that the District Attorney failed to
disclose Ms. ___ alleged recantation. The Motion to
Disqualify was supported by affidavits of Ms. ___ and
of Craig L. Truman, Esq., defense counsel at trial.
At the conclusion of the November 14, 2003
hearing, the Court found that the affidavits were
tantamount to testimony for the limited purpose of
resolving the motion. The Court found that, since
Ms. ___ alleged that she had recanted to Ms. Schober
and that Ms. Schober had not disclosed this
information to trial defense counsel, Ms. Schober was
an indispensable fact witness for the hearing. In
addition, if Ms. ___ allegations were found to be
accurate, Ms. Schober committed a serious ethical
violation. See Colo. RPC 3.4; 3.8. Accordingly, the
Court granted Defendant’s Motion to Disqualify.
Ultimately, the Office of the District Attorney,
Second Judicial District, was appointed as prosecutor
for the Crim. P. 33 motion.
The hearing on the substantive motion was held on
August 30 and 31, September 16, November 15, 2004
and January 21, 2005. Carlos Samour appeared as
prosecutor. Defendant was present in custody,
represented by Deputy State Public Defenders Mark
Walta and Susan Fisch.
This case is one of the more memorable criminal
jury trials at which this Court has presided. The
sheer number of allegations and the graphic

130a
description of the alleged acts are extraordinary. The
Court has a clear memory of Ms. Brod’s testimony at
trial and, of course, has had the benefit of her
August, 2004 and January, 2005 appearances.
The Court is struck by the similarity in her affect
at trial and the post-conviction motion hearing.
Although Ms. ___ briefly lost her composure and
became teary on August 30, 2004 (Transcript: 23), in
general, she was an articulate and confident witness
at trial and during both of her appearances in this
post-conviction hearing (August 30, 2004 and
January 21, 2005). Mr. Truman was completely
professional but also persistent in his crossexamination. Mr. Samour also was thoroughly
professional. His approach was somewhat less
persistent than was Mr. Truman’s.
Ms. ___ was required to testify about allegations
that were, in the first instance, revolting in terms of
sexual assault and, in the motions hearing, about
alleged conduct by an attorney that, if proven, would
constitute unethical, unprofessional and felonious
behavior. She stated that she understood the gravity
of the allegations she was making.
Ms. ___ consulted about her desire to recant her
testimony with Scott Reisch, Esq. She told her
mother that she wanted to tell the truth. She stated
that she had tried to tell others before her testimony
but that she had been “blown off and threatened.”
The threats, attributed to Ms. Schober, included the
prospect of spending the balance of her life in a
mental institution or time in jail.
The details of the alleged threats are set forth in
her affidavit, People’s Exhibit 3. “I told district
attorney, Christine Schober, that I would not come

131a
and testify, that the allegations were not true, and
that I never thought that this situation would go this
far (meaning that I never thought people would go to
court and possibly prison). Ms. Schober then acted as
though she did not hear the statement and said,
‘These are the questions we are going to ask you and
the answers we want.’ For example, Ms. Schober
said, ‘I will ask you for dates that the sexual assaults
took place, but you probably will not remember them
because we know that you are repressing the
incidents so you won’t need to be specific.’ I
attempted yet again to say that the allegations were
false and Ms. Schober said, ‘If you say that the
allegations are not true, you will be locked up in a
mental institution because obviously the trauma is
too great for you to handle.’” (See also Transcript,
August 30, 2004: 46-52)
Ms. ___ also testified that, contrary to the People’s
post-conviction contention, she did not offer her
recantation because her mother urged her to do so;
that she did not do so because she expected a reward
(for example, a new car); and that she was motivated
solely because of her angst over causing an innocent
man (her step-father, the defendant) to spend a
virtual life sentence in the Department of
Corrections.
Ms. Schober and Darren Vahle, the two deputy
district attorneys who prosecuted the case at trial,
testified that Ms. ___ allegations about their conduct
were false. Mr. Vahle testified about a conversation
with Craig Truman. Mr. Truman informed Mr. Vahle
that Ms. ___ was recanting. Mr. Truman stated he
was
unable
to
reveal
the
source
of
this information.

132a
Mr. Vahle then called Ms. ___. She informed Mr.
Vahle that the alleged sexual assaults had indeed
occurred and that she was ready to go to trial. Mr.
Vahle stated that he and Ms. Schober also were
concerned that the extended family might be
pressuring Ms. ___ to change her story. However,
“She has never recanted to me in any shape or form
any of the allegations.” Transcript August 31, 2004:
14.
Mr. Vahle stated that Ms. ___ did not recant the
charges after the trial against this defendant.
Another trial was scheduled against Ms. ___ mother,
Debbie ___. That trial did not occur because Ms. ___
reported that “she didn’t feel she could go
through another trial.”
The other lay witnesses either supported Ms. ___
former testimony or her current testimony. They
offered little that assists the Court in making its
determination.
Defendant contends that he should receive a new
trial based on newly discovered evidence. Crim. P.
33. The parties have stipulated that the evidence
was discovered after trial; that defendant and
counsel exercised diligence to discover all possible
favorable evidence before and during trial; and that
the newly discovered evidence is material to relevant
issues and is not merely cumulative or impeaching.
Thus, the only disputed factor is whether the newly
discovered evidence would probably bring about an
acquittal at a new trial. People v. Gutierrez, 622 P.2d
547 (Colo. 1981); People v. Schneider, 25 P.3d 755
(Colo. 2001).
In making this assessment, the Court “need not
merely measure the credibility of one witness at a

133a
Rule 35(c) hearing based upon her testimony at that
hearing. Rather, the trial court may review all
statements made by that witness or other witnesses
at the time the charges were filed, surrounding
circumstances at that time--as well as the testimony
offered at the later hearing--to determine who was
lying and when.” People v. Schneider 25 P.3d 755,
762 (Colo. 2001).
As previously noted, Ms. ___ affect, demeanor and
presentation were virtually identical at trial and at
the hearing. Certain of Ms. ___ allegations, as
presented at trial, were difficult to believe. The jury
so found, accepting some of her allegations and
rejecting others.
Ms. ___ recantation must be considered under the
totality of the circumstances. At trial, Ms. ___
presented confidently and withstood rigorous crossexamination. At the hearing, she also was able to
testify with self-assurance and, with the one noted
exception, without becoming flustered.
On January 21, 2005, she was asked some
challenging questions. One issue involved her
putting an improper date (2002 as opposed to 2000)
in one of her diaries. Counsel suggested that this was
an indication of a false recantation. She denied this
without any apparent frustration.
The Court has carefully considered all of the
testimony and its recollection of the trial. As noted in
People v. Schneider, supra, the Court must view this
recantation with great suspicion. “Skepticism about
recantations is especially applicable in cases of child
sexual abuse where recantation is a recurring
phenomenon.” People v. Schneider 25 P.3d 755, 763
(Colo. 2001). Schneider also requires the Court to

134a
determine “whether the original charges filed or pled
to were actually false or unfounded, and if the
recantation would probably result in a judgment of
acquittal in a new trial.” 25 P.3d 755, 764 (Colo.
2001). See also People v. Roark, 643 P.2d 756 (Colo.
1982).
The parties agree that the Gutierrez evaluation of
the evidence is required in this case. Defendant
suggests that this is less stringent than the test set
forth in Schneider. Indeed, Mason v. People, 25 P.3d
764 (Colo. 2001) draws the distinction between cases
in which a guilty plea has entered and those where
the conviction was obtained by a jury verdict.
The Gutierrez court observes that, “motions for new
trial based on newly discovered evidence are not
looked on with favor.” 622 P.2d 547, 559 (Colo. 1981).
The Court then is directed to consider “all of the
available evidence.” 622 P.2d 547, 560 (Colo. 1981).
The Court’s task is made somewhat easier by the
jury’s verdict. As noted, the jury carefully considered
all of the allegations. The District Attorney filed 29
counts, including sentence enhancers, against Mr.
Farrar. The jury found him not guilty on six counts
and guilty on the remaining 22 substantive counts
and 1 sentence enhancer.
Here, the jury determined that Ms. ___ was
believable as to some of the counts and not as to
others. The Court concludes that, as to the counts on
which it found him not guilty, the jury found her
testimony to be at least unpersuasive if not
unbelievable.
Certain of Ms. ___ claims were bizarre. For
example, in the “Spring Fling” incident, she testified

135a
that she wanted to go to a dance. She stated that her
mother set forth two requirements. First, she had to
obtain good grades. Second, she was required to
engage in a sex act with her mother after her mother
had had sexual intercourse with Defendant. The jury
acquitted Defendant as to that count.
With respect to other counts, Ms. ___ claimed that
Defendant had told some of his friends that they
could receive sexual favors from her at the price of
$5.00 per person. The People alleged that this
constituted Sexual Exploitation of a Child (§18-6403(3)(a) CRS), Inducement of Child Prostitution
(§18-7-405.5 CRS) and Soliciting for Child
Prostitution (§18-4-702 CRS). Once again, the jury
returned “not guilty” verdicts as to these counts.
In these post-conviction proceedings, Ms. ___ made
an equally unbelievable, and, in this instance, a far
more heinous allegation. She contended that, on
more than one occasion, she told Ms. Schober that
she was not subjected to sexual abuse. She also
asserts
that
Ms.
Schober
knowingly
and
intentionally presented her perjured testimony.
The Court concludes that this testimony is not
worthy of belief. During the trial, as noted, she
testified in a straightforward, unemotional manner.
There were no indicia of Ms. ___ offering knowingly
false testimony at that time. Her allegations
concerning Ms. Schober are no more worthy of belief
than was her trial testimony about the “Spring
Fling.” The Court finds that her assertions about Ms.
Schober are without merit.
As a result, the Court finds that there was no
outrageous governmental conduct. If a prosecutor
had forced Ms. ___ to offered perjured testimony,

136a
Defendant would have been denied fundamental
fairness that would be shocking to the universal
sense of justice. People v. Johnson, 987 P.2d 855
(Colo. 1998). In addition, the purported deliberate
proffer of perjured testimony in this case would have
visited the kind of prejudice on Mr. Farrar that a
new trial would have been mandatory.
The jury heard the testimony of ___ ___ Defendant
and Debbie ___ and others, some of whom testified at
the hearing. That jury weighed the credibility of all
of the witnesses’ testimony. The Court considers ___
___ post-conviction testimony with the skepticism
required by the case law.
Other testimony, including allegations that Ms. ___
received a new automobile in exchange for her
recantation testimony, her finding four dead bodies
at Elitch Gardens, her various amorous encounters
and conflicting statements to Juanita Timmons and
Robert Barber does not change the Court’s
determination.
Ms. Timmons testified that Ms. ___ “likes to be the
center of attention” and that she has always felt that
Ms. ___ has had credibility issues. On the other
hand, Michael Cavanaugh, Ms. ___ guardian ad
litem in a companion dependency and neglect
proceeding, testified that Ms. ___ never recanted her
allegations of sexual assault.
She testified that she had minimal contact with
Mr. Cavanaugh. He stated that he had met her 10-12
times.
Ms. ___ has substantial credibility issues. Her
performance at trial suggests that jurors were able to

137a
sift through her testimony, accepting some of it and
rejecting other parts.
The Court must assume that Ms. ___ would testify
at a new trial. If she persisted in her recanted
testimony, the jury would be entitled to hear her
(first) trial testimony by impeachment (at a
minimum) 1 , including her former testimony that
detailed repeated descriptions of fellatio and sexual
intercourse that she was required to perform with
Defendant.
At the same time, it is entirely possible that
Ms. ___ would retreat to her position at trial.
Nothing that the Court heard or saw during this
post-conviction proceeding persuades it that the
newly discovered evidence would produce a complete
acquittal at a new trial. In all probability, another
jury would accept some of Ms. ___ contentions and
reject others.

1

The Court cannot speculate as to what issues would be
raised in the future and what rulings might be entered
concerning the scope of testimony at a new trial.

138a
Defendant’s Crim. P. 33 motion is denied.
SO ORDERED.
Done this 14 day of July, 2005.
BY THE COURT:
/s/
John P. Leopold
District Judge

139a
APPENDIX L
_________
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_______
CHARLES FARRAR,
Petitioner-Appellant,
v.
RICK RAEMISCH, Executive Director, Colorado
Department of Corrections, et al.,
Respondents-Appellees.
_______
SCHOLARS OF FEDERAL HABEAS CORPUS, et al.,
Amicus Curiae.
_______
Filed August 29, 2019
_______
No. 18-1005
_______
ORDER
_______
Before BACHARACH, BALDOCK, and EBEL,
Circuit Judges.
_______

140a
Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted
to all of the judges of the court who are in regular
active service. As no member of the panel and no
judge in regular active service on the court requested
that the court be polled, that petition is also denied.
Entered for the Court
/s/ Elisabeth A. Shumaker
ELISABETH A. SHUMAKER, Clerk

141a
APPENDIX M
_________
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
_________
Civil Action No. 1:15-cv-01425-RPM
_________
CHARLES FARRAR,
Petitioner,
v.
RICK RAEMISCH, Executive Director, Colorado
Department of Corrections; JAMES FALK, Warden,
Sterling Correction Facility; and CYNTHIA COFFMAN,
Attorney General, State of Colorado,
Respondents,
_________
MOTION TO ALTER ORDER AND JUDGMENT
_________
Petitioner Charles Farrar, by and through his
court-appointed counsel, Gail K. Johnson of Johnson
& Klein, PLLC, respectfully moves this Court
pursuant to Fed. R. Civ. P. 59(e) to alter its Order
and Judgment (Docs. 69, 70) for the reasons set forth
herein and in any supplement to this Motion to Alter
that may be filed in the future with leave of the
Court.
Background
Undersigned court-appointed counsel for Mr.
Farrar has been representing him in this case for
only a very short period of time. Counsel entered her

142a
appearance two days ago and was appointed under
the Criminal Justice Act yesterday. Therefore,
contemporaneously with this Motion to Alter,
counsel will be filing an unopposed motion for leave
to supplement this Motion to Alter within 90 days.
Discussion
Mr. Farrar asks this Court to alter and amend its
Order and Judgment for the several reasons.
Under the Antiterrorism and Effective Death
Penalty Act of 1996:
An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the
judgment of a State court shall not be granted
with respect to any claim that was adjudicated
on the merits in State court proceedings
unless the adjudication of the claim-(1) resulted in a decision that was contrary
to, or involved an unreasonable application of,
clearly established Federal law, as determined
by the Supreme Court of the United States; or
(2) resulted in a decision that was based on
an unreasonable determination of the facts in
light of the evidence presented in the State
court proceeding.
28 U.S.C. § 2254(d). Thus, if either section 2254(d)(1)
or section 2254(d)(2) is met, then section 2254(d)
poses no bar to this Court granting Mr. Farrar’s
application for federal habeas relief.
Following oral argument and briefing by Mr.
Farrar’s previous pro bono counsel, this Court ruled:
The Applicant has not produced a U.S.
Supreme Court case holding that in the

143a
absence of prior knowledge of the victim’s
recanting her complaints of sexual abuse the
presentation of her testimony would violate
the Due Process Clause of the Fourteenth
Amendment. The district judge who heard the
testimony at the hearings on the Rule 33
motion was the same judge who presided at
the trial. He observed Sacha Brod testify both
times and this Court is unable to say that his
assessment of her trial testimony after
hearing her recanting testimony was
unreasonable.
(Doc. 69 at 4.)
I. The Colorado Supreme Court decision in
Mr. Farrar’s case was contrary to, or an
unreasonable
application
of,
clearly
established federal law as determined by
the U.S. Supreme Court.
A. The meaning of “clearly established”
law.
For a principle of law in U.S. Supreme Court case
law to be considered “clearly established,” it does not
need to have arisen in a factual scenario that is
similar in most respects with the case at bar. By
analogy, the question of whether a constitutional
violation is “clearly established” is frequently
litigated in the context of the defense of qualified
immunity from damages. As the Supreme Court has
explained in that context:
For a constitutional right to be clearly
established, its contours must be sufficiently
clear that a reasonable official would
understand that what he is doing violates that

144a
right. This is not to say that an official action
is protected by qualified immunity unless the
very action in question has previously been
held unlawful, but it is to say that in light of
pre-existing law the unlawfulness must be
apparent.
Hope v. Pelzer, 536 U.S. 730, 739 (2002) (citations
and internal quotations omitted). In Hope, id. at 74041, the Supreme Court held the standard for clearly
established law is analogous to the fair-warning
requirement for substantive criminal statutes
addressed in United States v. Lanier, 520 U.S. 259,
270-71 (1997), where the Court explained that “a
general constitutional rule already identified in the
decisional law may apply with obvious clarity to the
specific conduct in question, even though ‘the very
action in question has [not] previously been held
unlawful.’” Thus, the Hope Court explained:
Our opinion in Lanier thus makes clear that
officials can still be on notice that their
conduct violates established law even in novel
factual circumstances. Indeed, in Lanier, we
expressly rejected a requirement that previous
cases be “fundamentally similar.” Although
earlier
cases
involving
“fundamentally
similar” facts can provide especially strong
support for a conclusion that the law is clearly
established, they are not necessary to such a
finding. The same is true of cases with
“materially similar” facts.
536 U.S. at 741.
The Tenth Circuit has similarly applied this
principle of generality in the excessive-force context:

145a
The district court believed that the type of
restraint used in [the case law] was
sufficiently different from that employed on
Mr. Weigel that [the case law] did not clearly
establish
the
unconstitutionality
of
defendants’ alleged actions. But our analysis
in this case of the constitutionality of the
restraint of Mr. Weigel does not require us to
compare the facts of [the case law] to the
allegations here. It is based on more general
principles. The Fourth Amendment prohibits
unreasonable seizures. We do not think it
requires a court decision with identical facts to
establish clearly that it is unreasonable to use
deadly force when the force is totally
unnecessary to restrain a suspect or to protect
officers, the public, or the suspect himself.
Weigel v. Broad, 544 F.3d 1143, 1154 (10th Cir.
2008); see also Al-Turki v. Robinson, 762 F.3d 1188,
1194-95 (10th Cir. 2014) (in section 1983 case for
deliberate indifference to serious medical needs,
rejecting prison nurse’s claim of qualified immunity
asserted on the ground that no prior case law
involved similar facts, and instead finding the law
clearly established in a more general manner).
B. Clearly established
actual innocence.

law

regarding

Mr. Farrar respectfully contends that it is clearly
established that the wrongful conviction of an
innocent man violates the Due Process Clause of the
Fourteenth Amendment. In Stone v. Powell, 428 U.S.
465, 491 n.31 (1976), the Supreme Court stated that
one of the purposes of federal habeas relief is “to
assure that no innocent person suffers an

146a
unconstitutional loss of liberty.” In Kuhlmann v.
Wilson, 477 U.S. 436, 451-52 (1986), a plurality of
the Supreme Court explained “the historic function
of habeas corpus” was “to provide relief from unjust
incarceration.” The Kuhlmann plurality further
recognized:
Even where, as here, the many judges who
have reviewed the prisoner’s claims in several
proceedings provided by the State and on his
first petition for federal habeas corpus have
determined that his trial was free from
constitutional error, a prisoner retains a
powerful and legitimate interest in obtaining
his release from custody if he is innocent of the
charge for which he was incarcerated.
Id. at 452 (emphasis added); but see Herrera v.
Collins, 506 U.S. 390, 400-427 (1993) (declining to
recognize claim of actual innocence as basis for
federal habeas relief where the newly discovered
evidence at issue was affidavits containing hearsay
that were not provided until eight years after trial)
(though recognizing that the execution of an actually
innocent person would be unconstitutional). On at
least two occasions following Herrera, the Supreme
Court has assumed that such a freestanding
constitutional claim of innocence exists, but then
denied relief on the merits. District Attorney’s Office
for Third Judicial Dist. v. Osborne, 557 U.S. 52, 7172 (2009); House v. Bell, 547 U.S. 518, 55455 (2006).

147a
C. Clearly established law regarding the
violation of Due Process that occurs
when a criminal defendant is convicted
on false evidence.
Although for purposes of AEDPA, clearly
established federal law consists only of Supreme
Court holdings, “circuit court precedent may be
‘persuasive’ in demonstrating what law is ‘clearly
established; and whether a state court applied that
law unreasonably.” Maxwell v. Roe, 628 F.3d 486,
494 (9th Cir. 2010).
Many U.S. Circuit Courts of Appeals have held that
federal habeas relief is warranted on the basis of
false evidence in the form of perjured witness
testimony—even absent proof the prosecution knew
about the perjury at the time of trial. For example, in
Maxwell, contrasting the knowing use of perjured
testimony, the Ninth Circuit explained, “We have
also concluded that a defendant’s due process rights
were violated, and accordingly granted habeas relief,
when it was revealed that false evidence brought
about a defendant’s conviction.” Id. at 499 (citing
Killian v. Poole, 282 F.3d 1204 (9th Cir. 2002); Hall
v. Dir. of Corrs., 343 F.3d 976, 978 (9th Cir. 2003)
(per curiam). The Maxwell court held: “A new trial is
not automatically required when false evidence is
discovered. Rather, a constitutional error resulting
from the use of false evidence by the government
requires a new trial, ‘if the false testimony could . . .
in any reasonable likelihood have affected the
judgment of the jury.’” (quoting Giglio v. United
States, 405 U.S. 150, 154 (1972), and Napue v.
Illinois, 360 U.S. 264, 271 (1959)).

148a
In Hall, the Ninth Circuit reversed a state district
court’s denial of habeas relief where a California
jailhouse informant later confessed to perjury and
the alteration of evidence. 343 F.3d at 985. In
Killian, the Ninth Circuit noted that “[A]
government’s assurances that false evidence was
presented in good faith are little comfort to a
criminal defendant wrongly convicted on the basis of
such evidence. A conviction based in part on false
evidence, even false evidence presented in good faith,
hardly comports with fundamental fairness.” 282
F.3d at 1209-1210 (relief warranted where “make-orbreak witness for the state perjured himself several
times, giving rise to reasonable probability that,
without all the perjury, the result of the proceeding
would have been different).
The Second Circuit has similarly explained that
“[i]t is simply intolerable . . . if a state allows an
innocent person to remain incarcerated on the basis
of lies.” Sanders v. Sullivan, 863 F.2d 218, 224 (2d
Cir. 1988) (reversing denial of habeas relief; holding
that petitioner’s right to due process was violated by
conviction based on material testimony of a witness
who recanted); cf. United States v. Wallach, 935 F.2d
445, 473 (2d Cir. 1991) (where the government is
unaware of witness’s perjury, new trial is warranted
if the testimony was material and “the court [is left]
with a firm belief that but for the perjured
testimony, the defendant would most likely not have
been convicted”) (reversing on direct appeal).

149a
D. Clearly established law regarding the
constitutional requirement for acquittal
if the prosecution presents anything
less than proof beyond a reasonable
doubt.
Mr. Farrar also asserts that section 2254(d)(1) is
met in this case because the Colorado Supreme
Court’s decision affirming the denial of his motion for
new trial is contrary to—and unreasonably applies—
federal constitutional law clearly established by the
Supreme Court regarding the fundamental due
process requirement that the prosecution present
proof beyond a reasonable doubt in a criminal case.
The Supreme Court held in In re Winship, 397 U.S.
358, 364 (1970) (per curiam) “that the Due Process
Clause protects the accused against conviction except
upon proof beyond a reasonable doubt of every fact
necessary to constitute the crime with which he is
charged.” See also Victor v. Nebraska, 511 U.S. 1, 5
(1994) (“The beyond a reasonable doubt standard is a
requirement of due process . . . .”). The standard of
proof beyond a reasonable doubt “provides concrete
substance for the presumption of innocence—that
bedrock axiomatic and elementary principle whose
enforcement lies at the foundation of the
administration of our criminal law.” Winship, 397
U.S. at 363 (quoting Coffin v. United States, 156 U.S.
432, 453 (1895)). The Winship court explained the
fundamental importance of having such an elevated
burden of proof in criminal cases, given the
extremely high stakes and the need to minimize the
risk of error, i.e., the risk of convicting and
imprisoning a person who is actually innocent:

150a
The requirement of proof beyond a reasonable
doubt has this vital role in our criminal
procedure for cogent reasons. The accused
during a criminal prosecution has at stake
interest of immense importance, both because
of the possibility that he may lose his liberty
upon conviction and because of the certainty
that he would be stigmatized by the
conviction. Accordingly, a society that values
the good name and freedom of every individual
should not condemn a man for commission of a
crime when there is reasonable doubt about
his guilt. As we said in Speiser v. Randall [357
U.S. 513, 525-26 (1958)]: ‘There is always in
litigation a margin of error, representing error
in factfinding, which both parties must take
into account. Where one party has at stake an
interest of transcending value—as a criminal
defendant his liberty—this margin of error is
reduced as to him by the process of placing on
the other party the burden of persuading the
factfinder at the conclusion of the trial of his
guilt beyond a reasonable doubt. Due process
commands that no man shall lose his liberty
unless the Government has borne the burden
of convincing the factfinder of his guilt.’ To
this end, the reasonable-doubt standard is
indispensable, for it ‘impresses on the trier of
fact the necessity of reaching a subjective state
of certitude of the facts in issue.’
397 U.S. at 363-64 (citations and alternations
omitted).
The federal constitutional problem with the
Colorado Supreme Court’s decision in Mr. Farrar’s

151a
case is that it ignores and therefore violates this
clearly
established
due-process
requirement.
Colorado’s test for granting a new trial based on
newly discovered evidence includes the forwardlooking requirement that a court find, based on a
review of all the evidence, that if the newly
discovered evidence were presented at a new trial, it
would probably result in the defendant’s acquittal.
People v. Gutierrez, 622 P.2d 547, 560 (Colo. 1981). In
Mr. Farrar’s case, decided 4-3, a slim majority of the
Colorado Supreme Court adopted a special rule in
cases of recanting child-sex-assault witnesses that
required him, to demonstrate he would probably be
acquitted, to show not just that the recantation,
considered along with the original trial evidence,
would probably result in a reasonable doubt, but
instead that the jury would probably believe the
recantation:
In order to be entitled to a new trial for newly
discovered evidence, the defendant bore the
burden of demonstrating that new evidence
offered by him would probably convince
reasonable jurors to acquit him. In the case of
recantation, this necessarily requires a
demonstration that the jury would probably
believe the victim’s recantation. In the absence
of such a showing, a trial court is required to
deny a motion for new trial based on newly
discovered evidence.
Farrar v. People, 208 P.3d 702, 709 (Colo. 2009). The
Farrar majority also stated that “new evidence in the
form of a witness recantation, whether believed or
not, . . . can justify a new trial only to the extent that
it not only impeaches the prior testimony but does so

152a
by contradicting it with a different and more credible
account.” Id. at 708; see also id. at 707-708 (“Rather
than merely creating reasonable doubt by
demonstrating that the recanting witness has given
different and irreconcilable testimony on different
occasions, recantation can justify a new trial only if
it contains sufficiently significant new evidence, and
if it, rather than the witness’s inconsistent trial
testimony, will probably be believed.”). Here, the
Colorado Supreme Court found that the state district
court “was unable to conclude that the victim’s
recantation testimony was any more believable than
her trial testimony, and therefore it could not find
that the victim’s new evidence would probably result
in the defendant’s acquittal.” Id. at 709. Under its
new test, which is contrary to and unreasonably
applies the federal due-process standard that
anything less than proof beyond a reasonable doubt
must result in an acquittal, the Colorado Supreme
Court affirmed the denial of a new trial. Id.
The three dissenting justices understood the
problem perfectly:
[The majority’s] holding fails to account for
cases in which the newly discovered
impeachment evidence adds more support to
an already viable defense case for reasonable
doubt. In these cases, perhaps rare, the new
evidence does much more than cast doubt
upon a witness’s credibility—it clearly could
and probably would change the outcome of the
case.
The facts of this case demonstrate how a
witness recantation that is found no more
believable than the initial trial testimony can

153a
nonetheless result in a probable acquittal. The
parties agree that the jury’s verdict came
down to whether it believed the victim’s trial
testimony. Citing the jury’s decision to convict
the defendant on certain counts, but acquit
him on others, the trial court concluded that
some of the victim’s trial testimony was “at
least unpersuasive if not unbelievable,” and
that she had “substantial credibility issues.”
The victim’s subsequent recantation provides
an even greater basis to doubt the veracity of
her initial testimony. Because virtually no
evidence other than the victim’s trial
testimony
supported
the
defendant’s
conviction, her full recantation of all the
evidence
implicating
the
defendant
necessitates the conclusion that an acquittal—
or finding by the jury of reasonable doubt as to
the defendant’s guilt—is at least probable.
Id. at 710 (Bender, J., Mullarkey, C.J., and Martinez,
J., dissenting); see also id. at 711 (“Even if the trial
court had found the victim’s recantation less credible
than her trial testimony, it would not necessarily
mean that an acquittal was not probable.”) (citing
State v. McCallum, 561 N.W.2d 707, 711 (Wis. 1997)
(“It does not necessarily follow that a finding [that a
recantation is] ‘less credible’ must lead to a
conclusion of ‘no reasonable probability of a different
outcome.’ Less credible is far from incredible.”)). The
relevant question in determining whether there
would probably be an acquittal is whether the jury
would probably find it has a reasonable doubt about
the veracity of the recanting victim’s trial
testimony—the only evidence against the defendant.

154a
Thus, the Farrar dissenters would have concluded
“that the addition of the victim’s recantation would
bolster the defense argument for reasonable doubt
and probably result in an acquittal on retrial” and
that “justice requires that the defendant receive a
new trial.” 208 P.3d at 710.
Because the Colorado Supreme Court majority in
Farrar is contrary to—or an unreasonable
application of—federal law as clearly established by
Winship, section 2254(d) poses no bar to this Court
granting Mr. Farrar federal habeas relief.
II. The Colorado Supreme Court decision in
Mr. Farrar’s case was based on an
unreasonable determination of the facts in
light of the evidence presented in the State
court proceeding.
The Farrar majority reasoned that, to entitle a
defendant to a new trial, “newly discovered evidence
must be of sufficient consequence for reasons other
than its ability to impeach, or cast doubt upon, the
evidence already presented at trial.” 208 P.3d at 706707. Through its analysis and holding, the majority
opinion implicitly found that the newly discovered
recantation evidence here was merely impeaching.
Farrar, 208 P.3d at 707-709. On the record in this
case, this was an unreasonable determination of the
facts.
As the state district court recognized in its order
denying Mr. Farrar a new trial, the prosecution in
this case stipulated the first three prongs of
Colorado’s four-prong test for obtaining a new trial,
including “that the newly discovered evidence is

155a
material to relevant issues and is not merely
cumulative or impeaching.” (Doc. 15-16 at 3-4.)1
Therefore, because the standard of section
2254(d)(2) is met, it is not necessary for this Court to
find that the Colorado Supreme Court’s decision was
contrary to or an unreasonable application of federal
law as clearly established by the U.S. Supreme Court
in order to grant relief.
III. No procedural default is applicable here
because such defenses were waived, and in
any event, Mr. Farrar’s claims should be
allowed to pass through the actualinnocence gateway.
Procedural-default defenses can themselves be
waived, and Respondents have done so here.
In any event, this Court may nonetheless
adjudicate Mr. Farrar’s claims through the actualinnocence gateway. See Schlup v. Delo, 513 U.S. 298
(1995).
IV. Application of AEDPA in this case to
deny federal habeas relief to a man who is
actually innocent of the crimes for which
he
is
incarcerated
would
be
unconstitutional.
Denying federal habeas relief here under AEDPA
where this Court would otherwise be inclined to
grant it indicates that AEDPA violates the
separation-of-powers doctrine of Article III of the
1

This concession appears in the reporter’s transcript for the
state-court hearing held on January 21, 2005, at p. 108. Due to
counsel’s recent entry into the case, counsel is not yet sure
where this resides in the record before this Court.

156a
U.S. Constitution. Judicial power is vested solely in
this Court, and Congress cannot change that.
Denial of the writ here would also violate the
Supremacy Clause. U.S. Const. art. VI, cl. 2.
Denial of the writ here would also violate the
Suspension Clause. U.S. Const. art. I, § 9, cl. 2 (“The
Privilege of the Writ of Habeas Corpus shall not be
suspended, unless when in cases of Rebellion or
Invasion the public Safety may require it.”).
Certification of conferral with opposing
counsel under D.C.Colo.L.Civ.R. 7.1(a)
Undersigned counsel has conferred with Assistant
Attorney General Ryan A. Crane, who states that
Respondents oppose this Motion.
Conclusion
For all these reasons, Mr. Farrar respectfully asks
this Court, after considering the arguments set forth
herein as well as those that may be made in a
supplement permitted to be filed in the future, to
alter its Order and Judgment and to grant his
application for relief under 28 U.S.C. § 2254.
Respectfully submitted this 28th day of June, 2017.
JOHNSON & KLEIN, PLLC
s/ Gail K. Johnson
Gail K. Johnson
1470 Walnut Street, Suite 101
Boulder, CO 80302
Telephone: (303) 444-1885
Facsimile: (866) 340-8286
gjohnson@johnsonklein.com

157a
Attorney for Charles Farrar

158a
APPENDIX N
_________
DISTRICT COURT, ARAPAHOE COUNTY,
COLORADO
_________
THE PEOPLE OF THE STATE OF COLORADO,
v.
CHARLES ARTHUR FARRAR,
Defendant.
_________
Case No. 01CR505
_________
COURT REPORTER’S TRANSCRIPT
_________
The hearing in this matter commenced on January
21, 2005, before the HONORABLE JOHN P.
LEOPOLD, Judge of the District Court.
***
APPEARANCES
FOR THE PEOPLE:

CARLOS SAMOUR
Reg. No. 19955

FOR THE DEFENDANT:

MARK WALTA
Reg. No. 30990

FOR THE WITNESS
SACHA BROD:

CHARLES ELLIOT
Reg. No. 10471

159a
***
[Testimony of Sacha Brod, pp. 3:1, 8:12-10:16]
***
AFTERNOON SESSION, JANUARY 21, 2005
***
SACHA BROD
called as a rebuttal witness for the Defense herein,
was sworn and testified as follows:
DIRECT EXAMINATION
BY MR. WALTA:
Q

Good afternoon, Ms. Brod.

A

Good afternoon.

Q My name is Mark Walta. I think we have met
before. I’m Charles Farrar’s attorney. I’m going to
be asking you some questions. Ms. Brod, when did
you go to Scott Reisch’s office to prepare the affidavit
recanting your allegations of sexual abuse against
Mr. Farrar?
A
Honestly I couldn’t tell you when it was at this
point. I know I had come out here to actually try to
talk to my mom at that point and had told her then
that I’m going to do it, because I had a hard to time
getting a hold of her from Oklahoma.
Q If I show you a copy of your affidavit, would that
refresh your recollection?
A Yes, it would. You did that.
MR. SAMOUR: For the record, I think this had
been admitted as People’s Exhibit 3.
THE COURT: As what, please?

160a
MR. SAMOUR: People’s Exhibit 3, I believe,
Your Honor.
THE COURT: Yes, that’s correct. Thank you.
Q (By Mr. Walta) Having reviewed that affidavit,
does that refresh your recollection as to when?
A Yeah.
Q When was that?
A It was June 3rd.
Q Of what year?
A Of -- it would be 2003.
Q In the year and a half since that time, have you
changed your mind about whether your prior
allegations against Mr. Farrar are true or false?
A No, I have not changed my mind.
Q Did Mr. Farrar sexually assault you?
A No.
Q Was your testimony at Mr. Farrar’s trial
concerning the alleged sexual abuse true or false?
A False.
Q Do you remember sitting in that same seat in
August of 2004 and offering testimony about your
recantation?
A Vaguely.
Q All right. Has that testimony, to the best of
your knowledge, been truthful? Has your testimony
in this court been truthful?
A This time, yes.
Q Are you still concerned about the possibility of
being prosecuted for lying at Mr. Farrar’s trial or any

161a
of the other legal proceedings associated with your
false allegations of abuse?
A It is kind of scary, yes.
***

162a
APPENDIX O
_________
DISTRICT COURT, ARAPAHOE COUNTY,
COLORADO
_________
THE PEOPLE OF THE STATE OF COLORADO,
v.
CHARLES ARTHUR FARRAR,
Defendant.
_________
Case No. 01CR505
_________
COURT REPORTER’S TRANSCRIPT
_________
The hearing in this matter commenced on August
30, 2004, before the HONORABLE JOHN P.
LEOPOLD, Judge of the District Court.
***
APPEARANCES
FOR THE PEOPLE:

CARLOS SAMOUR
Reg. No. 19955

FOR THE DEFENDANT:

SUSAN FISCH
Reg. No. 16855
MARK WALTA
Reg. No. 30990

163a
FOR THE WITNESS
SACHA BROD:

SCOTT REISCH
Reg. No. 26526
***

[Testimony of Sacha Brod, pp. 4:1, 18:16-29:23]
***
MORNING SESSION, AUGUST 30, 2004
***
SACHA BROD,
called as a witness for and on behalf of the
Defendant herein, was sworn and testified as follows:
THE COURT: Ms. Fisch, you may inquire.
MS. FISCH: Thank you, Your Honor.
DIRECT EXAMINATION
BY MS. FISCH:
Q

Good morning, Ms. Brod.

A

Good morning.

Q Would you state your full name and spell your
last name?
A

Sacha Faith Brod, B-R-O-D.
THE COURT: S-A-C-H-A, right?
THE WITNESS: Yes.
THE COURT: Continue.

Q

(By Ms. Fisch) Sacha, how old are you?

A

Nineteen.

Q

When you did turn 19?

A

November of this last year.

164a
Q

Where are you currently living?

A

I’m living in Thornton right now.

Q When did you move from Oklahoma to
Colorado?
A
It was either April or May of -- it’s been almost
two years -- two years.
Q

Was it 2003 or 2002?

A

2003.

Q Just so everyone is clear -- this is kind of an
obvious question. You’re the same Sacha Brod that
testified in the trial of Charles Farrar, correct?
A

Yes, I am.

Q Just to refresh everyone’s memory, what is
your relationship to Mr. Farrar?
A

He’s my stepdad.

Q He was married to your mother or is married
to your mother?
A

I’m not exactly sure on that one.

Q

Who is your mother?

A

Debra Brod.

Q

Ms. Brod, do you know why we are here today?

A

Yes, I do.

Q

Why are we here?

A

Because the fact I recanted my story.

Q And are you saying that you recanted what
you testified to at trial?
A

Yes, I am.

Q

Is that what you’re referring to your story?

A

Yeah.

165a
Q How did you do that initially? How did you
recant your story?
A
I ended up with a lawyer to go talk to the
lawyer.
Q Let’s talk about that. What is your lawyer’s
name?
A

Scott Reisch.

Q And when you first came to know Mr. Reisch,
were you living in Oklahoma or were you living in
Colorado?
A

I was living in Oklahoma at the time.

Q And how did it come about that you got
together with Mr. Reisch?
A
I, at one point, had called my mom and told
her can you find me a lawyer out there because I
couldn’t afford to go long distance for it.
Q Did you tell your mom why you needed a
lawyer in Colorado?
A

Yep, I did.

Q

What did you tell her?

A
I told her I wanted to tell the truth about what
had actually happened.
Q What was your mother’s reaction when you
said I want to tell the truth about what actually
happened?
A
She kind of let it set I guess because I didn’t
really hear from her until I called her a couple of
days well, actually I called my brother, and he told
me that she was coming out to visit.
Q How long of a period of time was there
between the time that you told your mom that you

166a
wanted to finally tell the truth and the time that you
talked to her again?
A

About three, four weeks.

Q

Were you still living in Oklahoma?

A

Yes, I was.

Q

And who were you living with?

A

The guy I was dating at the time.

Q Did you have a close relationship with your
mom at the time that you called her and said you
wanted to finally tell the truth?
A

No.

Q

Had you ever had a close relationship?

A

Maybe at one point.

Q When we are talking about your mother, are
we talking about Debbie Brod?
A

Yes.

Q

Was it your mother that found Mr. Reisch?

A
Yeah, they called me back eventually after I
called her and found out she was coming down to
stay and told me she had found a lawyer. I didn’t
know who it was at that time.
Q

Did she have the money to pay Mr. Reisch?

A
No. She found a friend of the family that
would loan me the money to pay the retainer.
Q So the friend loaned you money that you were
supposed to pay back, is that right?
A
Yeah, and I still haven’t been able to because I
have a hard time finding jobs because of my age.
Q Was that arrangement made for any reason
that you would actually pay back the friend the

167a
money?
A
There was no set thing done on when or how
because with my work situation and the fact I was
out there and at the time I was still in school and -Q Let me ask you this. Was the arrangement to
pay Mr. Reisch made so that your mother could stay
out of paying him any money?
A

Basically.

Q Did you fly to Colorado and meet with Mr.
Reisch?
A

Actually I didn’t. I drove out.

Q Okay. You came here from Oklahoma to meet
with him?
A

Yeah.

Q How many times would you say that you met
with Mr. Reisch until today? You can guess.
A

Probably close to a dozen.

Q And when you first met with him, what did
you tell him?
A
I told him about the fact that it wasn’t true,
and that I had tried to talk to people about it before
and kind of been blown off or threatened.
THE COURT: I’m sorry. You were blown off or
threatened?
THE WITNESS: They told me they would get
back to me and never would get back to me, wouldn’t
answer the phone call. It became a huge fiasco
whether I would finally hear back and was always
told I would either spend life in a mental institute or
in jail or whatever.
Q

(By Ms. Fisch) Did you tell him in the first

168a
meeting with him?
A

Yeah.

Q When you say that you told Mr. Reisch that it
was not true, what were you referring to as it?
A

The sexual allegations.

Q

Did that include your testimony at trial?

A

Yes, it did.

Q How -- what happened after that initial
meeting with Mr. Reisch?
A
He faxed me over a copy of my recantation to
re-read, double-check that I would need to sign and
take back to him. Well, I needed to go back in and
after I checked it and sign the original.
Q Let’s slow down a little bit. Did you write
something up for Mr. Reisch?
A
Well, he went over the details, and he wrote
the details down. He went ahead and wrote the
actual -- typed it up, but I had given him all the
details and facts that he -- facts that he went off of.
Q If I said that affidavit ended up in an affidavit,
does that word make sense to you?
A

Yes, it does.

Q You gave him the details, he typed up the
affidavit, he had you re-read it and sign it?
A

Yes.

Q That affidavit that you signed and you
remember re-reading before you signed it, was it
accurate?
A

Yes, it was.

Q

Now, there is some allegations in that

169a
affidavit about conversations that you had with Ms.
Schober, the district attorney?
A

Yes.

Q Did you and Mr. Reisch have a discussion
about those specific allegations?
A

Yes, we did.

Q What did Mr. Reisch talk to you about as
related to what you were saying about the prosecutor
in this case?
A
That it was very serious charges, and that
need to be absolutely sure.
Q Okay. Did he tell you anything more that you
remember?
A

Not really.

Q Did he impress upon you the seriousness of
what you were saying about Ms. Schober?
A

Yes, he did.

Q

Were you scared about writing this affidavit?

A

Yeah, I was.

Q Why were you scared about writing the
affidavit?
A
Because it wouldn’t -- from what everyone was
telling me when I finally would get answers from
people tried to talk to, it would mean a life sentence
for me in either a mental institute or in jail.
THE COURT: And perhaps the record should
reflect that Mr. Reisch has arrived in the courtroom.
MS. FISCH: Yes, he did, and I’ll inform the
court he had matters that were scheduled earlier this
morning.

170a
THE COURT: Let’s continue.
Q (By Ms. Fisch) Let me rephrase that question,
Sacha. Were you scared about coming forth now and
saying that your testimony at trial was not true?
A

No, because I knew I had to do what was right.

Q Were you in fear that you yourself might be
prosecuted?
A

Yes, I was.

Q

And what fear did you have about that?

A
Just the fact that, you know, I have ruined
somebody’s life earlier, and now I was facing the fact
basically I would spend the rest of mine in a cage.
Q Did it seem worth it to you or not worth it to
you?
A
It was worth it because I couldn’t live with
myself considering what I had done to somebody else.
Q Did you meet with Mr. Reisch and do this
affidavit because your mother, Debbie Brod, was
pressuring you to do this?
A

No, I did not.

Q Did you meet with Mr. Reisch and do this
affidavit because your grandmother Nita Timmons
was pressuring you to do this?
A

No.

Q Did you do this because Mr. Farrar in any way
was pressuring you to do this?
A

No.

Q Did you come forward to tell the truth because
Mr. Farrar’s parents were pressuring you to do this?
A

No.

171a
Q Has anybody pressured you to come forth and
tell the truth now?
A

No.

Q Now, you’ve been made aware by us that your
Uncle Kenny Timmons is saying that you, in fact,
were pressured to come forward, right?
A

I heard that recently, yes.

Q And you have been told that he said that your
mom was going to buy you a new car if you came
forward?
A

I’ve been told he said that, yes.

Q

Is that true?

A

No.

Q Has your mom promised to buy you a car if
you came forth and testified here today?
A

No.

Q

Did you, in fact, get a new car?

A

I did at one point, yes.

Q

And how did you get that new car?

A

First time buyer’s program.

Q

What does that mean?

A
It means that because it was my first car, I
was buying my first car. I could get approved
because I had no credit.
Q

So you were able to get a car on your own?

A

Yes, it does.

Q Are you aware that your Uncle Kenny
Timmons has told the prosecution and ourselves that
your mom brought a video camera in Oklahoma so
that you could do a recantation?

172a
A

I was told he said that.

Q

Is that true?

A

No.

Q Did your mom ever bring a video camera to
Oklahoma so you could do this?
A

Not to do this, no.

Q Did you do the affidavit and are you here
today to make your mom happy?
A

No.

Q Are you here because you had a falling out
with your grandmother in Oklahoma?
A

No.

Q

Why are you here?

A
I’m here because I need to set the record
straight because I messed up other people’s lives,
and too, I can’t hardly sleep anymore knowing what I
did.
Q

It’s affected you physically?

A

Yes, it has.

Q Did you tell Mr. Samour that you were here to
tell the truth?
A

Yes, I did.

Q

Is that what you’ve told your lawyer?

A

Yes.

Q Why now, Sacha? You did the affidavit in June
of 2003, right?
A

Right.

Q Why then after the trial and conviction and
sentence of Mr. Farrar, did you come forward?

173a
A
Because I finally decided that no matter what
the consequences were, I had to do what was right.
***

174a
APPENDIX P
_________
AFFIDAVIT
_________
I, Sacha Faith Brod, date of birth, November 28,
1984, do hereby swear and affirm that I am not now
under the influence of any drug, alcohol or
prescription medication and that 1 am making the
following statement completely voluntarily and not
as the result of any undue influence or coercion by
anyone and that the following statement is true and
correct:
I am the daughter of Debbie Lynn Brod
(hereinafter “Mother”) and Richard Dale Brod. My
stepfather
is
Charles
Farrar
(hereinafter
“Stepfather”). I met my Stepfather in 1994 when I
was ten years old. We moved into an apartment with
my Stepfather in 1994.
We ultimately moved to our home in Aurora.
Around this time, I felt as though I did not belong
with the family. I was very resentful of my younger
stepbrothers Charlie and Eric. I felt as though
Charlie and Eric were given more love and attention
by my Mother and Stepfather. I was forced to do
everything for Charlie and Eric. For example, I had
to share my belongings with them and had no
privacy. When I would not share with Charlie and
Eric I would be punished by having my belongings
removed from my room by my Mother and
Stepfather. Around the time I made the sexual
assault allegations against my Mother and
Stepfather, I had only a bed and a dresser in my
room as all of my other belongings had been taken.

175a
Many of the problems I had with Charlie and Eric
were a result of my Stepfather’s mother June Monica
Farrar, who moved into our home. June Farrar
attempted to take control of the house and acted as
though I did not exist.
Growing up I would describe myself as a loaner
with few friends. I spent much of my time reading.
However, I was very close to my grandfather, Lloyd
Timmons (hereinafter “Grandfather”) who lived in
Oklahoma. A family dispute erupted between my
Mother and my Grandfather regarding me being
home schooled by my Mother, because of my poor
grades and performance in school. As a result of the
family dispute, I was no longer permitted to speak
with my Grandfather. Not being able to have contact
with my Grandfather made me very angry towards
my Mother and Stepfather.
I came up with an idea that I thought would result
in me being able to stay with my Grandfather in
Oklahoma. The way that I went about this was to
fabricate a story that both my Mother and Stepfather
had sexually assaulted me. These allegations were
completely false. Neither my Mother, nor my
Stepfather, ever subjected me to any sexual abuse. I
was also aware of the allegations made against my
Stepfather, by his stepchildren from a previous
marriage. I was aware of these allegations from
conversations that took place in the family.
I originally made allegations of sexual abuse to my
school counselor on or about March 6, 2000, and
again the following day to a social worker. I was
placed into foster care almost immediately. My foster
parent was Linda Mitchell. While in foster care, I
met another girl, whose name I do not recall, who

176a
was in foster care for making allegations of a sexual
assault. I confided with this girl and explained to her
that I had fabricated the story of the allegations. We
both agreed that if I let someone know that the
allegations were false that l would not get to live
with my grandparents. I said nothing at that time to
anyone else regarding the allegations being false.
I had two social workers when I was under the care
and custody of the Department of Human Services,
Keri Hanson and Kim Mauthe. When Kim Mauthe
became one of the social workers on my case, I
approached Kim Mauthe and I asked her, “What if, I
had fabricated the allegations?" Kim Mauthe
responded that, “I would be locked up in a mental
institution.” On or about June 14, 2001, I left for
Oklahoma to stay with my Grandmother. Two or
three months prior to that visit, I told Keri Hanson
that I had fabricated the whole story. As we got
closer to court, I again attempted to tell Keri that the
allegations were false.
I attempted to discuss the issue with my therapist,
Pamela, whose last name I cannot recall, about the
allegations being false, but was always dismissed by
her. According to her, she did not want me to relive
the trauma of the alleged assault. I attempted to do
this on several occasions but was unable to disclose
the truth.
Prior to coming to court for the trial of my
Stepfather, I met with the district attorneys
handling the case. I told district attorney, Christine
Schober, that I would not come and testify, that the
allegations were not true, and that I never thought
that this situation would go this far (meaning that I
never thought people would go to court and possibly

177a
prison). Ms. Schober then acted as though she did
not hear the statement and said, “These are the
questions we are going to ask you and these are the
answers we want.” For example, Ms. Schober stated,
“I will ask you for dates that the sexual assaults took
place, but you probably will not remember them
because we know that you are repressing the
incidents so you won’t need to be specific.” I
attempted yet again to say that the allegations were
false and Ms. Schober stated, “If you say that the
allegations are not true, you will be locked up in a
mental institution because obviously the trauma is
too great for you to handle.”
I ultimately testified against my Stepfather at his
trial because I was scared by the threats of being
placed in a mental institution and not being able to
live with my grandparents. My testimony was not
truthful at my Stepfather’s trial.
I also tried to speak with my Guardian Ad-Litum,
Mike Cavanaugh, regarding the issue. However, we
only met three times throughout the court
proceedings and he was always accompanied by a
social worker and I did not feel comfortable having
the social worker present.
I am now 18 years of age and have not had the
Department of Human Services in my life for nearly
8 months. I have had trouble sleeping since I made
these allegations. When I do sleep, I have
nightmares about ruining innocent lives. I am
coming forward now because I have sent an innocent
man to jail, destroyed my Mother’s life, and the life
of my stepbrother, brothers and sister by false
allegations made by me when I did not have enough
courage to tell the truth.

178a
I am sure that there are many questions that will
be asked of me, and I realize that I may not have
stated
everything
regarding my
untruthful
statements regarding my Mother’s and Stepfather’s
cases in this affidavit, but I am prepared to do so in
the future.
/s/ Sacha F. Brod
Sacha Faith Brod
June 3, 2003
Date
Signed in my presence this 3rd day of June 2003.
/s/ Susan B. Griffin
Notary Public
My Commission Expires 4-16-04
[seal]
Notary Public
Susan B. Griffin
State of Colorado

179a
APPENDIX Q
_________
DISTRICT COURT, ARAPAHOE COUNTY,
COLORADO
_________
THE PEOPLE OF THE STATE OF COLORADO,
v.
CHARLES ARTHUR FARRAR,
Defendant.
_________
Case No. 01CR505
Division 11
_________
REPORTER’S TRANSCRIPT
[Monday, March 25, 2002]
_________
A P P E A R A N C E S:
FOR THE PEOPLE:
DARREN VAHLE, Reg. No. 28107
CHRISTINE SCHOBER, Reg. No. 30039
FOR THE DEFENDANT FARRAR:
CRAIG TRUMAN, Reg. No. 5331
This matter came on for trial to jury on Monday,
March 25, 2002, before the Honorable John P.
Leopold, District Judge.

180a
This is a transcript of the testimony of Sacha Brod
given in this case on that date.
_________
***
[Testimony of Sacha Brod, pp. 2:1-34:20, 40:23-44:25,
49:3-52:23]
***
MORNING SESSION, MONDAY, MARCH 25,
2002
(Proceedings were had and recorded, but are not
herein transcribed, and the following proceedings
were had:)
THE COURT: Thank you, counsel. Thank you very
much.
People may call their first witness.
MS. SCHOBER: People call Sacha Brod.
THE COURT: Very well.
Ms. Brod, come forward, please.
Over here, please. Could you please raise your right
hand.
(The witness was duly sworn by the court.)
THE COURT: Please be seated.
Ms. Schober.
MS. SCHOBER: Thank you, Your Honor.
SACHA BROD,
called as a witness by the People, having been first
duly sworn, testified as follows:

181a
DIRECT EXAMINATION
BY MS. SCHOBER:
Q

Good afternoon.

A

Good afternoon.

Q Could you please state your name and spell
both your first and last name for the record?
A

My name is Sacha Brod. S-a-c-h-a, B-r-o-d.

Q

How old are you, Sacha?

A

Seventeen.

Q And before I go on, are you more comfortable
with me calling you Sacha or Ms. Brod?
A

Sacha.

Q

Okay. You’re 17. What’s your birthday?

A

11/28/84.

Q

And what grade are you in?

A

I’m a sophomore.

Q

Where do you live?

A

In Sand Springs, Oklahoma.

Q If I can have you do me a little favor and pull
that microphone a little bit closer so we can hear you
or you lean forward.
Who do you live with in Oklahoma?
A

I live with my grandma.

Q

Okay. What’s your grandma’s name?

A

Nita Timmons.

Q

I’m sorry?

A

Nita Timmons.

Q

Does anybody else live with you?

182a
A
Me, the oldest of my brothers, and my younger
sister.
Q

What are their names?

A

Dustin and Brittany.

Q Okay. Before you lived in Oklahoma, did you
live somewhere else?
A

Yes.

Q

Where did you live?

A
I lived with my biological mom, Debbie, for a
few years on and off or I spent almost two years in
foster care.
Q Okay. You talk about when you lived with
your biological mom and I want to talk about just
before you moved to Oklahoma. Who else did you live
with?
A
Um, her boyfriend, his parents, his two kids,
and then my brother Dustin and sister Brittany and
my youngest brother Austin.
Q

Okay. Where was that?

A

In Aurora, Colorado, on Iola Street.

Q

On Iola Street?

A

(Nods head.)

Q

And do you recall the exact address?

A

I think it was 480.

Q Okay, and is Iola -- can you spell that, do you
recall?
A

I-o-l-a, I think.

Q So you and your biological mother, what do
you want to call her?
A

Debbie.

183a
Q

Okay. Her boyfriend, what was his name?

A

Charles.

Q Okay,
Brittany?

and

A

(Nods head.)

Q

Who else?

your

brother

Dustin,

sister

A
My youngest brother Austin, his two boys
Charlie and Eric, and then his parents.
Q Okay, and when you say his two boys and his
parents, who are you referring to?
A
Charles’s two sons, Charlie and Eric, and then
his parents June and Andrew Farrar.
Q

Charles’s parents?

A

Yes.

Q Okay. How long did everybody live together at
480 Iola Street?
A
Um, let’s see, we moved in right before I
started my fifth grade year and then, let’s see, my
fifth grade year, my sixth grade year I missed two
years of school which I was supposedly being home
schooled my seventh grade year and part of my
eighth grade year.
Q That whole time were his parents there as
well?
A
They moved in shortly before the first
Christmas.
Q

Would that have been in ’95 then?

A

I think so. Either ’95 or ’96.

Q Okay. Was there something that happened
that caused you not to live at that house any more?

184a
A

Yes, there was.

Q Okay, and I want to talk about that. Tell us
just briefly what happened that caused you not to
live there anymore.
A
Around the time I turned eleven, probably
within a day or two before or after my birthday, they
began sexually abusing me and my mom had
emotionally abused me for years. She has a history of
abusive boyfriends and after awhile it just began to
eat me away from the inside out.
Q Okay, and when you say they, I need to know
who you’re talking about. When you say they began
to sexually abuse you, who are you talking about?
A

Debbie and her boyfriend, Charles.

Q And I want to get into that a little more, but
let me ask you just a couple questions to get up to
that point.
When did Charles, the defendant, come into your
life? How old were you?
A
Um, it was towards the end of my fourth grade
year when him and Debbie started dating.
Q

Is that in Colorado or somewhere else?

A

Colorado.

Q

Okay, and when did he begin to live with you?

A
I had gone to -- no, it was to Texas at the time
to visit my grandparents, came back, they flew me
back, Charles and Debbie did, and it was at that
time I found out that they were living together.
Q Okay. Do you recall how long that was after
they met or what grade you were in?
A

It was right after my fourth grade year. It was

185a
the summer after my fourth grade year. They’d only
been dating at that point a couple months.
Q

So how old were you at that time?

A

About nine.

Q Okay. Okay, and from the time then that you
came back and they were living together, they
continued to live together; is that correct?
A

Yes.

Q Okay. When then, tell us again, when did the
sexual abuse begin?
A
Either a day or two before or after my 11th
birthday.
Q Okay, and how are you able to remember that
that’s when it started?
A
Because my birthday like it may have actually
landed on Thanksgiving that year and it was either
Thanksgiving or the day or two before or after.
Q Okay, and do you remember what grade you
were in at the time?
A

Fifth grade.

Q

How long then did it last?

A

Until I left.

Q

Okay.

A
So -- I don’t know, probably about four and a
half years.
Q

How old were you when you left?

A

Fifteen.

Q I want to ask you generally and then I’m going
to ask you to give us a little bit more detail, but
generally what types of things would happen over

186a
that four years?
A
Um, it started out where I didn’t know what
was going on. I was told to come down one night
about my 11th birthday and when it started and it
started out with just groping and I was really
uncomfortable with it, but I was too scared to tell
anybody what was going on, and it later progressed
to intercourse and I did not know what to do about it.
I was terrified because at that point I had been
informed if I ever told anybody, I would be put six
foot under, that was not a threat, that was a
promise.
Q Okay, and when you say what you just said,
are those exact words?
A

Yes, that was exact words.

Q

From who?

A

Charles.

Q

When would he say that to you?

A
Just times he caught me alone when we -- he
would pull me aside for a conversation or something
and it would -- sometimes would come up and
sometimes it wouldn’t and so at that point I didn’t
feel I had much of a choice.
Q Okay. Okay. So you talked about there was
groping and then there was sexual intercourse. What
other types of things would happen over the years?
A
There was one time that he took both me and
Dustin out to the deck of the pool and he beat me up
on the deck of the pool.
Q Okay. I want to talk about that a little bit
later. As far as sexual abuse, though, what other
types of things would happen?

187a
A

That basically covers the general gist of it.

Q Okay, and do you recall what date -- well,
strike that. Let me back up.
I want to go now and talk about some of the times
in more detail, okay?
Over that four years can you estimate for us about
how many times there was sexual contact?
A

I have no clue.

Q

Okay. Was it often, not often?

A
It would just vary depending on the times and
what was going on at the time .
Q Okay. Would you say it was a lot of times or a
few times?
A

It was a lot of times.

Q Okay, and when it would vary, what would
cause it to vary?
A
Um, different conditions. It would just really
depend on people’s moods, um, time of the month.
Q

Okay.

A
Um -- just it really a lot of things played in a
factor on it.
Q

Sometimes was it more often than not?

A

Yes.

Q

Sometimes less?

A

(Nods head.)

Q Okay. Let’s talk about the first time anything
ever happened, okay? You said that you were told to
go down to their room.
A

Yeah.

188a
Q How did that happen, where were you, who
told you?
A
I was up in my room. It was about nine o’clock
at night and I had gone to my room. I turned my
radio on and as usual I was sitting in bed reading a
book.
Q

Okay, and then what happened?

A
Um, about nine o’clock Debbie came into the
room and told me that about 10, 10:30 she wanted
me to be down in their room, but she wanted to talk
to me.
Q

Okay.

A
I had no clue what about, so about 10, 10:30 I
went downstairs. They told me to come in and all
they had for a door at the time was a sheet and I
don’t think it changed much over the time.
Q

Okay.

A
And I went in and they told me to lay down.
They had me get between them and so she kind of
held me down while he started groping and that was
about as far as it went that night and I went back
upstairs late and ended up crying myself to sleep
that night.
Q Okay. So you went downstairs and tell me
what you saw when you got downstairs.
A

They were just both laying in bed.

Q

Okay. What was their bedroom like?

A
Um, we guess the last people had used it for
an indoor greenhouse or something. There was a
small closet that had like a sump pump in it that he
used for his work and then that was to the left side of
the room and then their bed was in the center and

189a
pushed back against the back wall and then to the
right was a long walk-in closet that was her closet
and had a freezer and a fridge I think in the closet.
Q

Any other furniture in the room?

A

Not that I can recall.

Q Okay. So when you walked down there in bed,
what kind of bed is it?
A

It was a water bed.

Q

Okay. Do you know sizes of beds?

A

I think it was a king.

Q Okay, and so what happens once you walked
down and they’re in bed?
A
They told me to climb into the bed with the m
and so I did, I didn’t know why, and that’s when it
started.
Q Okay. When you got into the bed, where was
everybody positioned?
A
He was on the -- if you’re facing the bed from
the doorway, he was on the right side, I believe, and
she was on the left.
Q

Okay, and where did you go?

A

They had me lay down between them.

Q

Do you remember what you were wearing?

A
Just a really oversized T shirt that came down
to my knees and my undergarments.
Q

And do you know what they were wearing?

A

Nothing.

Q And then what happened once you got in the
bed?
A

She kind of put her arm around me and then

190a
he started groping me and she kind of held me still
so I couldn’t move and was really too terrified to do
anything about it.
Q When you say groping, can you tell us what
you mean by that?
A
He was grabbing me in my genital area and
my breasts.
Q

Over your clothes or under your clothes?

A

At first over them and then under them.

Q Was anybody talking saying anything while
this was going on?
A

I really can’t recall.

Q

Okay. How long did that last?

A
To be honest, I don’t know. I kind of tried to
shut myself down at that point.
Q And then at some point you said it ended and
you were able to go back upstairs?
A

Yes.

Q

How did it end?

A
They just told me I could go back to bed at
that point and so I went back up and -Q At that point when this is the first time, did
the defendant’s parents live in the home yet or was it
sometime just -A

Yes.

Q

Okay, and where were they?

A

They were in their room next door to mine.

Q Okay, and can you give us a description of the
house, how many levels it is and at that point where
everybody’s bedroom was?

191a
A
It was a two-level with an attic. Upstairs was
the kitchen, one living room, the dining room,
Dustin’s bedroom was upstairs at the time, then in
the corner of the house was Charles’s parents and
then my room, the bathroom, and it was kinds of an
L-shape, so then if you walked slightly down the hall
and took a left turn, you were back in the dining
room near the front door.
Q And then downstairs, and was downstairs
main level or basement or what was that?
A

Basement.

Q

Okay. What was downstairs?

A
Um, once you got down the stairs you
immediately walked into what was supposed to be an
office area that we just kind of left for storage.
Q

Okay.

A
Um, then right to the right if you turn right
and went straight was their room and then if you
turned completely right, there was a hallway that led
into a second living room that we had split into a
living room slash office and then if you went past
that, there was the laundry room right off of the
office area, then there was the bathroom and then
there was on the right hand side of the hall there
was my room and on the left-hand side there was
Dustin’s.
Q Okay. Now I think you said that your and
Dustin’s room were upstairs?
A
Charlie and Eric and Brittany’s, ’cause they
later moved us downstairs.
Q

At the time of the first incident then --

A

Yeah, Brittany was in the room I would later

192a
occupy and Charlie and Eric had the other room.
Q When that happened, you said the defendant’s
parents were upstairs in the bedroom?
A

Yes.

Q

Where were the other children?

A

Their rooms.

Q And do you know whether they were asleep?
Was it bedtime?
A
It was -- usually they were in bed by -- we
were in bed by 9, 9:30.
Q You mentioned that while this was happening
you kind of tried to shut yourself down. And I know
it’s been awhile because you’re 17 now and we’re
talking about when you were 11. Do you remember
what you were thinking when this started to
happen?
A

I was thinking why me, what did I do.

Q

Okay. How did it feel then?

A
It was terrifying. It was -- I felt like it was my
fault, I had done something wrong to deserve it.
Um, I felt like my mother and I had never been
close and so I felt like I’d really done something
wrong this time for her to do this to me.
Q Okay. How else did it make you feel? And I
mean comfortable, uncomfortable, any words you can
-A
I was really uncomfortable, I was scared, I was
confused.
Q After that first time, then, when was the next
time, do you remember?
A

I don’t know.

193a
Q At some point did this contact progress into
something other than just groping?
A
Yes. I’m not even sure at this point even how
long it took.
Q

Okay.

A
Probably about six months,
eventually involve into intercourse.
Q

but

it

did

Okay. Let’s talk about that.

Do you remember the first time it evolved into
intercourse?
A
Not too well. It was just at that point it was all
dragging into one long, blurrish nightmare.
Q Okay. Let’s try and talk about what you do
remember about that, okay?
Were you still eleven?
A

At this point I’m not even sure any more.

Q Okay. You said it was maybe six months after
the first time.
A
About, probably about six months to a year, so
I was either 11 or 12 at the time.
Q Okay, and at the time of the first time that he
had intercourse with you, was everybody still
situated in the same bedrooms?
A
I think at that time we had already
rearranged the rooms and I had been moved back
downstairs.
Q At that time just tell the jury who lived
upstairs and who lived downstairs.
A
At that point it would have been Charlie and
Eric in the room that had previously been Dustin’s
and Brittany in the room that had been mine.

194a
Q Okay. So downstairs you and Dustin, Charles
and Debbie.
A

Yes.

Q

And then upstairs, the other kids.

A

And Charles’s parents.

Q Okay, and before I go on, how old are the other
kids in relation to you?
A
Um, Dustin is about two and a half years
younger than me, Brittany is seven years younger
almost to the day, Austin is almost 13 years younger,
and Eric’s six years younger, and I think Charlie is
five years younger than me.
Q Okay. So how old were you when Austin was
born?
A

I was almost 13 years old.

Q Okay. So at the time we’re talking about then,
the first time there was sexual intercourse, Austin is
not born yet; is that right?
A

Right.

Q Do you remember on that first time then what
it was?
A

just know it was late at night.

Q

Where was everybody else?

A

In bed.

Q

And where did this happen?

A

In Charles and Debbie’s room.

Q

Who was in their room?

A

Charles , Debbie, and I.

Q Okay, and how did it come to be that you were
in that room that night?

195a
A
I had yet again been told to come down and
because of being scared, I didn’t know what else to
do.
Q Okay. What happened then once you got in
there?
A
It started the same way it usually did with
groping and then she ended up holding my shoulders
down and trying to tell me to calm down and -- ’cause
I was at that point shaking really bad and almost in
tears already.
Q

Okay, and then what happened?

A

He penetrated me and --

Q

When that happened, what was Debbie doing?

A
She was still holding my shoulders, trying to
tell me to calm down.
Q

Was there any other discussion at that point?

A

Not really.

Q How many more times after that did sexual
intercourse occur?
A
I have no clue. I didn’t count. It was -- it would
vary from time to time depending on what was going
on.
Q Okay, and so up to that point, tell me if I’m
right, there had been groping?
A

Yes.

Q And about six months later sexual intercourse
begins.
A

Yes.

Q After that, what types of things would
happen? Would it be sometimes groping, sometimes
intercourse?

196a
A

After that it was just usually both combined.

Q Okay. Was there ever any other type of sexual
contact, other body parts touching?
A

Not really that I can recall.

Q Okay. Did the defendant ever put his mouth
on your body anywhere?
A

Yes.

Q

Tell us about that.

A

Urn, the breast area and then my genital area.

Q

Okay. When did that start happening?

A
I don’t know, probably about three months
after it all began.
Q

Okay, and tell us what would happen.

A
Um, the first time it happened Debbie was
again holding my shoulders trying to tell me to calm
down, which did not really work, but -Q Do you know why she was holding your
shoulders?
A

I have no clue.

Q

Okay.

A
At this point I don’t bother
understand anything she does any more.

trying

to

Q Okay. Were you trying to leave or anything
like that or -A

I was too scared to do anything.

Q Okay. So when that would happen then to the
first time she was holding you down, what did the
defendant do?
A
Um, it started out groping as usual and then
he had removed my panties and he placed his mouth

197a
on my genital area and -Q

What did he do?

A
He began licking my genital area and such
and at that point I think I was already in tears. I’m
not for sure at this point any more.
Q Okay. About how long did that last, that first
time?
A
I don’t know. I didn’t pay much attention to
time. I was too scared. I was confused. I didn’t really
know what to do.
Q Okay, and then that time, the first time that
that happened, how old were you?
A

Eleven.

Q Do you have a name for what that is, do you
call that anything in particular?
A

Not really.

Q

Okay. Do you know what that’s called?

A

No.

Q Okay. In the past have you used the word
munching?
A

That’s what he would call it and --

Q

Okay.

A
I don’t know. It’s the only thing I could come
up to describe at the time. I was still in shock.
Q Okay. So that’s a word that you got from the
defendant.
A

Yes.

Q Was there ever a time that your mouth went
somewhere on his body?
A

I -- Debbie did talk me into doing the same

198a
thing to him. I was really uncomfortable about it. I
did not want to do it. It was just kind of -- she would
-- she had once come into the room and when I
wouldn’t, had threatened to beat me for it. She had
threatened to burn me with her cigarettes. It was
just -- she was mad because at the time I think at the
point that it really got to the ultimate point ’cause
she felt that -MR. TRUMAN: Excuse me, Your Honor. I’m going
to object here as speculation.
THE COURT: Well, let’s have another question.
The jury will disregard the partial comment. Go
ahead.
MS. SCHOBER: Sure.
THE COURT: I’m not sustaining this objection, I
just need another question.
Q (BY MS. SCHOBER) I think we were talking
about how you got talked into or coerced into doing
this and Debbie would threaten to do things to you?
A

Yes.

Q How did it come about that it eventually
happened then?
A
I became too terrified to tell her no anymore
because the fact she did have a very violent temper. I
had seen it in the past.
Q Do you remember the first time that
happened, the first time that you had to put your
mouth on him?
A
I’m not sure when it was. It was after awhile.
Like I said, it began to blur into just one long
nightmare.
Q

Okay. Do you know about how many times

199a
that happened?
A

No, I do not.

Q I want to talk - - and I’m kind of focusing on
specific times so that I can ask you some detail about
specific times.
Do you remember the last time any sexual contact
happened?
A
It was probably within a week of me finally
being able to get a hold of the school counselor.
Q

And do you remember when that was?

A

Beginning of March.

Q

Of what year?

A
Um, it was my -- probably ’98, ’99, somewhere
in there.
Q Okay. Let’s think about how old were you
when you were able to get a hold of the school
counselor.
A

It was my eighth grade year. So I was 15.

Q

Okay, and you’re 17 now?

A

Yes.

Q So if now is 2002, when you were 15, would it
have been 2000?
A
Well, except the years changed since my
birthday and I think it was short -- may have been
2000.
Q Okay. In any event, it was about a week
within the time that you got a hold of your school
counselor?
A

Yes.

Q

Do you remember that counselor’s name?

200a
A

Ken Jahner. I think Ken was his first name.

Q Do you remember what happened the last
time?
A
Not really. It was just at that point I was
getting quite good at shutting myself down,
according to my therapist. I started seeing -MR. TRUMAN: I’ll object to that.
THE COURT: Sustained. The jury will disregard
that comment.
Q (BY MS. SCHOBER) Sacha, I know it’s hard to
give us a number of how many times things like this
happened, but can you estimate?
A

I’d say at least a hundred.

Q

Okay, and that’s over the four years.

A

Yes.

Q Okay, and when I say these things, does that
mean the groping, the munching, your mouth on his
penis and intercourse?
A

Yes.

Q And we’ve talked about these things would
happen in their bedroom?
A

Yes.

Q

Would they happen anywhere else?

A
Um, from time to time it would occur in my
room or he had taken to buying, fixing up and
reselling, um, dilapidated properties and sometimes
it would happen there.
Q

Okay. About how many times do you think?

A
I have no clue. Probably about 15 percent of it
happened at either my room or at the other houses.

201a
Q

Okay. 50 or 15?

A

Fifteen.

Q

So about 85 percent in their room?

A

Yes.

Q When we talk about your room and their room,
is that always at 480 Iola Street?
A

Yes.

Q When it would happen in their room, who
would be there?
A
Um, Debbie, Charles, and I. Sometimes
Debbie was not there, especially after Austin was
born she would be in the living room rocking him.
Q

Okay. So Austin was born when you were 13?

A

Yes.

Q Okay. So was Debbie there more from 11 to 13
and then less for 13 to 15?
A

Yes.

Q Okay. When it would happen in your room,
who would be there?
A
At that time it usually I think there was only
one time she was in there, but the rest of the time it
was just Charles and I.
Q

And at the fix-up houses.

A

It was usually just Charles and I those times.

Q

And where in those houses would it happen?

A
Back rooms, just rooms that usually didn’t
have a window that had no view that anybody could
see.
Q Okay. You talked about with some of the
specific times we’ve talked about that it was late at

202a
night.
A

Yes.

Q Did it ever happen any other time of the day
or night?
A
Yes, it would sometimes happen during the
broad daylight depending on what was going on and
where we were at. If it was at his houses, it was
sometimes day, it was sometimes night, and just
depended.
Q Okay. Sacha, was there something that
developed over those four years that you called the
usual procedure?
A
It was just basically it started out groping and
then progressed to the intercourse.
Q And was the intercourse -- was it performed in
different ways or was there a particular way that
that would happen?
A
Um, either with me sitting on top of him or me
on my back.
Q

Okay.

A

Just depended.

Q Okay, and I kind of differentiated these things
and talked about groping and the munching and
then your mouth on his penis and intercourse, would
it be these things separately or sometimes would a
couple of these things happen during an incident?
A
It would usually -- a couple of them would
happen during the same incident.
Q Okay. You talked about a couple of those
times. The first time that there was groping and the
first time there was munching and the first time that

203a
there was intercourse your mom was holding you
down?
A

Yes.

Q Did that -- when she was there with you, did
she always hold you down or was it just sometimes?
A
No, it just depended on what was going on at
the time.
Q Okay. About how many times would you say
she actually held you down?
A

Probably about four or five.

Q

Okay. Did your mom ever do anything else?

A
There was one incident -- one of the incidents
that she was quite involved in.
Q

And, I’m sorry, I missed that, one or more?

A
One or two incidents that she was quite
involved in.
Q

Can you describe those for us?

A
There was a couple times that she groped me.
There was a couple times that she had her mouth in
my genital area. It just -- I guess it kind of caught
her fancy at the time.
Q Okay. When you say she would grope you,
where would she grope you?
A

My genital area, my breast area.

Q Is there -- was there a particular time that you
wanted to do something at school, but there was
some conditions?
A
Yes. The spring dance my sixth grade year, I
was kind of blackmailed into them videotaping it in
order for me to go, but - -

204a
Q

Okay -- go ahead.

A
But for me it meant a few hours away from
them, away from the house, where I could actually
pretend I had a normal life, and so I ended up letting
them videotape it.
Q Let’s start with this spring dance. What was
that?
A
It was just a bunch of middle school kids
getting together and basically it was more of a social,
everybody kind of talked. They kind of made up
dance moves as we went.
Q

Did it have a name?

A
Um, I know it did, but I can’t remember at this
time.
Q

Okay. Does the Spring Fling sound right?

A

That may be it.

Q

And when was that?

A

Probably in March.

Q

Of what year?

A

My sixth grade year, so ’96, ’97.

Q Was this something that you had to get
permission to be able to go to?
A
Well, we didn’t have parental permission to
get in, but I had to have parental permission to be
out of the house.
Q So did you ask Debbie and the defendant if
you could go?
A

Yes, I did.

Q

And how did that go?

A

They told me they would think about it and

205a
then later returned to me with their conditions.
Q

Okay. Did they come back with conditions?

A

Yes.

Q

What were those conditions?

A
One was that they would be able to videotape
one of the incidents that would occur with both of
them involved before spring break, the spring dance,
and the other one was at that point I was passing all
my classes.
Q Okay. Do you recall the first condition that
you talked about, was it described to you before it
happened in more detail?
A
Not really. I didn’t know what was going on.
They kind of played it by ear, so I didn’t really know
what was happening.
Q

Okay. So there was going to be a videotape.

A

(Nods head.)

Q And who was going to be involved in being
filmed?
A

Debbie, Charles, and I.

Q Okay, and do you know what everybody was
supposed to do on the videotape?
A
Not really. It was just whatever happened,
happened.
Q

And do you remember what happened?

A
Um, it started with him munching on me and
then - - and intercourse and she ended up munching
on me.
Q

After intercourse with the defendant.

A

Yes.

206a
Q

And that was videotaped.

A

Yes.

Q When you were in sixth grade at the time of
the Spring Fling, do you remember what year that
was?
A

It was ’96 or ’97.

Q

What was that incident taped with?

A
A video recorder that she had received for
either her birthday or Christmas the previous year.
Q Okay. Were there any other videotaped
incidents, sexual incidents?
A

No.

Q

Have you ever seen that video camera before?

A

I had seen the camera before.

Q Okay, and what was it used for other than
that incident?
A
Birthday parties, Christmas, just different
things.
Q Okay. Do you know what happened with that
tape, Sacha?
A

No, I don’t.

Q

Okay. Did you ever watch it?

A

No, I did not.

Q

Do you know whether they ever watched it?

A
He had mentioned -- the defendant had
mentioned watching it to me a couple times.
Q

What did he say about it?

A
He said it was really a turn-on and that he
wanted me to watch it with him.

207a
Q When he mentioned the tape to you, was that
close in relation to the time it was made or farther
out?
A

It was farther after.

Q Okay. So about when in relation to when it
was made?
A

Probably six months to a year later.

Q And at that time you were how old, do you
remember?
A

Probably about 12.

Q

Okay.

A

Maybe 13 at that point.

Q By the time that you told in March of 2000,
had he mentioned the tape recently, close to the time
that you told?
A
I honestly can’t recall him mentioning it, but
he may have. I don’t remember too much of the time.
I spent most of my time either asleep or reading.
Q Okay. Sacha, was there ever a time that the
defendant mentioned other people becoming
involved?
A
There was one time that he had wanted me to
do a party for a few of his friends.
Q

Um-hum. Tell us about that.

A
Um, I didn’t know too much about it. There
was about six or seven guys that were just getting
together to drink beer and wanted a, um, basically a
call girl there and so he -Q

Is that the word --

A

-- he kind of volunteered me.

208a
Q

Is that the word he used with you, a call girl?

A
No, that’s just kind of my word for it. Basically
they wanted a prostitute, just somebody that they
could pay for and have their way with.
Q Okay. So how did it come up then? How did it
get discussed with you?
A
He just brought it up and mentioned to me one
day when we were downstairs in the office. I think I
had been sitting on the couch reading or something.
Q

What did he say?

A
He mentioned he wanted to talk to me and he
brought it up and asked me if I’d be interested in
doing it and I told him I didn’t know and from that
point on I came up with excuse after excuse to get
out of it.
Q Okay. Were you going to get anything out -were you going to get anything for it?
A
They were supposed to pay me. I don’t know
how much any more. I don’t really care. It was just
my main thing was see if I couldn’t get out of it
somehow.
Q

So did that ever happen?

A

No.

Q When we’re talking about the four year time
span that this was all happening, when did that offer
or suggestion come up to you?
A

Probably late my seventh grade year.

No, it had to have been early my eighth grade year.
Q

So were you 14 or 15?

A

I was, yeah, about 14 or 15 at the time.

Q

All right. This went on for quite some time.

209a
A

Yes.

Q

Did you ever want to tell somebody?

A
Yes. There was one point somebody I almost
told and days before I had the chance to mention it or
tell him, he passed away in a motorcycle accident.
Q

Who is that?

A

It was the defendant’s brother Andy.

Q Okay. How old were you when you wanted to
tell him?
A
Q
tell?

I’d say probably about 13 or 14 years old.
Why was that somebody that you wanted to

A
I just trusted him. I figured I could trust him
to find some way to get me out without me ending up
hurt.
Q

So you wanted to tell him and he passed away.

A

Yes.

Q Were there other times that you wanted to tell
but were not able to?
A
There were plenty of times I wanted to tell,
but I was either too scared or I didn’t feel I had
somebody I could turn to.
Q

Why were you scared?

A
Because he had told me if I ever told, he would
put me six foot under.
***
Q Okay. Was there anything else that happened
that kind of not caused you to go along with this, but
that -- that they did meaning the defendant and your
mother?

210a
A

They --

Q

To help you go along with this?

A
They were paying me hush money. The main
thing was I was terrified for my life and after awhile
it got to the point where I’m not even sure it
mattered to me any more if I lived through it or not.
Q

Okay. Tell me about the money.

A

Um, usually about $20 per time.

Q And how did that happen? Would they finish
and say here’s some money or how did that happen?
A
I’d usually receive the money about two days
after the fact whether it was just me and them or -Q

Okay.

A

It just varied.

Q Did you receive money from the time you were
11 to the time you were 15 or did that start
somewhere in the middle?
A

Started not at the beginning, but later on.

Q

Okay. About when?

A
Probably about the time the intercourse
actually started.
Q

Okay. Who would give you the money?

A
Um, it just depended if he was busy with one
of the his houses and wasn’t there for a couple days,
Debbie would give me the money or sometimes
Charles would give me the money. It just depended.
Q

Would they say anything?

A
Not really. They told me not to tell the others
where I got the money, I’d gotten it from a friend or
school or if possible not to even let them know I had

211a
the money.
Q Did they tell you this is for letting us do what
we did the other night?
A

Yes.

Q They did? Okay, and just so that we’re clear,
are you sure that’s what it was for or was this just
your allowance for chores or thing like that?
A

We did not receive an allowance.

Q

Meaning any of the kids?

A

None of the kids received an allowance.

Q Did that happen every time an incident would
happen or just sometimes?
A
It would just vary from time to time. They
would save the money up and give it to me in a
larger lump sum. Sometimes it was each time. It just
really varied depending on circumstances.
Q Okay. Sacha, we talked about how you were
afraid to tell, how there was somebody you wanted to
tell that he passed away. You did finally tell, right?
A
Yes, eventually I’d spent about a week and a
half trying to get a hold of the school counselor.
Q

Okay.

A
And I didn’t want to leave a note explaining
why it was so important that I saw him, but
eventually I just kind of went up to there at my
lunch and sat up there at lunch and did not go back
to class after lunch because he had come in. I
explained it was urgent, I needed to speak with him,
at which point the night before I had gotten a hold of
my grandma which Debbie and Charles did not have
knowledge of. I had spoken to my aunt on an

212a
occasion or two before that.
Q Okay. So who was the first person that you
told?
A

My grandma.

Q

And what -- tell us her name.

A

Nita Timmons.

Q

That’s the grandma that you live with now?

A

Yes.

Q And when you were able to tell her, you were
at school or where were you?
A
Yes, it was after school hours. Dustin thought
I was phoning a guy that I liked that I had met one
day on the way home from school.
Q

Okay.

A
And because I couldn’t -- I didn’t trust him
enough to tell him who I was calling.
Q

Where was your grandma at the time?

A
They were living in Sand Springs, Oklahoma,
I believe, at the time.
Q Okay. Why couldn’t Dustin know that you
were phoning your grandma?
A
Because we were not allowed to have contact
with our grandparent.
Q

Why?

A
Debbie and Charles had forbidden it about the
time I started in home schooling and they cut off all
contact with them.
Q

Do you know why they cut contact?

A

I do not know.

213a
Q But it was around the time you started home
schooling.
A

Yes.

Q

When did you start home schooling?

A
Um, I completed my regular sixth grade year,
but I passed all my classes barely, but I had passed,
and they decided that wasn’t good enough. They
pulled me out of school and I was supposed to be in
home schooling for the year but really was not.
Q Okay. Let’s talk about this a little bit more
and then we’ll get back to when you told.
How long were you out of school before you got to
go back to school?
A

An entire school year.
***

Q Okay. Now if you -- we talked about that. You
talked to Mr. Jahner in March?
A

Mr. Jahner.

Q

I’m sorry. In March. Is that the date or before?

A

It’s April -- okay. February before.

Q

February you relocated the phone number?

A

Yes.

Q

And how did you call your grandparents?

A
I believe I called collect or I may have actually
had change. I don’t remember. May have been left
over from lunch money or something.
Q

Okay. So from school.

A

Yes.

Q

And who did you talk to?

214a
A

My grandmother.

Q Okay, and without telling us what you told
her, were you able to tell her what had been going
on?
A
I could give her a vague idea. I was standing
in the middle of the lobby. There was a bunch of kids
milling around after school. There were a lot of after
school activities including extra choir practices for
choir , a lot of the clubs met after school. There was a
drama club that met in the auditorium right outside
the lobby.
Q So what do you mean by vague idea? Did you
give her a couple sentences, one sentence?
A
I kind of gave -- I kind of told her that they
were abusing me and then she started asking
questions I could give a yes or no answer to so she
could get a little bit clearer idea of what was going on
and the next day I finally got a hold of Mr. Jahner.
Q Okay. Did your grandma suggest that she
would do something or suggest for you to do
something?
A
I told her I was trying to get a hold of a
counselor. She suggested I do that. She said if I
couldn’t get a hold of them before tomorrow, she
would call, tell him what she knew and try to get him
to pull me out of class and get me into the office.
Q Okay. When you say that you were trying to
get a hold of your counselor and that you tried a
couple times, what would happen that you would try
and you weren’t able to get a hold of him?
A
He would be out of the building for the day. He
would be in meetings all day.

215a
Q Was this something where you were going to
his office, he wasn’t there, you would try back
another time?
A

Yes.

Q Okay, and then one day you went and made
an appointment?
A
One day I just marked the note urgent. We
were supposed to write a comment about why it was
so urgent, but really did not want to do that being as
I knew the secretaries in the office read that and I
didn’t really want more people knowing than had to
at the present time.
Q Did you put down any reason why it was
urgent?
A

No, I did not.

Q

You just wrote urgent?

A
Yes, at which point my grandma had managed
to get a hold of him sometime that morning.
Q

Okay.

A
So shortly after lunch I believe because I went
there at lunch to sit there and see if I could catch
him and he came in shortly before the end of my
lunch and I ended up speaking to him.
Q Okay. Was that the same day you left the note
or the day after?
A

It was the same day I left the note.

Q Okay. When you went in to talk to Mr. Jahner,
do you remember how much you told him?
A
I think I just gave him a general idea of what
was going on. I didn’t go into too many details
because of the point I was very emotional about it. I

216a
do remember I broke down crying a couple times
trying to tell him.
Q Okay. So you gave him some of the details, but
not all of the details?
A

Yes.

Q

What did he do?

A
He called social services and the police pulled
me out of class. I did not return to class until after
the fact to pick up my backpack.
Q

Okay.

A
No, wait, they told me to bring my backpack
with me. I returned the next day or the day after to
clean out my locker.
Q Okay. What happened after -- were you going
-- why did you have to clean out your locker?
A
Because I had moved to a foster home outside
of the school district, they were moving me to a new
school.
Q Okay. Sacha, why after so many years or how
were you able to finally tell somebody?
A
I’m not really sure. It just finally got to the
point where if I didn’t, it was going to completely
destroy me and at which point I realized I could not
let it do that and that point I realized if I didn’t do
something soon, Brittany night be next.
***

217a
APPENDIX R
_________
DISTRICT COURT, ARAPAHOE COUNTY,
COLORADO
_________
THE PEOPLE OF THE STATE OF COLORADO,
v.
CHARLES ARTHUR FARRAR,
Defendant.
_________
Case No. 01CR505
Division 11
_________
REPORTER’S TRANSCRIPT
[Tuesday, March 26, 2002]
_________
A P P E A R A N C E S:
FOR THE PEOPLE:
DARREN VAHLE, Reg. No. 28107
CHRISTINE SCHOBER, Reg. No. 30039.
FOR THE DEFENDANT FARRAR:
CRAIG TRUMAN, Reg. No. 5331
This matter came on for continued trial to jury on
Tuesday, March 26, 2002, before the Honorable John
P. Leopold, District Judge.

218a
This is a transcript of the proceedings had in this
case on that date.
_________
***
[Testimony of Sacha Brod, pp. 4:1, 5:16-9:22, 26:1631:23, 44:2-3, 44:11-12, 86:2-90:25]
***
MORNING SESSION, TUESDAY, MARCH 26,
2002
***
SACHA BROD,
called as a witness by the People, having been
previously duly sworn, continued testimony as
follows:
DIRECT EXAMINATION (CONTINUED)
BY MS. SCHOBER:
Q

Good morning, Sacha. How are you?

A

Good morning.

Q Good morning. Yesterday you remember we
left off talking about when you reported to your
counselor, Mr. Jahner. Do you recall that?
A

Yes.

Q And I think the last question I asked you is
why did you finally decide to tell.
A
I’d actually been trying to for awhile. I couldn’t
find anybody I trusted enough to tell for a long time,
but then when I did, it was just a hard time getting a
hold of Mr. Jahner because he was a very busy man.

219a
Q Okay. Now I want to talk about that a little
bit. When you thought about telling, you said that
you wanted to tell someone you trusted.
A

Yes.

Q And who would you consider someone you
trust?
A
It’s kind of more of a gut instinct than
characteristics I look for in somebody.
Q Is that usually someone you’ve known for
awhile as opposed to someone -A

Yes.

Q When you went to see your counselor, Mr.
Jahner, do you recall whether you immediately
started talking about the sexual abuse or whether
you talked about something else?
A
He had talked me how my day was going at
that point first and then we went into it.
Q

Okay. Did you talk about your day at all?

A

I said that my day was going fairly well.

Q Okay. Do you remember talking about some
sort of fight you had with one of your brothers?
A

Not really.

Q

Okay. Is that possible that happened that day?

A
It’s possible. It was
overwhelming end to a day.
Q

just

kind

of

an

After you talked to him, what happened?

A
After I talked to him, he told me he would take
care of the matter and told me he would probably call
me back down sometime during the day and sent me
back to class.

220a
Q Okay. At some point were you called back
down?
A

Yes, I was.

Q

And was that that same day?

A

Yes.

Q What happened when you were called back
down?
A
I spoke to a police officer and an intake worker
I believe named Stacia.
Q

Do you remember the police officer’s name?

A

No, I don’t.

Q

Was it a man or a woman, do you remember?

A

I honestly don’t remember.

Q Was it one police officer and an intake worker
named Stacia?
A

Yes.

Q Do you know if Stacia was from social
services?
A

I believe she was.

Q When you spoke with them, was it just those
two or was anyone else there?
A
I believe it was just the three of us in the
room.
Q Okay, and when you spoke with them, what
did you talk about?
A

The abuse.

Q So at that point you had talked briefly to your
grandmother?
A

(Nods head.)

221a
Q You have to answer out loud for the court
reporter.
A

Yes.

Q

And to guidance counselor Jahner.

A

Yes.

Q And you spoke to the social services person
Stacia and the police officer?
A

Yes.

Q When you spoke with Stacia and the police
officer, did you speak to them for a longer period of
time, gave them more detail?
A

I believe so.

Q Okay, and specifically did you give them more
detail than you gave to guidance counselor Jahner?
A

Yes.

Q And did you give them more detail than you
gave to your grandmother?
A

Yes.

Q When you spoke to each of these people, and
let’s start with Stacia and the police officer, did you
tell them the truth to the best of your ability?
A

Yes.

Q And did you tell them as much as you could
remember?
A

Yes.

Q Okay. When you spoke to guidance counselor
Jahner, again did you tell him the truth?
A

Yes.

Q

Same with your grandma.

222a
A

Yes.

Q Okay. I want to talk a little bit about your
memory ‘cause here we are in 2002 and you’re 17 and
we’re talking about things that happened from the
time you were 11 to 15, right?
A

Yes.

Q Okay. Do you think that your memory was
more clear about this when you talked to your
guidance counselor and the officer and the social
service worker or do you think it’s more clear today?
A

It was more clear then.
***

Q Okay. Okay. I want to go back and talk about
the progression of sexual activity that happened and
see if we can just narrow that down a little bit more,
okay?
So right around your eleventh birthday is when it
started; is that right?
A

Yes.

Q

And that’s November 28th?

A

Yes.

Q

Of --

A

Yes.

Q

So that would have been ’95.

A

Yes.

Q And first thing that started was groping,
touching, things like that.
A

Yes.

223a
Q How long did those incidents, recall each time
it happened as an incident, how long did that go on
until it progressed into something different?
A

Probably six months to a year.

Q

Okay. Just groping and touching.

A

Yes.

Q And then what happened next, what was the
next progression or the next step?
A
Um, him putting his mouth into my genital
area and breast area.
Q

And that’s what he called munching.

A

Yes.

Q And how long did that happen? How many -how long did those incidents happen before the
intercourse happened?
A

Probably about three to four months.

Q Okay, and are you guessing on the time
frames or is it clear in your mind?
A

It’s -- they’re approximate.

Q And then I think you said that once the
intercourse started, sometimes it would be
intercourse and sometimes it would be oral and
intercourse, sometimes just one, sometimes groping,
just kind of became a mix then?
A

Yes.

Q Okay. The first time, we talked a little bit
about that yesterday and you said that they had you
come downstairs and then had you get in the bed.
A

Yes.

224a
Q Do you recall whether Charles touched you
before you got in the bed?
A

No, I do not.

Q Okay. Do you remember at Sungate the yellow
house telling Jody that he touched you before you got
in the bed?
A
I don’t remember
interview at Sungate.

too

much

about

my

Q Okay. How much do you remember specifically
about that first time?
A

Um, at this point it’s just kind of blurry.

Q Okay. Part about being in the bed, though, is
pretty clear?
A

Yeah.

Q Okay. Okay. Yesterday we talked about when
it would happen and you said often late at night and
then sometimes in broad daylight.
A

Yes.

Q Okay, and I believe I asked you if you
remembered talking to Jody about the usual
procedure. Do you remember if I asked you that? I
may not have asked you that.
A

I don’t remember.

Q I think I just asked you if there was something
called the usual procedure or something you called
the usual procedure. Was there?
A

At this point not that I can really recall.

Q Okay. Did it ever happen early in the
morning?
A
Um, usually if it did, it was just before he
went to work and that wasn’t very often.

225a
Q Okay. Do you remember telling Jody at
Sungate that at times you would get up in the
morning and go into his room?
A
I don’t remember telling her that, but, yes it
did happen a couple times.
Q

Okay. Tell us about that.

A
There were times when I would be told when I
was woke up by Debbie that I needed to go in there
that morning and just kind of -- because I didn’t
know what else to do. I would kind of -- it was more
like walking in my sleep than anything else at that
point because it was more of a never-ending
nightmare.
Q

When you would go in, who would be in there?

A
I think once or twice she was in there, but the
rest of the times it was just Charles and I.
Q And when you would get in there, what would
he be doing?
A

Usually just lying on the bed.

Q

Okay, and then what would happen?

A
Um, I would be told to get in the bed and
things would progress from there.
Q

How would they progress?

A

It would just depend on his mood.

Q Were there times that you had to, and pardon
the term I’m going to use, but suck him into an
erection?
A

Yes.

Q

When would that happen?

A
Just later on. It was basically became an
ordeal every time.

226a
Q

Meaning that that’s what would happen first?

A

Yes.

Q

What would happen after that?

A

It would just vary with his mood.

Q

Okay. Examples of what would happen.

A
Sometimes it would move on to groping,
sometimes it would move on to him munching me.
Other times it was just go straight to the intercourse.
Q Okay. When these things would happen, how
would you know what to do?
A
He would usually tell me what I was supposed
to do or I just kind of played it by ear and what not.
Q Okay. Did Debbie ever tell you what to do or
help you?
A

Yes, there were times that she was involved.

Q Okay, and specifically can you give us some
examples of how she told you what to do or how she
-A
She would come in beforehand and tell me
what I was supposed to do that night or what not
and then she would usually be in the living room
with us and I would go in at those times.
Q Times she would tell you she wouldn’t, then
later be in the room?
A
It was usually after Austin was born that she
had to take care of Austin.
Q Before that then when she was in the room
you mentioned that some of the time she would be
holding you down.
A

Yes.

227a
Q Other times what would she be doing when
she was in the room?
A

Sometimes she would just watch.

Q

Other times?

A
Sometimes she would tell me what I was
supposed to do while watching.
***
Q

These things, did they really happen to you?

A

Yes.
***
CROSS-EXAMINATION

BY MR. TRUMAN:
***
Q All right. Now, let’s talk a little bit about the
family that lived at 480 Iola Street. That was your
address.
A

Yes.

Q And when you first moved in there, you lived
upstairs.
A

No.

Q When you first moved in there you lived
downstairs.
A

Yes.

Q And in the downstairs of that particular house
all the time that you lived there was in a remodeling
circumstance.
A
The room I had never had a door. The rest of
the house he fixed up.

228a
Q Well, the room that you had didn’t have a
door, correct?
A

Correct.

Q And the room Mr. Farrar and Ms. Brod shared
downstairs didn’t have a door?
A

It did when they moved in. He removed it.

Q And certainly it was removed before any of
these incidents that you’ve talked about occurred?
A

No.

Q Well, you told Ms. Schober that the first time
it happened there was no door there, didn’t you?
A
The door was open the first time I went down.
I mentioned I had not had to open a door.
Q In fact, you told Ms. Schober there was a
sheet?
A
Over my door he had sheets in the room. I
believe the door was still there the first time.
Q Do you remember talking with Jody Curtin at
Sungate on March the 15th, ’00?
A

Vaguely.

Q

Did you remember her asking about the doors?

A

Um, no.

Q Do you remember you telling her there’s never
been a door downstairs on the bedroom that Mr.
Farrar and Ms. Brod shared?
A
I do not remember telling her that. At the time
I may have because I was still in shock.
Q Now, you and Dustin always lived on the same
floor at 480 Iola.
A

Yes.

229a
Q And sometimes Brittany lived on your floor
and sometimes she did not?
A

Incorrect.

Q

Well, did Brittany live on your floor?

A

No.

Q

Ever.

A

Not the same time I did.

Q

Well, Brittany had nightmares, didn’t she?

A

Yes, she did.

Q And sometimes during those nightmares she
did get up in the middle of the night and go into Mr.
Farrar and Ms. Brod’s bedroom?
A
Um, I was not in there those nights, but the
nights I was I was told to go into Debbie’s closet.
Q So when Brittany would have nightmares the
middle of the night and she would come into the
Farrar/Brod bedroom while you were in there having
these incidences, correct?
A

Yes.

Q

You were instructed to hide in the closet.

A

Yes.

Q

And you did that?

A

Yes.

Q

How many times did that happen?

A

I don’t know. I didn’t count.

Q And I’m sure that hiding in the closet was
something that you remembered when you spoke
with Officer Williams, then known as Officer
Capron?

230a
A

I don’t know if I mentioned it, but I may have.

Q And certainly hiding in the closet while
Brittany came in was something that you told Jody
Curtin on videotape on March 15th?
A
I’m not sure if it was asked about, so I’m not
sure I mentioned it.
Q Well, you were trying to give Ms. Curtin the
entire story, weren’t you?
A

At the time, yes.

Q And there’s nowhere in the videotape that you
talked with her about -- there’s nothing that you ever
told her about hiding in the closets, was there?
A

I don’t know.

Q Well, let’s go back to the first time around
Thanksgiving in the year 1995. Do you remember
that?
A

Vaguely.

Q Had there been anything else that occurred
prior to the time that you were summoned to the
bedroom of Mr. Farrar and Ms. Brod?
A

Not that I can recall.

Q There had been no big traumatic incidents
before that?
A

Not that I recall.

Q When you spoke with Officer Capron, now
known as Officer Williams, on March the 7th, you
said that during Thanksgiving of your eleventh
birthday Mr. Farrar had thrown you around by your
hair?

231a
A
That had been one of the room cleaning
incidents. As I said, I do not recall too many details
at this point.
Q

And so that was traumatic, wasn’t it?

A

Yes.

Q

But you didn’t remember that today.

A
Too many incidents. The dates are not clear in
my head any more.
Q Well, certainly you didn’t like getting thrown
around by your hair.
A

No, I did not.

Q

So you cleaned up your room.

A
I attempted. Like I said, I have no storage in
the room.
Q

But other than that, your room was clean.

A
It was hard to clean the room when you had no
place to put things.
MR. TRUMAN: May I go to the witness?
THE COURT: All right.
Q
(BY MR. TRUMAN) Let me show you what
I’ve marked as Defendant’s Exhibit D for delta. Can
you tell me what that is?
A
The room with very limited storage. Most of
that had been pulled out of the closet because I had
been told to find something or I may have been
looking for a shoe because I had no place to store
shoes separately. I had boxes upon boxes of
belongings piled in the closet floor. In a hurry in the
mornings I would go through and I often did not keep
the room clean or often I just did not feel like

232a
cleaning it because of the fact I was tired and had no
energy.
***
[Testimony of Stacia Schmied, pp. 195:15-208:15]
***
STACIA SCHMIED,
called as a witness by the People, having been first
duly sworn, testified as follows:
DIRECT EXAMINATION
BY MS. SCHOBER:
Q Good afternoon. Could you please state your
name and spell both your first and last name for the
record?
A
It’s Stacia Schmied. S-t-a-c-i-a. The last name
is S-c-h-m-i-e-d, as in David.
Q

Ms. Schmied, where do you work?

A
Arapahoe County Department of Human
Services.
Q

And how long have you worked there?

A

Three and a half years.

Q

Do you have a title or --

A

I’m considered a Caseworker C.

Q Okay. Can you describe for the jury what your
duties are as a Caseworker C?
A
Sure. I’m a child abuse investigator. I
primarily work in one particular area in my job and I
investigate the referrals that initially come in when
they’re alleging abuse of -- allegations of abuse or
neglect. I’m the intake worker who goes out to assess

233a
and determine what services needs to be put in place
or what action may be necessary with the family.
Q How do these referrals come in to the
Department of Social Services?
A
We have one particular unit that we refer to
as our screeners. There’s approximately eight people
in there who take the phone calls that come in from
the community all for Arapahoe County and they
take every phone call that comes in.
Q

Okay. So mostly phone calls?

A

Um-hum.

Q

Okay.
THE COURT: Yes or no, please.
THE WITNESS: Yes.

Q
(BY MS. SCHOBER) And that is because Ms.
Heymans has to type down everything you say.
On March 7th of the year 2000 did you receive a
referral regarding sexual abuse of a girl by the name
of Sacha Brod?
A

Yes, I did.

Q Okay, and do you recall who that referral was
from?
A
Um, yes, the reporting party is normally
confidential unless directed otherwise by the court.
Q

That’s okay. We don’t have to go there.

As a result of that referral did you do something?
A
Yes, I was notified of the referral and
responded to the school.
Q

Okay.

A

Where the child attends.

234a
Q

Okay. Also did a police officer go to the school?

A

Yes.

Q And did you call the police officer or do you
know how that came about?
A

I contacted the Aurora Police Department.

Q

Okay, and is that normal course?

A

Yes, it is.

Q

Okay. Do you recall what school?

A

South Middle School.

Q Okay. When you got there, then, did you have
a chance to meet with the child Sacha Brod?
A

Yes, I did.

Q

And where did this meeting take place?

A
In one of the conference rooms in the front
office of the school.
Q

Okay. Who else was there for that meeting?

A

Myself and the Aurora police officer.

Q

Do you remember that person’s name?

A

Yes, Jacki Capron.

Q

Okay, and she is now Jacki Williams?

A

Yes, Capron Williams.

Q But we will talk about Officer Capron since
that was her name at the time.
A

Right.

Q Did then an interview -- was an interview
conducted with yourself, Officer Capron, and Sacha
Brod?
A

Yes, it was.

235a
Q Okay. Before we get into what was said, can
you tell us the circumstances of the interview, who
was asking questions, things like that?
A
Primarily the officer proceeded with asking
the questions and, you know, I asked questions
throughout the interview as necessary.
MS. SCHOBER: Okay. Judge, I would ask
that you read the instruction.
THE COURT: Ladies and gentlemen, once
again you’re about to hear statements made by
Sacha Brod outside of the courtroom. It is for you to
determine the weight and credit to be given to these
particular
statements.
In
making
that
determination, you shall consider the age and
maturity of the child, the nature of the statement,
the circumstances under which the statement was
made, and any other factor you deem relevant or
appropriate.
Thank you and let’s continue.
Q
(BY MS. SCHOBER) Going into
interview, what information did you have?
A

Actually before I asked her any questions?

Q

Yes.

the

A
I had been told that Sacha had made
allegations of sexual abuse by her stepfather and she
was concerned about remaining in her home.
Q Okay. Can you now tell the jury what Sacha
told you about what had been happening?
A
Um, Sacha explained to the officer and I that
after a few days after her 11th birthday she had been
asked by her mother to come into the bedroom of her
parents and at that time she was standing next to a

236a
bed and both her mother and father were lying
naked in the bed and her stepfather began to grope
her in the groin area and on her breasts.
Q

Okay. What did she say happened next?

A
She does not recall how long the situation
lasted. She went back to her bedroom or she went to
sleep and it was approximately I believe she said two
weeks after that that the next incident occurred.
Q Okay. Still talking about that first incident
and then we’ll move on.
A

Okay.

Q Do you recall whether she said anything about
having to get into the bed with them?
A
I believe she said she was asked to get into the
bed and lie in between them.
Q

Okay, and what happened in the bed?

A
Her stepfather continued to grope her on her
breast and in her groin area and I believe she said
that her mother had kept telling her to relax at that
time.
Q Okay, and then you said that she said she
wasn’t sure how long it lasted, but then she went
back to her bedroom?
A

Correct.

Q Okay. Did she tell you how many times that
type of sexual contact occurred?
A
All together or just -- over the years she said it
was many, many times.
Q Okay. Did she discuss with you that at some
point the sexual contact progressed into something
else?

237a
A

Um-hum.
THE COURT: Yes or no, please.
THE WITNESS: Yes. I’m sorry. Yes, she did.

Q

(BY MS. SCHOBER) What did she tell you?

A
That approximately I believe it was two
months after the initial incident where she described
the groping that it progressed into what she referred
to as her stepfather munching her.
Q

Okay. What was she talking about?

A

She described oral sex.

Q Okay, and did she discuss with you how many
times that had occurred?
A
Um, she said it was more than once. She
reported there were times when this would
frequently happen a couple times during the week
and then there were times where it would go a whole
month before there was any new activity.
Q And right now are you specifically talking
about munching or just sexual contact in general?
A
I believe that was the munching and the
groping in general.
Q Okay. Did she go on to describe that that then
progressed into further sexual contact?
A
Yes, approximately six months after the first
incident she had stated that it progressed into sexual
intercourse.
Q Did she describe for you and Officer Capron
what sexual intercourse was?
A
She -- she described how it progressed was she
was to go into the room and suck him into an
erection and then she was to climb on top of him and

238a
she described that as his penis becoming stiff and
bigger.
Q Okay. She say when these things would
happen?
A
Late at night. I recall her saying late at night
after the other children were in bed or early in the
morning like before school at five in the morning.
Q Okay. Did she talk to you about her mother
being present?
A

She did.

Q

What did she say?

A
Um, she described her mother being present
from the first incident and I believe she was there for
the second incident where it progressed into
munching and then also the sexual intercourse and
then she said there were oftentimes the mother
would be out in the living room with the younger
children watching them and other times she would
actually be in the bedroom and be present.
Q And just so that I’m clear, was it your
understanding that there was a groping incident and
then the second incident was munching or there was
some groping and then -A
As I recall, it was groping and then progressed
into munching approximately two months.
Q

Okay.

A

To the best of my recollection.

Q Okay. Did she talk to you about a time when
her mother was present that her mother actually
physically did anything?

239a
A
Yes, she described one of the munching
incidents, that’s how she kept referring to it, that her
mother had pinned her or held her arms down while
in the bed while her stepfather proceeded.
Q And did she tell you how many times that
happened?
A

I don’t recall.

Q Okay. Did you write a report about this
conversation that you had with Sacha Brod?
A

Yes, I did.

Q Would it refresh your memory to look in the
report?
A

Yes.
MS. SCHOBER: May I approach, Your Honor?
THE COURT: Yes, counsel.

MS. SCHOBER: Counsel, this is page 70 of
discovery.
MR. TRUMAN: Thank you.
Q
(BY MS. SCHOBER) And I’m just going to
help you and point to a line, if you can read that, tell
me if that helps you remember and I’ll ask you a
question again?
A

During -THE COURT: No, no read it to yourself.
THE WITNESS: Oh. Sorry. Okay.

Q
(BY MS. SCHOBER) Does that help you
refresh your memory?
A

Yes.

Q How many times did her mom participate by
holding her down?

240a
A

At least two. It refers to a couple.

Q Okay. Did Sacha Brod talk to you about her
stepfather, her mother’s boyfriend asking her to
engage in sex with anybody else?
A
She did. She described an incident where she
said her stepfather approached her about getting a
friend and her and her friend providing sexual favors
to some of his work buddies, I believe.
Q Okay, and did she -- did she say sexual favors
or did she phrase that in a different way?
A
She might have phrased it, I remember
specifically she said that he offered to pay her to
provide some sort of sexual acts.
Q

Okay.

A
But I don’t recall her specifically saying what
they might have been.
Q Okay. If you have the word do in quotation
marks?
A

Um-hum.

Q

Would that be her word?

A

Yes.

Q And do you recall how much he said he would
pay her?
A

I do not.

MS. SCHOBER: Okay. May I approach, Your
Honor.
THE COURT: Yes.
MS. SCHOBER: Same page. 70.
THE WITNESS: Okay.

241a
Q
(BY MS. SCHOBER) Does that refresh your
recollection?
A

Yes.

Q

How much?

A

$30.

Q

Okay.

A

Per person.

Q

Per guy?

A

Per guy.

Q

Did she tell you whether she ever did that?

A

She said she did not.

Q Did she talk to you at all about receiving
money for the sexual incidents that were happening
with her stepfather and mother?
A
Um-hum. She, Sacha, has stated that she
initially was paid a couple days after these things
would happen. I believe she reported it started out at
like $10 and then progressed and had received as
much as $20.
Q Did she talk at all about when the last time
was that something of this nature had occurred?
A
Um, I interviewed her -- I would like to say I
think it had been as soon as two weeks prior to my
interview with her.
Q

On March 7th.

A

Yes.

Q What was Sacha’s demeanor when you and
Officer Capron were speaking with her?
A
Um, she was upset visibly. She had been
crying. Her face was splotchy. She was a very

242a
forward -- she just kind of started pouring stuff out
as we asked questions. And she made a lot of really
good eye contact, but she was very visibly upset by
what she was reporting.
Q Okay. When you talk about the questions that
you asked her -A

Um-hum.

Q -- are you aware of the difference of what an
open-ended question is as opposed to a leading
question?
A

Yes.

Q

What’s a leading question?

A
Um, a leading question would be, say, if you
were to use the alleged perpetrator’s name in the
question versus saying has anyone ever.
Q

Okay.

A

Or instead of saying did so and so touch you.

Q And what type of questions do you use when
you’re trying to gain information from children?
A

We’re required to use open-ended questions.

Q

Why is that?

A
Because for purposes such as these. The
training we receive in regards to performing the
interviews clearly tell you leading questions does not
give a child a chance to make a clear disclosure about
what has happened.
Q And in your interview with Sacha Brod, what
types of questions did you use?
A

Open-ended question.

Q And Officer Capron, what type of questions
did she use?

243a
A

Open-ended questions.

MS. SCHOBER: Okay. May I have a moment,
Your Honor?
THE COURT: Yes.
Q
(BY MS. SCHOBER) And I might not have
clarified this enough, but when we talk about when
Sacha initially started talking about the groping and
then talked about it progressing into what she called
munching?
A

Correct.

Q Did she talk about the groping happening
several times before the munching or do you
remember?
A
Several times before the munching incident
occurred.
Q Okay, and just in general sexual contact over
the four years, how long did she say or, I’m sorry,
how many times did she say that happened?
A
I don’t recall her giving a specific number of
times, but, um, it was a lot.
Q

Okay.

A

I’m sorry.

Q And you had mentioned before she said a -two or three times a week?
A

Um-hum.

Q

Okay.
THE COURT: Yes or no, please.
THE WITNESS: Yes.

244a
MS. SCHOBER: I have no further questions.
Thank you.
***

245a
APPENDIX S
_________
DISTRICT COURT, ARAPAHOE COUNTY,
COLORADO
_________
THE PEOPLE OF THE STATE OF COLORADO,
v.
CHARLES ARTHUR FARRAR,
Defendant.
_________
Case No. 01CR505
Division 11
_________
REPORTER’S TRANSCRIPT
[Monday, April 1, 2002]
_________
A P P E A R A N C E S:
FOR THE PEOPLE:
DARREN VAHLE, Reg. No. 28107
CHRISTINE SCHOBER, Reg. No. 30039
FOR THE DEFENDANT FARRAR:
CRAIG TRUMAN, Reg. No. 5331
This matter came on for continued trial to jury on
Monday, April 1, 2002, before the Honorable John P.
Leopold, District Judge.

246a
This is a transcript of the proceedings had in this
case on that date.
_________
***
[Closing argument of Mr. Vahle, p. 25:11-23]
***
Ladies and gentlemen, this case comes down to
credibility. At the beginning of this case when I
stood up in voir I told you at the end of this matter I
would ask you to come back and believe Sacha Brod.
We talked about physical evidence, we talked about
fingerprints, some of the things that are typically not
found in sexual assaults on children.
We talked about how videotapes, even if they’re
taken, don’t usually get in the hands of law
enforcement. Those things get hidden, thrown away,
or destroyed, and I told you I would ask you to
believe Sacha and this case comes down to do you
believe the defendant and what he said on the stand
or do you believe Sacha. That’s what it comes down
to.
***

